%
py

NO:

%0°5455
IN THE
SUPREME COURT OF THE UNITED STATES

F areed-S epehry-F ard----PETITIONER

FILED
JUN 0 1 2020

V.

g^%°/cTo^L5RsK

Aurora Bank FSB, GPM Heloc, Bank of America, U.S. Bank National
Association as trustee for GreenPoint Mortgage
Funding, Frank H. Kim, Severson & Werson---- RESPONDENTS (s)
ON PETITION FOR WRIT OF CERTIORARI TO
Supreme Court of California, Case No. S260411
After an Unpublished Decision by the Court of Appeal
PETITION FOR WRIT OF CERTIORARI
Fareed-Sepehry-Fard, Sui Juris
C/o 12309 Saratoga Creek Dr.
Saratoga, the State of California, Santa Clara County
(Zip code Exempt DMM 602 sec 1.3(e))
Phone Number (408) 690-4612
Email: Ahuraenergysolarcells@msn.com

pgcgviio '
jut »

If

t

Notice to Agent is Notice to Principal and Notice to Principal is Notice to
Agent.
\.

QUESTION PRESENTED
A recalled judge in 2018, Mr. Aaron Persky of Superior Court
of California, County of Santa Clara, granted relief in 2012 to strangers to an
alleged financial transactions, while blocking any and all Petitioner's
attempts, of cjiscovery.
IftOfThS attorneys at Severson & Werson APC admitted, later on, that they
. ir?: i .f’,,
i

fr-

• i

, f.

•1

•

-

1

>.

.

f

f

'

never ever had or have any power of attorney to represent neither U.S.
BANK NATIONAL ASSOCIATION, AS TRUSTEE FOR GREENPOINT
MORTGAGE TRUST MORTGAGE PASS-THROUGH CERTIFICATES,
SERIES 2007-AR2 ("the ghost") which never existed and does not exist nor
U.S. BANK NATIONAL ASSOCIATION nor from any damaged party,
party of interest and holder in due course of the alleged debt, alleged note
[which is forged] and alleged mortgage.
The facts are that, all cases, including traffic, civil, criminal, civil
harassment et. al., filed in courts are assigned Committee on Uniform
Securities Identification Procedures ("CUSIP") numbers which are traded on

7,wall street and monetized through variety of ruses, to wit: through Credit
/

i

i

SDefault Swaps ("CDSs"), Collateralized Debt Obligation ("CDO"), Yield
1 .•/’.i'

i

ii

F
Spread Premiums, all other insurance payouts, leveraging on deprivation of
people's rights under the color of law (packaged as CUSIP numbers), in
violation of 18 US Code Sections 241 and 242 as well as Title 42 US Code
sections 1983 and 1985, among others.
In majority, if not all these cases, the sources of the monies used for
these CUSIP numbers' trades, are from sex and human trafficking, child
trafficking, drug cartels and unlawful conduct.
The court administrators erroneously labeled as judges, such as but not
limited to the recalled judge, Mr. Persky, systematically denied and deny
any and all discoveries as to proof of the value allegedly paid for these
fabricated and false transactions by the identified entities since: 1) they
know, those sources identified, are not the sources who paid anything for the
alleged financial transactions identified in the manufactured paper trail filed
in courts and in county recorder; 2) they are bribed to disallow discovery.
From time to time, some court administrators, based on ignorance, or
simply because, they can not be bought, or both, allow for discovery, and all
of sudden, the homeowner would be offered a confidential settlement offer
by the ghost's culprits, yet the criminal enterprise continues its operations as
usual, on other victims. The review by this court of records is a matter of
National Security.

iii

Al
Moreover, the court of Appeal in Sepehry-Fard expressly set aside
perfection of Petitioner's Arbitration Award, as if it did not exist, creating an
irreconcilable conflict in the published SCOTUS decision in Henry Schein,
Inc., et al. v. Archer & White Sales, Inc. certiorari to the united states court
of appeals for the fifth circuit No. 17-1272. Argued October 29, 2018—
Decided January 8, 2019. The issue presented is:
Should this court end the conflict in lower courts by applying Schein
rules nationwide that Arbitration Award is effective upon its perfection
under notary witness sworn affidavit, non-judicially where the issue of the
Arbitration Award as an operation of law is the pre-cursor to the secondary
questions thus disapproving lower courts' interpretation of non-judicial
Arbitration Award specially when those interpretation was done by a very
corrupt recalled judge which has significantly damaged Petitioner
economically, physically and emotionally and continues to damage
Petitioner economically, physically and emotionally?

iv

i

w

*1

LIST OF PARTIES
All parties appear in the caption page of the case on the cover page.

V

V',

t

TABLE OF CONTENTS

OPINIONS BELOW.

1

JURISDICTION

,2

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED

.2

STATEMENT OF THE CASE

3

A.

What the Petition to Recall Remittitur Asked the
California Supreme Court to Do?.......................

5

B.

Trial Court Proceedings

10

C.

The Court of Appeal Affirms

11

D.

Post-opinion proceedings

14

ARGUMENT.

15

A.

This Court should grant review to end confusion in the
lower California courts over the unanimous decision in
Henry Schein, Inc., et al. v. Archer & White Sales, Inc.
that arbitration award is not a cause of action but a fact.... 15

B.

This Court should grant review in the interest of justice
since there is ample proof positive of no loan made to
Petitioner from any of the Respondents which is the
same as the arbitration award and Petitioner still wins...

28

REASONS FOR GRANTING THE WRIT

31

CONCLUSION

34

vi

vi-

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D

vii

TABLE OF AUTHORITIES
CASES

PAGE NUMBER
California Cases

Keshtgar v. US. Bank, NA., 2104 Cal.App.
LEXIS 498 (Cal. Ct. App. 2nd Dist.,
Div. Six June 9, 2014)..............................

.Passim

Sepehry-Fard v. Aurora Bank CA6 (2016)

3,5,33

Yvanova v. New Century Mortgage Corp.,
226 Cal:App.4th 495 (2014)......................

3,4

Gomes, supra, 192 Cal.App.4th................

3

Serrano v. Stefan Merli Plastering Co., Inc. (2008)
162 Cal.App.4th 1014, 1029...................................

13

Federal Cases
US. v. Tweel, 550 F. 2d.297

21

Culhane v. Aurora Loan Services, 708 F.3d
282, 290 (1st Cir. 2013)..............................

Passim

Ohlendorf v. American Home Servicing, 279
F.R.D. 575 (E.D. Cal. 2010).........................

Passim

Media Technologies Licensing, LLC v. Upper
Deck Co., 334 F.3d 1366, 1370 (Fed. Cir. 2003) (Cal)
Sosa v. Fite, 498 F. 2d 114, 116, 117 (5th Cir. 1974)

viii

23

Passim

Supreme Court Cases
Basso v. Utah Power and & Light Co. 495 F 2d 906, 910
Lujan v. Defenders of Wildlife, 504 U.S. 555,
570 n.5 (1992)...............................................

13,14
22

Rent-A-Center, West, Inc. v. Jackson, 561 U. S. 63, 67

16,18

AT&T Technologies, Inc. v. Communications Workers,
475 U. S. 643, 649-650................................................

16,18

Keene Corp. v. United States, 508 U.S. 200, 207 (1993)

,22

Compton v. State ofAlabama, 214 U.S. 175 (1909)

16

STATUES AND RULES
California Statutes
California Commercial Code 3308

7

California Rules of Court
Rule 8.25 (b) (3)

15
Statues and Other Authorities

Title 9, US Code

24,25

Cal. Const., art. VI, §10.

13

Civil Code of the State of California section 3516

16,17

Fed. R. Civ. P. Rule 12 (h) (3)

29

Black’s Law Dictionary

24
ix

Article 1 section 10 of the Constitution,
Article III

7
22

Internal Revenue Code §§§860D, 860F(a),
860G(d)....................................................

9

Rest.2d Conf. of Laws, § 32

12

Code of Civil Procedure Section 170.3(c)(5)
Demarest v. Hopper, 22 N. J. Law, 019;
Martin v. Railroad Co., 83 Me. 100, 21 Atl. 740;
Yeeder v. Mudgett, 95 N. Y. 295.......................

14,15

,24

Bureau of Land Management, Public Information Office

.Passim

Land Patent,

.Passim

Treaty of Guadalupe Hidalgo
between the United States and the Republic of Mexico

Passim

X

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below issued by a recalled Superior Court
of California, Santa Clara County Court judge.

OPINIONS BELOW

The Decision of the highest state court Denying to Recall
Remittitur based on a void judgment issued by a recalled
judge appears at Exhibit A [1 PT 6]1 and is unpublished.
The Decision of the 6th District Court of Appeal, the 2nd
highest state court, rejecting Motion to Recall Remittitur
based on a void judgment issued by a recalled judge
appears at Exhibit B [1 PT 12-23] and is unpublished.
The Opinion of the Santa Clara County recalled Court
judge appears at Exhibit C [1 PT 49-54] and is
unpublished.
PT stands for Petitioner's Transcripts concurrently filed, [1 PT
49-54] means volume 1 of Petitioner's Transcripts pages 49 to
54 inclusive, etc. etc
-1 -

JURISDICTION

The date on which the highest state court decided my case
was on March 11, 2020. A copy of that decision appears
at Exhibit A [1 PT 6].
The jurisdiction of this court is invoked under 28 U.S.C
§ 1257(a) and 5th amendment right to due process.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Petitioner was unable to obtain an impartial arbitrator and
an impartial forum, without bias, pursuant to the 4th, 5th, 6th, 7th,
i.L

and 14 Amendment guaranteed rights of the federal
Constitution of 1787, as purviewed by the states for
Complainant, Petitioner and Appellant Fareed -Sepehry-Fard.
Petitioner has been wronged by a recalled judge, and as an
American, is due remedy.
Accordingly, the lower court order is void on its face, in
fact and in law due to inter alia, recalled judge's void order, who
had neither In Personam nor subject matter jurisdiction, Id.

-2-

STATEMENT OF THE CASE

Petitioner, Plaintiff and Appellant Fareed-Sepehry-Fard,
Sui Juris, (or "Petitioner") appealed a decision by the trial court
sustaining a demurrer to the Second Amended Complaint (or
"SAC") without leave to amend, order issued by a recalled judge,
Exhibit A [1 PT 49-54].
The court of appeal upheld the demurrer. Sepehry-Fard v.
Aurora Bank FSB CA6, opinion at Exhibit B [1 PT 36 - 48].
Yet, the court of appeal also agreed that "In dicta, the court in
Gomes suggested that a preemptive attack on a nonjudicial
foreclosure might adequately state a cause of action if the
complaint provides a “specific factual basis” to call a defendant’s
authority to foreclose into question. (Gomes, supra, 192
Cal.App.4th at p. 1156, italics omitted.)", Id, at page 45.
Later on, California Supreme Court in Yvanova v. New
Century Mortg. Corp., 365 P.3d 865, 850 (Cal. 2016) said that it
is against the law for complete strangers to Petitioner, as in here;
to do anything against the Petitioner without any evidentiary
-3-

hearing, and in fact blocking discovery, as in here, as to the
standing of the Respondents and their proof of payment for the
alleged debt, doubly voiding the void order issued by the recalled
judge, "The borrower owes money not to the world at large but
to a particular person or institution, and only the person or
institution entitled to payment may enforce the debt by
foreclosing on the security." Emphasis added, Yvanova, Id.
Since Relief was granted to complete strangers to
Petitioner based on facts on records without any authority and
any relationship with Petitioner, whatsoever, Petitioner has been
harmed economically, emotionally and physically, by and
through a void order issued by a recalled judge, who conducted
several ex parte communications with Respondents' attorneys
who admitted to Petitioner later on that the attorneys do not and
never did represent neither U.S. BANK NATIONAL
ASSOCIATION, AS TRUSTEE FOR GREENPOINT
MORTGAGE TRUST MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2007-AR2 nor U.S. BANK
NATIONAL ASSOCIATION.

-4-

This summary of facts is based on sworn statements of
Petitioner made in the Petition to recall remittitur.
A.

What the Petition to Recall Remittitur Asked the
California Supreme Court to Do?

Petitioner asked The California Supreme Court to recall
the void remittitur issued by California Sixth District Court of
Appeals based on an order issued by the recalled judge Mr.
Persky, Exhibit D at [1 PT 78-90].
Petitioner presented to the lower courts in addition to fact
that the remittitur issued by a recalled judge is void and of no
force and effect, it must additionally be reversed because it was
based on the predicate ownership of the alleged debt by an entity
that never existed, does not exist, never had any bank account,
never paid for anything since it was never funded, and was used
a rented name by Nationstar Mortgage LLC. (Aurora Bank)
using very corrupt and bribed judges to use People's homes as
conduits to conduct unlawful money laundering for pedophiles,
drug cartels, sex traffickers and others when there is absolutely
no relationship between the false claimants, that never existed,
do not exist, without any power of attorney to the alleged debt
-5-

collector attorneys to conduct any acts against Petitioner and
injured man, whatsoever.
Petitioner stated under oath that the false claimants have
been committing acts of piracy and grand theft of Petitioner's
home when there were never ever any relationships of any kind
among Petitioner and any and all the false claimants, whoever
they may be, since the named claimant, to wit: U.S. BANK
NATIONAL ASSOCIATION, AS TRUSTEE FOR
GREENPOINT MORTGAGE TRUST MORTGAGE PASS­
THROUGH CERTIFICATES, SERIES 2007-AR2 ("the ghost")
never existed and does not exist and the attorneys have admitted
that they have no power of attorney neither from the ghost nor
from U.S. BANK NATIONAL ASSOCIATION nor from any
damaged party, party of interest and holder in due course of the
alleged debt, alleged note [which is forged] and alleged
mortgage.
Moreover, attorneys admitted on records that they have no
power of attorney from any damaged party, Exhibit D (1 PT, at
pages 78-87.)

-6-

Petitioner declared and obtained an arbitration award,
through a notary witness, that the Respondents' security
instrument was null and void and made a record of that in county
recorder, see Instrument Number 21300093 filed in Santa Clara
County Court on September 1, 2011.
Petitioner alleged harm done to Petitioner and that there
were never ever any loan made to Petitioner from any of the
Respondents and their co parties, Exhibit D (1 PT, at page 69 and
throughout PT.) Petitioner challenged the trial court on its In
Peronam jurisdiction and subject matter jurisdiction over
Respondents, Petitioner through proper judicial notice, made a
record that per Article 1 section 10 of the Constitution:

"No

State shall enter into any Treaty, Alliance, or Confederation;
or Law impairing the Obligation of Contracts...." and that
Petitioner already has his judgment and required court's
assistance in enforcing that judgment and that Petitioner never
received any "loan" from any of the Respondents, Id., that
Petitioner wants his monies back, that the judge agreed to a trial
by jury pursuant to Petitioner's 7 amendment rights but the
judge failed to deliver, that Petitioner pursuant to UCC 3-308
-7-

K

(which is the same as California Commercial Code 3308)
disputed all the signatures on the alleged note and false
assignments because Petitioner complained that his signature on
one or more promissory notes were forged and subsequently
Petitioner complained to Police about his identity theft at [1 PT
24], to Federal Trade Commission about his identity theft and
securities fraud committed and perfected by the Respondents and
their culprits at [1 PT 27-29], and to all three credit reporting
agencies where Petitioner's identity had been stolen by using
incorrect names and 16 different addresses for Petitioner when
none of them were correct at [1 PT 30] and using a social
security number that does not belong to Petitioner since it ended
with 6 where Petitioner's Social Security Number ends with 7
and not 6 at [1 PT 31], that numerous false assignments were
fraudulent and void which repeatedly revealed several broken
chain of title among various entities and the original so called
"lender" and that there were never ever any "for value
consideration" or payment for any of the false assignments that
false paper trail, Respondents created in the county recorder to
create a false air of privity between Petitioner and the
-8-

Respondents when there has never been any, in addition to the
fact that those false assignments, years after the alleged trust had
been closed, clearly violated state and Federal trust laws,
REMIC | Internal Revenue Code §§§860D, 860F(a), 860G(d).
A REMIC or special purpose vehicle (SPY) is an entity
that is created for the specific purpose of being a tax-free pass­
through for interest income generated by pooled mortgages. This
allowed investors to purchase shares or certificates in a mortgage
pool that was only taxed once at the investor level. The REMIC
rules allowed the mortgage pools to collect interest income from
the pool and disburse that income to the certificate holders taxfree at the pool level. Prior to the REMIC, interest income from
pooled mortgage investments were taxed twice, once at the pool
level and again at the investor level.

REMIC rules are very

specific, and to qualify as a REMIC under federal and state tax
codes, the SPY had to meet very stringent requirements. With
respect to RMBS the controlling trust document is known as the
Pooling and Servicing Agreement (PSA). One function of the
PSA is to establish the rules governing the trust such that the
trust’s activities and management conform to IRC 860. If the
-9-

trust did not conform, it looses its REMIC status and its tax-free
pass-through status, therefore the alleged contract, in addition, is
void in view of numerous false assignments, post closure of the
alleged trust in 2007.
B.

Trial Court Proceedings
Based on Petitioner's judgment and arbitration award, non

-judicially at inter alia Instrument Number 21300093 filed in
Santa Clara County Court on September 1, 2011 in addition to
the several break in the chain of title, Petitioner sued
Respondents. Petitioner filed the original complaint on
September 2011, (1 PT, at page 37.) The Defendants demurred
to this complaint, but petitioner was granted leave to amend.
Petitioner filed first amended complaint (or "FAC"), the
Defendants again demurred to the FAC, but petitioner was
granted leave to amend FAC. In FAC, Petitioner alleged that
Respondents have reported derogatory and adverse credit
reporting to credit agencies on an unsubstantiated debt when
Respondents have been complete stranger to Petitioner and once
again complained that there has never ever been any default
since Petitioner does not and never did have any loan with the
-10-

I—

Respondents, that Respondents have extorted monies and stolen
monies from Petitioner, that Petitioner already has his judgment
and requested the court to enforce Petitioner's judgment, that
Petitioner again challenged the court's subject matter and In
Personam jurisdiction over the Defendants since they never

\
\

appeared in any court of records, (1 PT, at page 37). In Second
Amended Complaint, Petitioner again challenged the court's In
Personam and subject matter jurisdiction over Respondents and
provided offer of proof, the recalled judge blocked discovery,
conducted ex parte communications with Defendants, completely
railroaded Petitioner at every turn and repeatedly denied
Petitioner's due process rights.
C.

The Court of Appeal Affirms.

Petitioner appealed. On December 31, 2015, Petitioner
moved the court to strike Respondents' brief in its entirety based
on inter alia, court's lack of In Personam and Subject matter
jurisdiction over Respondents. The presiding judge denied that
motion without any opinion on January 13, 2016, [1 PT 10].
Petitioner then filed for a motion for Findings and Facts and
Conclusion of law on January 15, 2016. Again, the presiding
-11 -

judge without any opinion denied that motion on January 22,
2016.

Petitioner on January 19, 2016, filed a notice of

fraud on court to clerk, prima facie evidence of collusion and
conspiracy to deny rights and racketeering perfected by public
servants dressed as judges, [1 PT 10].

On January 20,
/

2016, Petitioner filed his Partial Material for Oral Arguments.

/

On February 16, 2106 the court of appeal affirmed in an
unpublished opinion, [1 PT 36].
\

In the court of appeal memorandum decision entered in
court of records on February 16, 2016, the court appears to have
espoused that petitioner has challenged the lower Court’s and
the Appeal court's jurisdictional authority over the existing
causes of action, by citing," We begin by addressing plaintiff’s
argument that the trial court lackedpersonal and subject matter
jurisdiction. By voluntarily filing a complaint and appearing at
hearings in the trial court, plaintiff consented to the trial court’s
exercise ofpersonal jurisdiction. (See Rest. 2d Conf. ofLaws, §
32 [“A state has power to exercise judicialjurisdiction over an
individual who has consented to the exercise ofsuch
jurisdiction. ”].) As for subject matter jurisdiction, “[tjhe
- 12-

\

'I

California Constitution confers broad subject matter jurisdiction
on the superior court. (Cal. Const., art. VI, § 10.) ” (Serrano v.
Stefan Merli Plastering Co., Inc. (2008) 162 Cal.App.4th 1014,
If

1029.) While there are some limitations on the subject matter
I

jurisdiction of the superior court (e.g., matters ofexclusive

l

I

federal jurisdiction), those limitations do not apply to any causes
ofaction in the first amended complaint.".

I

discounting the fact
I

that Petitioner already had his non judicial arbitration award, Id.
by erroneously citing, as a hybrid of factual findings and legal
conclusions, that the court’s determination is reviewed de novo,
"We review a judgment of dismissal based on a sustained
demurrer de novo", opinion, [1 PT 40].

i

Furthermore, once Petitioner challenged the court's
I
i

jurisdiction over the Defendants and the subject , the court must
have ordered and granted Petitioner's repeated demand for
discovery in order to ascertain, inter alia, the existence of the
‘

alleged trust, the existence of the so called certificate holders and

!

their identity, proof of payments from the alleged identified
certificate holders for the certificates at the alleged claimant to
2 Basso v. Utah Power and & Light Co. 495 F 2d 906, 910.
-13 -

!
(

■p
\
M
l
■
i

i

*

!

i

.

DECLARATION
!

V
'■ '"-X

■

2
!

i: a man, Fareed :Sepehry-Fard® ("Petitioner"), declare:
1

3

i

J

* •»*

!

■ c.

.) •
i

4

1. i: am a man of Republic of California and an American National, ii: have;
personal firsthand knowledge of the facts set forth in this declaration. If called

5

upon to testify as a witness re same, i: a man, Fareed-Sepehry-Fard® could and
would competently testify to the facts in this declaration.

6

i

1

2. Everything that i, a man, Fareed-Sepehry-Fard® have stated in "MANDATORY
7

t

8

JUDICIAL NOTICE AND PRESENTMENT TO CLERK FOR AN ORDER •
TO ALLEGED ATTORNEYS’ PROOF OF. REPRESENTATION OF
I

9

ALLEGED REAL PARTIES IN INTEREST; DECLARATION") which is

t

concurrently filed with this Declaration are truth to the best of my (a man's)
knowledge and nothing but the truth.

10

®
£

!

3
C/5

i

*

ii

i:

a man, Fareed-Sepehry-Fard declare under the penalty ofperjury under the lawP
<D

12

of the United States of America, the State of California and Califorriiia Republic thaj?
x*
the foregoing is true and correct.

13
.

, /

(U

>
0J

Executed and Dated: 11th day of March, 2020 in Saratoga, California.

)

a

14

<U

I

S-

$=

15

i

£

All Rights Reserve Waive None
i

16

c

C

♦

C

17

1

18

19

Fareed-Sepehry-Fard©
J

20
i

2
l

5
i

I
J.

California Courts - Appellate Court Case Information

https://appellatecases.courtinfo.ca.gov/search/case/mainCaseScreen...

Appellate Courts Case Information

CALIFORNIA COURTS
THE JUDICIAL BRANCH OF CALIFORNIA

[ Change court |

Supreme Court
Court data last updated: 08/12/2020 05:19 AM

Case Summary
Supreme Court
Case:
Court of Appeal
Case(s):
Case Caption:
Case Category:
Start Date:
Case Status:
Issues:
Disposition Date:
Case Citation:

S260411
No Data Found
SEPEHRY-FARD v. CA 6 (AURORA BANK)
Original Proceeding - Civil
01/28/2020
case closed
none

03/11/2020
none

Cross Referenced Cases:
No Cross Referenced Cases Found
Click here to request automatic e-mail notifications about this case.

Careers | Contact Us | Accessibility | Public Access to Records | Terms of Use |
Privacy

1 of 1

© 2020 Judicial Council of
California

8/12/2020, 8:52 AM

California Courts - Appellate Court Case Information

https://appellatecases.courtinfo.ca.gov/search/case/dockets.cfm7dis...

Appellate Courts Case Information

CALIFORNIA COURTS
THE JUDICIAL BRANCH OF CALIFORNIA

[Change court

Supreme Court

»

Court data last updated: 08/12/2020 05:19 AM

Docket (Register of Actions)
SEPEHRY-FARD v. CA 6 (AURORA BANK)
Division SF
Case Number S260411
Date

Description

Notes

01/28/2020

Petition for writ of
mandate/prohibition
filed (against CA)

Petitioner: Fareed Sepehry-Fard
Pro Per

01/28/2020 ■ Exhibit(s) lodged

01/29/2020

i 01/29/2020

Forma pauperis
i application filed

02/03/2020 : Notice of
‘ substitution of
: counsel

: 02/04/2020

! Fareed Sepehry-Fard, Petitioner Pro Per

Forma Pauperis
application granted

i 01/29/2020 ; Received:

!

One Volume of Petitioner's Court Transcripts Volume 1 of 1
Pages 1 through 553

Received:

: Service copy of petition and exhibits filed electronically
i 1/28/2020
Real Party in interest substitutes Jan Chilton in as counsel
of record for this matter.

Additional document titled "Mandatory Judicial Notice and
Presentment to Clerk for an Order to Alleged Attorneys'
Proof of Representation of Alleged Real Parties in Interest"
Fareed Sepehry-Fard, Petitioner Pro Per

1
! 03/11/2020 ; Received:

Document titled "Notice of Appeal"
Fareed Sepehry-Fard, Petitioner Pro Per

03/11/2020

1 of 2

Petition for writ of
: mandate/prohibition
I denied

Chin, J., was recused and did not participate.

8/12/2020, 8:50 AM

;

Fareed-Sepehry-Fard®, Sui Juris
c/o 12309 Saratoga Creek Dr.
City of Saratoga, Rancho Quito
California Republic (Zip code Exempt DMM 602 sec 1.3(e))
Phone Number (408) 690-4612
Today's date: July 15th, 2020
SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK OF COURT OF RECORDS
WASHINGTON, DC 20543-0001
Re: Number: S260411
Notice to Agent is Notice to Principle and Notice to Principle is Notice to Agent
Dear Clerk of Court of Records at Article IV Section IV,
i: refer to the attached letter date July 1,2020 where the Clerk of this Court of Records opined
that the appendix to the petition does not contain lower court orders.
Today, i: called the author of the attached letter and explained to him that the "order" of the
California Supreme Court was and is attached as Exhibit A of the writ.
The author of the attached letter suggested that i: should send back the writ and apologized for
the inconvenience, i: thanked the gentleman and am therefore resending the writ and all other papers
back to the Clerk of this Court of Records.
For the Clerk of Court of Records' convenience, i: have cut and pasted what, in part, appears at
Exhibit A which is a print out of an email indicating California Supreme Court rejection of my writ
review.
rrom: N*ttfy#M.c«.cev <Notlfytflud.e*^v»
Wtdnt«d«y>
11, *0*0 lisM AM
Tot ahurt«iitrmo(fefMH<#in»n>«om <*nur*«n*r*y*olarc*lt*4S>m«rt.e©m>
Subfoert Iwpftmf Court of CtllfornMt Com NotWIettton fort 8*60411

•hurnortorpytolfcolto^imn^com, tho following tmnooctlon hot txetirrod in:
SKPCHRY^ARD v. CA « (AURORA BANK)
Cm*: 5260411, Supram* Court of Californio
Out*
(VYYY-MM- 2020-03>U
DO):
Petition for writ of
■von*
mamtotv/prohHMtton
DMCrlptlon:
d*ni*d
t ci

l i

*
13

■or moro information on thto cm*, go to:
*v .
]
httpr//»ftp*llt*cM**.courtinfo.<*,R*v/»nrth/i»riBltri)||i|i n ■Hfon.cfm’Wt• OAtdoeJd* 2 ^
te>U60411«inM|U««t.ttAtn«OCMMHMIf¥V«Wy«JfCN<lSeNIUKq0UDkT<
JKJ«VstTLOtIC0W»IM6aO
<■or opinions* go to:
http*!//WWW.COUrt>.<*.gOV/*plwlO»»0

*
v ,

D« not r>|>ly to thli

i
wlH not bo proc***«d <

1 4

A-t >■

• V

t

DATED: July 15th, 2020
Respectfully presented
All rights reserve waive none
By:

1
F areed-Sepehry-F ard'

RECEIVED
JUL 22 2020

w s 5 mvo
'..-HM'mEO
;

•
i

. .<•

s.V\r-M --

♦ ••

;
■ ?

v•

' u>:\

: t i. ;>•

■

■

’V;.

.0 «

■'

y

r r;

;• r-:-

•i

■>/

?"j

o;-

'■> ‘ii*. .o''

■•

r
•■f

...

*

1 '■ v.- C

,-rHo: 'nx- u

r//:.;-

! . •

:V
•5

.
r Os.5-

VL; ft,;
.

-;

•

i: o

o- !j.-J |0|{'1' - 0,5?
:.a, /;
y V'- '■<-

-'S’ ‘

■

»

i

«
■n t., i’O

;■■■:-•

% o-'s

*'A'vV.

v -'i'

*

I r^v'

/

*

i

;*

t -.'fc'MMOi,: t;

. -!'

r
5'

f V

:

■5.*

0
i\

\ i.

V

?
!

..

i

1
i

Page 3 of 3

California Courts - Appellate Court Case Information

04/28/2016-Case complete.
05/02/2016 Received:

appellant's notice of intention to file writ of certiorari to SCOTUS and notice
of void order

05/06/2016|Record returned from
JSupreme Court.
05/06/2016:Record purged - to be
shipped to state records
center.
05/12/2016 Received:

\
08/04/2016jReceived
letter from:

OBJECTION TO RECORDS BEING PURGED DUE TO APPELLANT'S
NOTICE OF INTENTION TO FILE WRIT OF CERTIORARI TO SCOTUS
JAND NOTICE OF VOID ORDER
jUS Supreme Ct re writ of certiorari filed on 7/25/16

09/16/2016;Substitution of attorneys respondents; atty Andrews replaces atty Van Zndt
filed for:
US Supreme Court, writ of certiorari is denied, dated 10/11/16
10/14/2016 Received letter from:
01/02/2020 Returned document for
non-conformance.
01/07/2020jReceived:

o
■L

Appellant's motion to vacate void judgment and remand case for further
proceedings rejected for want of jurisdiction post-remittitur
Motion to recall remittitur and to remand case for further proceedings or in.
the alternative for the court to facilitate a grand jury proceedings against all
defendants
and their co parties agent(s) principle(s).
1
_ _
...............................

Click here to request automatic e-mail notifications about this case.
s
Careers | Contact Us | Accessibility ,| Public Access to Records |
Terms of Use | Privacy

© 2020 Judicial Council of California

rc-

O

11
https://appellatecases.courtinfo.ca.gov/search/case/dockets.cfrn ?dist=6&doc_id=2031776&... l/l3/2020

;i

f.

:

Page 1 of 3

California Courts - Appellate Court Case Information

Appellate Courts Case Information
|Change court v

6th Appellate District
Court data last updated: 01/13/2020 12:38 PM

Docket (Register of Actions)
Sepehry-Fard v. Aurora Bank, FSB, et al.
Case Number H039052
Date

Description

12/04/2012 Notice of appeal
lodged/received.

Notes
Fareed Sepehry-Fard, filed 12/03/12

12/04/2012 Proceeding by 8.124 - no filed 12/03/12
reporter’s transcript.
12/06/2012 Civil case information
statement filed.

-I

r -•

12/11/2012 Received copy of
document filed in trial
court
I01/31/2013 Certificate of interested
entities or persons filed
by:

U

pos for designation, filed 12/06/12

appellant

^01/31/2013 Appellant's appendix and Plaintiff and Appellant: Fareed Sepehry-Fard
opening brief filed.
Pro Per Appendix is in 9 volumes
03/04/2013:Respondent's brief.

I,03/04/2013 Respondent's appendix

Defendant and Respondent:
Attorney: Michael G. Cross
Defendant and Respondent:
Defendant and Respondent:
Defendant and Respondent:

Aurora Bank, FSB
Greenpoint Mortgage Funding
Bank of America Corporation
US Bank National Association

,1 volume

filed.
03/04/2013 Filing fee received from:

respondents

03/04/2013 Certificate of interested
entities or persons filed
by:

respondents

03/12/2013 Appellant's reply brief.

Plaintiff and Appellant: Fareed Sepehry-Fard
Pro Per

"3

9
https://appellatecases.courtinfo.ca.gov/search/case/dockets.cfrn?dist=6&doc_id=2031776&... 1/13/2020

AFFIDAVIT OF Fareed-Sepehry-Fard®, the natural living man

STATE OF CALIFORNIA

)

) ss.
COUNTY OF SANTA CLARA

AFFIDAVIT OF TRUTH

)

Comes now your Affiant: Fareed-Sepehry-Fard, the natural living man, making these
statements under oath and after first being duly sworn according to law, states that he is your
Affiant, over the age of 18 and he believes these facts to be true to the best of his belief and
knowledge, states as follows:
1)

Your Affiant makes this affidavit in the CITY OF SARATOGA, COUNTY OF SANTA

CLARA, on July 8, 2017.
2)

Your Affiant states that the facts described herein are true, complete and not misleading.

3)

Your Affiant states that the undersigned has first hand knowledge of all the facts stated

herein.
4)

Your Affiant states that the facts described herein describe events that have occurred within

the COUNTY OF SANTA CLARA.
5)

Your Affiant states that Fareed-Sepehry-Fard, a non-corporate, real, mortal, sentient, flesh

and blood, natural born living man, is a living, breathing, being, on the soil, a private citizen and
non-combatant, with clean hands, rectus curia.
6)

Your Affiant states that the undersigned makes these statements freely, without reservation.

7)

Your Affiant states that if compelled to testily regarding the facts stated herein that the

undersigned is competent to do so.
Your Affiant states that an all upper case formatted name applies only to vessels at sea, or; a
8)
deceased individual, and/or a deceased individual’s name on a tombstone, or; a corporation or other
legal fiction.
STATEMENTS OF FACT
9)

55
Your Affiant repeats, re-alleges, and incorporates by reference the foregoing paragraphs of

this Affidavit, as if fully set forth herein.

l

10)

Your Affiant states that your Affiant on July 6, 2017 at or about 9:55 a.m. called CLEAR

RECON CORP., the trustee's sale phone number by calling telephone number 866-931-0036.
2

11)

Your Affiant states that your Affiant has attached Exhibit A which is proof of the call that

your Affiant made to the trustee CLEAR RECON CORP. at or about 9:55 a.m. on July 6, 2017,
3

Exhibit A is true and correct copy of the screen shot of your Affiant's mobile handset showing the
phone number and the day which shows "yesterday” as the date of the call.

4

12)
5

Your Affiant states that your Affiant prepared this Affidavit on July 7th, 2017 so that this

Affidavit can be notarized the next day before a Notary Public, making the phone call made to Clear
Recon Corp. to be July 6, 2017 at or about 9:55 a.m.

6

13)

Your Affiant states that your Affiant, on July 6, 2017 at or about 9:55 a.m. spoke with a

person who sounded to be a woman who identified herself as Serena working in operating support of
7

trustee CLEAR RECON CORP.
14)

8

9

of trustee CLEAR RECON CORP. about the status of the trustee sale date of your Affiant's property
12309 Saratoga Creek Dr., Rancho Quito, City of Saratoga California Republic.
15)

10

Your Affiant states that your Affiant asked Serena the woman working in operating support

Your Affiant states that Serena the woman working in operating support of trustee CLEAR

RECON CORP. told your Affiant that the sale date for your Affiant's property 12309 Saratoga Creek
Dr., Rancho Quito, City of Saratoga California Republic was postponed to July 20th, 2017 at 11:00

11

a.m. for unknown reasons.
16)

12

Your Affiant states that when Serena the woman working in operating support of trustee

CLEAR RECON CORP. told your Affiant that the sale date for your Affiant's property 12309
Saratoga Creek Dr., Rancho Quito, City of Saratoga California Republic was postponed to July

13

14

20th, 2017 at 11:00 a.m. for unknown reasons, there was a witness who heard Serena the woman
working in operating support of trustee CLEAR RECON CORP. confirming that the trustee sale date
had been postponed to July 20th, 2017 at 11:00 a.m.

15

17)

Your Affiant states that the witness who heard Serena the woman working in operating

support of trustee CLEAR RECON CORP. told your Affiant that the trustee sale date for your
16

Affiant's property 12309 Saratoga Creek Dr., Rancho Quito, City of Saratoga California Republic

17

1
18

1

was postponed to July 20th, 2017 at 11:00 a.m. for unknown reasons, is Nasser Wahab Hamidy 399
Cedar Blvd. Suite 126, City of Newark, California Republic [94560].

2

18)

Your Affiant states that your Affiant asked the same question from the Auctioneer at or about

10:00 a.m. to wit: the status of your Affiant's home trustee sale date.
3

4

19)

Your Affiant states when your Affiant asked the question from the Auctioneer at or about

10:00 a.m. about the status of your Affiant's home trustee sale date, the auctioneer responded that the
trustee's sales date for your Affiant's property had been postponed to July 20th, 2017 for unknown

5

reasons.
20)

6

Your Affiant states when your Affiant asked the same question from the Auctioneer at or

about 10:00 a.m. to wit: the status of your Affiant's home trustee sale date and the auctioneer
responding to your Affiant that the trustee sale date had been postponed to July 20th, 2017 at 11

7

a.m., Nasser Wahab Hamidy 399 Cedar Blvd. Suite 126, City of Newark, California Republic
[94560] also heard this fact about the auctioneer telling everyone that the trustee sale had been

8

9

postponed to July 20th, 2017 at 11:00 a.m. for unknown reasons.
21)

Your Affiant states an asian looking woman of about 45 years young standing close to

auctioneer also told your Affiant that the sales date had been postponed to July 20th, 2017 according
10

to Property Radar's website for unknown reasons.
22)

11

Your Affiant states there were several other men and women who also confirmed this fact in

the presence of the auctioneer, to wit: that the sales date for your Affiant's home trustee sale had
been postponed to July 20th, 2017 at 11:00 a.m.

12

23)

Your Affiant states at or about 11:15 a.m., everyone had left the trustee sale auction except

your Affiant, Nasser Wahab Hamidy 399 Cedar Blvd. Suite 126, City of Newark, California
13

14

Republic [94560] and the auctioneer.
24)

Your Affiant states at or about 11:43 a.m., the auctioneer all of a sudden started to auction off

your Affiant's property.
15

25)

Your Affiant states at or about 11:43 a.m., when your Affiant was shocked by this

unexpected auctioneer's move to sell your Affiant's private property, your Affiant kept reminding the
16

auctioneer that both the auctioneer and the trustee have confirmed multiple times that the trustee sale
had been postponed to July 20th, 2017 at 11: a.m.

17

2
18

5X

l

26)

Your Affiant states at or about 11:43 a.m., when your Affiant was shocked by this

unexpected auctioneer's action to sell your Affiant's private property, your Affiant kept asking who
2

is bidding and why these unlawful conduct to steal your Affiant's property was being conducted.
27)

3

Your Affiant states auctioneer did not respond to your Affiant questions, objections and

ignored your Affiant.
28)

Your Affiant states that your Affiant is in possession of both the audio and video of

4

auctioneer's misconduct in attempts to steal your Affiant's private property.
5

6

29)

Your Affiant states your Affiant's questions were never answered by the auctioneer.

30)

Your affiant states your Affiant repeatedly had asked for authenticated amount of alleged

debt so that your Affiant with the help of family and friends pay this alleged debt if there is any.
31)

7

Your Affiant states that your Affiant was never provided with the authenticated amount of

the alleged debt as Nationstar must have authenticated the amount of the alleged debt under oath
when demanded of them pursuant to FDCPA and common sense.

8

9

32)

Your Affiant states pursuant to FDCPA requirements when validation of the alleged debt is

required and demanded by homeowner, Nationstar, CLEAR RECON CORP. and their Co Parties
Agent(s) Principle(s) must have validated the amount of the alleged debt but they did not.

10

33)

Your Affiant states that pursuant to Black's law dictionary, verification means "To confirm or

substantiate by oath".
11

34)

Your Affiant states under FDCPA, QWR, Debt verification and validation letters send to

Nationstar, CLEAR RECON CORP., by registered and certified mail receipt, email and fax,
12

Nationstar, CLEAR RECON CORP. and their Co Parties Agent(s) Principle(s), failed repeatedly to
verify the alleged debt and the amount of the alleged debt, to wit: "To confirm or substantiate by

13

14

oath".
35)

Your Affiant states where a verification to a response is required, service of an unverified

response is tantamount to no response at all. {Appleton v. Sup. Ct. (1988) 206 Cal.App.3d 632, 63515

636.)
36)

16

Your Affiant states substantive responses to requests for admission must be verified. (Code

Civ. Proc., §2033.240, subd. (b).)

17

3
18

l

37)

Your Affiant states that your Affiant demanded Nationstar, CLEAR RECON CORP. and

their Co Parties Agent(s) Principle(s), under FDCPA, Debt Validation and Verification’'QWR,
2

TILA, RESPA and others to "verify" the alleged debt and the amount of the alleged debt.
38)

3

4

Your Affiant states that Nationstar, CLEAR RECON CORP. and their Co Parties Agent(s)

Principle(s) failed repeatedly to verify the alleged debt and the amount of alleged debt.
39)

Your Affiant states that your Affiant has been presented with multiple varying

unauthenticated amount of alleged debt from Nationstar and its co parties agent(s) Principle(s).
5

40)

Your Affiant states that, for instance, Exhibit D and E are two unauthenticated amount of

alleged debt that Nationstar falsely claims that your Affiant owes Nationstar without authenticating
6

these amounts as Nationstar must do as a matter of law when challenged by your Affiant.
41)

7

Your Affiant states, for example, Exhibit D, true and correct copy of letter sent to your

Affiant's attorney date June 21, 2017, shows, according to Nationstar, the amount of the alleged debt
that Nationstar claims your Affiant owes, was $1,333,938.74 which your Affiant states is not only

8

9

false, but also is both contrary to the Instrument Number 23579294 labeled as "NOTICE OF
TRUSTEE'S SALE" filed in SANTA CLARA COUNTY ON 02-08-2017 at 3:15 p.m. which shows
that the "total amount due in the notice of sale is $1,781,069.01", see Exhibit E which are true and

10

correct copies of Instrument Number 23579294 labeled as "NOTICE OF TRUSTEE'S SALE" filed
in Santa Clara County Recorder on 2-28-2017 at 3:15 p.m., and also contrary to the amount that the

11

so called beneficiary allegedly paid for your Affiant's private property during the alleged auction on
July 6,2017 at or about 11:43 a.m. which allegedly was about $ 1.45 M.

12

42)

Your Affiant states that your Affiant has been severely economically damaged by the

unlawful conduct of both trustee's misconduct as well as Nationstar's misconduct, both emotionally
13

14

and physically.
43)

Your Affiant states that your Affiant, for more than 6 years, have been trying to get the

authenticated amount of the alleged debt from Nationstar and its Co Parties Agent(s) Principle(s)
15

without any success.
44)

16

Your Affiant states that your Affiant and your Affiant's almost 80 year old handicapped

mother have been severely economically damaged by the unlawful conduct of both trustee's
misconduct as well as Nationstar's misconduct, both emotionally and physically.

17

4
18

l

45)

Your Affiant states that your Affiant has been receiving medical care due to the unlawful acts

of both trustee's misconduct as well as Nationstar's misconduct, both emotionally and physically.
2

46)

Your Affiant states that your Affiant has attached true and correct copies of several physician

reports requiring your Affiant to rest or else face permanent damage and disability to your Affiant,
3

4

Ex. B.
47)

Your Affiant states that your Affiant has attached true and correct copies of several pain

killer medications that have been prescribed by licensed physicians for your Affiant, Ex. C.
5

48)

Your Affiant states that your Affiant's sickness, pain and suffering is directly related to the

unwarranted and unlawful stress that Nationstar, CLEAR RECON CORP and their Co Parties
6

Agent(s) Principles have maliciously and on purpose caused to your Affiant and continue to cause to
your Affiant in opposition to the law while damaging your Affiant economically, physically and

7

emotionally, Ex. B and Ex. C.
49)

8

9

Your Affiant states due to misconduct of both trustee as well as Nationstar in violating your

Affiant's basic due process unalienable legal right to private property, and in failing to answer your
Affiant's simple question to wit: authenticate the amount of alleged debt if there is any or leave your
Affiant and your Affiant's family alone, your Affiant has become handicapped, see true and correct

10

copies of several physician letters and prescribed medications, Exhibit B and Exhibit C.
50)

11

Your Affiant states your Affiant has been severely economically damaged by the unlawful

conduct of both trustee's misconduct as well as Nationstar's misconduct, emotionally, economically
and physically.

12

51)

Your Affiant states Cal. Civ. Code § 2924h(g) seeks to protect property owners allegedly in

default by ensuring fair and open bidding and the benefits of competition.
13

14

52)

unfairly or unlawfully conducted, or is tainted by fraud, the trial court has the power to set it aside.
53)

15

Your Affiant states the law has long provided that if a non-judicial foreclosure sale has been
Your Affiant states it is the general rule that courts have power to vacate a foreclosure sale

where there has been fraud in the procurement of the foreclosure decree or where the sale has been
improperly, unfairly or unlawfully conducted, or is tainted by fraud, or where there has been such a

16

mistake that to allow it to stand would be inequitable to purchaser and parties.

17

5
18

l

54)

Your Affiant states the conduct of Nationstar, CLEAR RECON CORP. and the auctioneer

has been fraud in the procurement of the foreclosure decree and the sale has been improperly,
2

unfairly or unlawfully conducted, and is tainted by fraud, and where there has been such a mistake
that to allow it to stand would be inequitable to purchaser and parties.

3

55)

Your Affiant states that the going rate for your Affiant's property is about $1100 per sq ft of

living space.
4

56)
5

Your Affiant states based on $1100 of living space, your Affiant's private property is worth

about $3,000,000 and not the amount of the alleged bid by the alleged beneficiary of about $1.45 M
or about half of the price of your Affiant's home of $3,000,000.

6

57)

Your Affiant states that on top of about $1.5M of loss incurred to your Affiant by the

misconduct of Nationstar, CLEAR RECON CORP., the auctioneer and their Co Parties Agent(s)
7

Principle(s), your Affiant has been further damaged economically, physically and emotionally by
the unlawful conduct of Nationstar, CLEAR RECON CORP., the auctioneer and their Co Parties

8

9

Agent(s) Principle(s) in an amount of no less than $9,000,000 or as will be determined by a trial by
jury pursuant to your Affiant's 7th Amendment right to trial by jury.
58)

10

Your Affiant states that courts have power to vacate a foreclosure sale where there has been

fraud in the procurement of the foreclosure decree or where the sale has been improperly, unfairly,
or unlawfully conducted, or is tainted by fraud.

11

59)

Your Affiant states substantial evidence supports this court’s finding that Nationstar, CLEAR

RECON CORP., the auctioneer and their Co Parties Agent(s) Principle(s) were not coowners of a
12

business but had combined to restrict competition, this conduct violated Civ. Code, § 2924h, subd.
(g) further damaging your Affiant economically, emotionally and physically, Ex. B and Ex. C.

13

14

60)

Your Affiant states that the court must set aside the nonjudicial foreclosure sale of your

Affiant's home for violation of Civ. Code, § 2924h, subd. (g), which prohibits any person from
offering to accept or accepting from another any consideration of any type not to bid at a foreclosure

15

sale, or from fixing or restraining bidding in any manner, where Nationstar, CLEAR RECON
CORP., the auctioneer and their Co Parties Agent(s) Principle(s), conspired to limit bidding although

16

based on comparative sales, your Affiant's home is worth about $3,000,000, yet they conspired and
agreed to, and did, limit the submission of a single bid for the alleged minimum lien value (~$

17

6
18

64

1.78M) for ~$1.45M, although your Affiant's property is worth about $3,000,000 or more.
Substantial evidence supports this court's finding that Nationstar, CLEAR RECON CORP., the
l

auctioneer and their Co Parties Agent(s) Principle(s) were not coowners of a business but had
combined to restrict competition. Moreover, it is material that Nationstar, CLEAR RECON CORP.,

2

the auctioneer and their Co Parties Agent(s) Principle(s) did prevent other persons from appearing at
the sale through conspiracy and violation of promissory estoppel of sale date postponement to July

3

20, 2017 at 11:00 a.m.
61)
Your Affiant states this conduct violated section 2924h, subdivision (g). That statute

4

provides that "It shall be unlawful for any person, acting alone or in concert with others, (1) to offer
to accept or accept from another, any consideration of any type not to bid, or (2) to fix or restrain

5

bidding in any manner, at a sale of property conducted pursuant to a power of sale in a deed of trust
or mortgage."

6

62)

Your Affiant states the statute thus seeks to protect property owners in default by ensuring

fair and open bidding and the benefits of competition. By joining together, Nationstar, CLEAR
7

RECON CORP., the auctioneer and their Co Parties Agent(s) Principle(s) foreclosed competition
8

and restrained bidding in violation of the statute, resulting in a manifest unfairness to your Affiant,
contrary to the public policy expressed by the statute.

9

63)

Your Affiant states the law has long provided that if a nonjudicial foreclosure sale has been

unfairly or unlawfully conducted, or is tainted by fraud, the trial court has the power to set it aside.
10

{Bank ofAmerica etc. Assn. v. Reidy (1940) 15 Cal. 2d 243, 248 [101 P.2d 77].)
64)

11

Your Affiant states where several otherwise ready and willing competitive buyers were

withheld in restraint of competition and in violation of the law, resulting in an artificially low price
which amounts to unfairness to the allegedly defaulting owner, the sale may be set aside so that a

12

new sale can be held and the owner can seek to benefit from competition, as the law provides.
13

65)

Your Affiant states as Aristotle said, injustice is to "treat equals unequally and unequals

equally. There is nothing so unequal as the equal treatment of unequals".
14

66)

Your Affiant states your Affiant is due remedy as an American who has been wronged and

respectfully wish this court to provide him with the requested relief.
15

67)

16

17

62

18

7

1

Further, Affiant sayeth not
DATED: 8th of July, 2017

2

3

4

5

6

i:, Fareed-Sepehry-Fard, All rights reserve waive none
7

8

SEE CA NOTARY ATTACHMENT

9

10

11

12

13

14

15

16

17

18

8

AFFIDAVIT OF Fareed-Sepehry-Fard®, the natural living man

63

Verfication

l

2

}, Fareed-Sepehry-Fard, the undersigned make this declaration under penalty of perjury, that
the pleading is true. Each of the signer(s) of this document is a person having first hand knowledge

3

4

of the facts stated herein.
The undersigned has made a reasonable inquiry into fact and law and affirms to the Court
that this claim:

5

1. is not frivolous or intended solely to harass.
6

2. is not made in Bad Faith - Nor for any improper purpose, i.e. harass or delay.
3. may advocate changes in the law - arguments justified by existing law or non-frivolous

7

argument to change law.
4. has Foundations for factual allegations - alleged facts have evidentiary support.

8

9

5. and has Foundation for denials - denials offactual allegations must be warranted by
evidence.
DATED: 8th of July, 2017

10

ii

12

13

k, Fareed-Sepehry-Fard, All rights reserve waive none

14

15

16

17

18

9
AFFIDAVIT OF Fareed-Sepehry-Fard® the natural living man

64

AFFIDAVIT OF Nasser Wahab Hamidy®, the natural living man

STATE OF CALIFORNIA

)

) ss.
COUNTY OF SANTA CLARA

AFFIDAVIT OF TRUTH

)

Comes now your Affiant: Nasser Wahab Flamidy©, the natural living man, making these
statements under oath and after first being duly sworn according to law, states that he is your
Affiant, over the age of 18 and he believes these facts to be true to the best of his belief and
knowledge, states as follows:
1)

Your Affiant makes this affidavit in the CITY OF SAN JOSE, COUNTY OF SANTA

CLARA, on July 8, 2017.
2)

Your Affiant states that the facts described herein are true, complete and not misleading.

3)

Your Affiant states that the undersigned has first hand knowledge of all the facts stated

herein.
4)

Your Affiant states that the facts described herein describe events that have occurred within

the COUNTY OF SANTA CLARA.
5)

Your Affiant states that Nasser Wahab Hamidy0, a non-corporate, real, mortal, sentient, flesh

and blood, natural born living man, is a living, breathing, being, on the soil, a private citizen and
non-combatant, with clean hands, rectus curia.
6)

Your Affiant states that the undersigned makes these statements freely, without reservation.

7)

Your Affiant states that if compelled to testify regarding the facts stated herein that the

undersigned is competent to do so.
8)

Your Affiant states that an all upper case formatted name applies only to vessels at sea, or; a

deceased individual, and/or a deceased individual’s name on a tombstone, or; a corporation or other
legal fiction.
STATEMENTS OF FACT
9)

65
Your Affiant repeats, re-alleges, and incorporates by reference the foregoing paragraphs of

this Affidavit, as if fully set forth herein.

l

10)

Your Affiant states that your Affiant on July 6, 2017 at or about 9:55 a.m. listened to the call

that Fareed-Sepehry-Fard made to CLEAR RECON CORP., the trustee's sale phone number by
2

calling telephone number 866-931-0036, on the speaker phone.
11)

3

4

speaker phone when Fareed-Sepehry-Fard spoke with a person who sounded to be a woman who
identified herself as Serena working in operating support of trustee CLEAR RECON CORP.
12)

5

Your Affiant states that your Affiant, on July 6, 2017 at or about 9:55 a.m. heard on the

Your Affiant states that your Affiant heard Fareed-Sepehry-Fard asked Serena the woman

working in operating support of trustee CLEAR RECON CORP. about the status of the trustee sale
date of Fareed-Sepehry-Fard's property 12309 Saratoga Creek Dr., Rancho Quito, City of Saratoga

6

California Republic.
13)

7

Your Affiant states that your Affiant heard Serena the woman working in operating support

of trustee CLEAR RECON CORP. told Fareed-Sepehry-Fard that the sale date for Fareed-SepehryFard's property 12309 Saratoga Creek Dr., Rancho Quito, City of Saratoga California Republic was

8

9

postponed to July 20th, 2017 at 11:00 a.m. for unknown reasons.
14)

Your Affiant states that your Affiant lives at 399 Cedar Blvd. Suite 126, City of Newark,

California Republic [94560].
10

15)

Your Affiant states that your Affiant heard that Fareed-Sepehry-Fard asked the same

question from the Auctioneer at or about 10:00 a.m. to wit: the status of Fareed-Sepehry-Fard's home
11

trustee sale date.
16)

12

Your Affiant states when Fareed-Sepehry-Fard asked the question from the Auctioneer at or

about 10:00 a.m. about the status of Fareed-Sepehry-Fard's home trustee sale date, the auctioneer
responded that the trustee's sales date for Fareed-Sepehry-Fard's property had been postponed to July

13

14

20th, 2017 at 11:00 a.m. for unknown reasons.
17)

Your Affiant states an asian looking woman of about 45 years young standing close to

auctioneer also told Fareed-Sepehry-Fard that the sales date had been postponed to July 20th, 2017
15

according to Property Radar's website for unknown reasons.
18)

' 16

Your Affiant states there were several other men and women who also confirmed this fact in

the presence of the auctioneer, to wit: that the sales date for Fareed-Sepehry-Fard's home trustee sale
had been postponed to July 20th, 2017 at 11:00 a.m.

17

18

1
AFFIDAVIT OF Nasser Wahab Hamidy®, the natural living man

66

l

19)

Your Affiant states at or about 11:15 a.m., everyone had left the trustee sale auction except

Fareed-Sepehry-Fard, your Affiant 399 Cedar Blvd. Suite 126, City of Newark, California Republic
2

[94560] and the auctioneer.
20)

3

4

Your Affiant states at or about 11:43 a.m., the auctioneer all of a sudden started to auction off

Fareed-Sepehry-Fard's property.
21)

Your Affiant states at or about 11:43 a.m., Fareed-Sepehry-Fard kept reminding the

auctioneer that both the auctioneer and the trustee have confirmed multiple times that the trustee sale
5

date had been postponed to July 20th, 2017 at 11: a.m.
22)

6

and why these unlawful conduct to steal Fareed-Sepehry-Fard's property was being conducted.
23)

7

9

10

Your Affiant states auctioneer did not respond to Fareed-Sepehry-Fard questions, objections

and ignored Fareed-Sepehry-Fard.
24)

8

Your Affiant states at or about 11:43 a.m., Fareed-Sepehry-Fard kept asking who is bidding

Your Affiant states that Fareed-Sepehry-Fard is in possession of both the audio and video of

auctioneer's misconduct in what seemed to be attempts to steal Fareed-Sepehry-Fard's private
property.
25)

Your Affiant states Fareed-Sepehry-Fard's questions were never answered by the auctioneer.

26)

Your Affiant states that Fareed-Sepehry-Fard complained to your Affiant of pain in his heart,

hands, back, head and shoulder after the so called sale of Fareed-Sepehry-Fard's private property and
11

that Fareed-Sepehry-Fard complained that Fareed-Sepehry-Fard has been severely economically,
physically and emotionally further damaged by the unlawful conduct of trustee's misconduct,

12

auctioneer misconduct as well as Nationstar's misconduct in selling Fareed-Sepehry-Fard's private
property when they were not supposed to.

13

14

27)

Your Affiant states that Fareed-Sepehry-Fard complained to your Affiant that Fareed-

Sepehry-Fard and Fareed-Sepehry-Fard's almost 80 year old handicapped mother have been severely
economically, emotionally and physically damaged by the unlawful conduct of trustee's misconduct,

15

auctioneer and Nationstar's misconduct.
28)

16

Your Affiant states that Fareed-Sepehry-Fard told your Affiant that Fareed-Sepehry-Fard has

been receiving medical care due to the unlawful acts of both trustee's misconduct as well as
Nationstar's misconduct, economically, emotionally and physically.

17

18

2

AFFIDAVIT OF Nasser Wahab Hamidy®, the natural living man

67

l

29)

Your Affiant states that Fareed-Sepehry-Fard showed to your Affiant several physician

reports requiring Fareed-Sepehry-Fard to rest or else face permanent damage and disability to
2

Fareed-Sepehry-Fard.
30)

3

4

Your Affiant states that Fareed-Sepehry-Fard told your Affiant that Fareed-Sepehry-Fard's

sickness, pain and suffering is directly related to the unwarranted and unlawful stress and
misconduct that Nationstar, CLEAR RECON CORP and their Co Parties Agent(s) Principles have
maliciously and on purpose caused to Fareed-Sepehry-Fard and continue to cause to Fareed-

5

Sepehry-Fard in opposition to the law while damaging Fareed-Sepehry-Fard economically,
physically and emotionally.

6

31)

Your Affiant states that Fareed-Sepehry-Fard told your Affiant that due to misconduct of

both trustee as well as Nationstar in violating Fareed-Sepehry-Fard basic due process unalienable
7

legal right to private property, and in failing to answer Fareed-Sepehry-Fard's simple question to wit:
authenticate the amount of alleged debt if there is any or leave Fareed-Sepehry-Fard and Fareed-

8

9

Sepehry-Fard's family alone, that Fareed-Sepehry-Fard has become handicapped.
32)

Your Affiant states that Fareed-Sepehry-Fard told your Affiant that Fareed-Sepehry-Fard has

been severely economically further damaged by the unlawful conduct of trustee's misconduct,
10

auctioneer's misconduct as well as Nationstar's misconduct, emotionally, economically and
physically.

11

33)

Your Affiant states that it appeared to your Affiant that the conduct of Nationstar, CLEAR

RECON CORP. and the auctioneer has been fraud in the procurement of the foreclosure decree and
12

the sale has been improperly, unfairly or unlawfully conducted, and is tainted by fraud, and where
there has been such a mistake that to allow it to stand would be inequitable to Fareed-Sepehry-Fard

13

14

and Fareed-Sepehry-Fard's family.
34)

Your Affiant states that it appeared to your Affiant that substantial evidence supports finding

that Nationstar, CLEAR RECON CORP., the auctioneer and their Co Parties Agent(s) Principle(s)
15

were not co owners of a business but had combined to restrict competition further damaging FareedSepehry-Fard economically, emotionally and physically.

16

35)

Your Affiant states that it appeared to your Affiant that several otherwise ready and willing

competitive buyers were withheld in restraint of competition and in violation of the law, resulting in
17

18

3
AFFIDAVIT OF Nasser Wahab Hamidy , the natural living man

68

*
1

an artificially low price which amounts to unfairness to the allegedly defaulting owner FareedSepehry-Fard.

2

i:5 Nasser Wahab Hamidy® declare under the penalty of perjury under the laws of the United
States of America and the California Republic that all the statements i: have made are true, correct

3

and Complete.

4

Further. Affiant sayeth not.

5

DATED: 81hofIu!y, 2017

6

•7

8

9

By:
10

ii

i:, Nasser W;

ib Ha^fdyib, All rights reserve waive none
L

SEE CA NOTARY ATTACHMENT

12

13

14

15

16

17

18

4

AFFIDAVIT OF Nasser Wahab Hamidy®, the natural living man

69

GOVERNMENT CODE § 8202

CALIFORNIA JURAT WITH AFFIANT STATEMENT

e Attached Document (Notary to cross out lines 1-6 below)
/□ See Statement Below (Lines 1-6 to be completed only by document signers], nof Notary)

Signature of Document Signer No, 2 (if any)

Signature of Document Signer No. 1

A notary public or other officer completing this certificate verifies only the identity of the individual who signed the
document to which this certificate is attached, and not the truthfulness, accuracy, or validity of that document.
State of California
County of

u

12

Subscribed and sworn to (or affirmed) before me

(2f/4r~n

on this /0£ day of
Date
by
(U

*
KYLE MARK WHITNEY
Commission # 2109727
Sbo Notary Public - California zz
!T/
Santa Clara County
£
^^J^Comn^xgireshJajM^OIS^

, 20 /'P.
Year

Month

A/t1Si?Jr Ijfthah /t'a/yyd,

r

(and (2).

).
Name(s) of Signers)

proved to me on the basis of satisfactory evidence
to be the person(s) who appeared before me.
Signature
ire of Notary Public

Seal
Place Notary Seal Above
~ ----1"
'
- -----------OPTIONAL--------------------- -----------------------------Though this section is optional, completing this information can deter alteration of the document or
fraudulent reattachment of this form to an unintended document.
Description of Attached Document
Title or Type of Document;
Number of Pages;_____Signers) Other Than Named Above:.

Document Date:

7

1
TO

©2014 National Notary Association«www.NationalNotary.org • 1-800-US NOTARY (1 -800-876-6827) Item #5910

luT.uusiifpn fc siop sip .!?ijb jo no p^mmumos sssas oi pjfei

.lAjfmMtn suvoX ss.np £ti>.u>puo 'c.<. jtj.f- m utAW’xn/be a; infant

!

i

OO-fiOE

(CXq)3fr£S/. § 'd'3'0-

0S‘50t

i
1
i

1

sgpi.-i-;t5^ -nut -pus

j

CUh^A;

]
!i

® guiysi-un j *aira:-s.tiij

i

T“

i

eo'oosi

m'msi

}

teXq&nm § W3‘3

!
J.
!

(r}(a)eprsai §

CG'GSI

i

!
i

!

i

I

08‘flSi

t

T

wmz

!

C«Kq>0Hm§-a-D’3

CTO?

l

i

i

i

T

I!

J

an!spsr..t^ j
a*S *80Pi> 5!P®-0
I
‘1U®3 ‘Jeno^v §C|5|3at{3 i

j

SuQGSi

l

i
!
usipoio !

(£)(q)3?re6i § -ii'3'3
i

orof

»33?a -«»A{J§ OSSIp-

I

rr-

ere-oz

!
!

(cXtiortm § vioo

OSIKiSi

i

SiOX-.S?^ 3A|JS^C5$5». :?••
3.««di<»§ -sSuiiiUS^ tS>]OO.gj

)

j

I

■!

i
X:Oli.(!r<l3>-3
0MIi3A03Q .UtOHXLtt
AXaSJOild 30 3:VTVA

Ji0iA<IK2X3
aiiiftVW
303£nVA

I

xoiuKaxH nova

Ai^3aOSf> 30 KOiXAftCSStt I

I!

OAKfAOXd AVTf AiiDSo'S

KMJZ& $‘TS’.Q H IS

< rKqtos § -D'S'n 11 ti

*?£9‘S£iS
spaasx? :>?qj uoijdmax? poaisaiuoij stup;.? .roiqppj!
□

\>:>?q aucs
:.!3pim paijn.n? sj JOjqsp tpiij.tt oi suopdtuaxa anj siuiup joiqSQ

MMIX>Si S¥ CISMIYID AX1340SJ - 3 l'lIM;»M3§
»
tu.nOmijjj

Asv’5«,es*si *m

pJBj'A-aiadsg paasei Si Ei
a

* i

IN THE SUPREME COURT OF THE UNITED STATES
Fareed :Sepehry-Fard ©
Plaintiff, Appellant, Petitioner

Supreme Court Case No.
California Supreme Court Case No: S260411
Court of Appeal No: H039052

v.
CALIFORNIA SUPREME COURT
Respondent
Aurora Bank FSB
GPM Heloc
Bank of America
U.S. Bank National Association as
trustee for GreenPoint Mortgage
Funding
Frank H. Kim
Severson & Werson
Strangers to me, my home and to the
alleged loan by their own admission,

P
f

t

f

(Sup. Ct. No. 111CV209804)
VOL.

1

OF

1

PAGES 1

thru

95

At law venue and jurisdiction

Defendants
ONE VOLUME OF PETITIONER'S COURT TRANSCRIPTS
[Filed Concurrently With Petition for Writ of Certiorari]
i
i

Fareed-Sepehry-Fard, Sui Juris c/o 12309 Saratoga Creek Dr., City of
Saratoga, Rancho Quito, California Republic (Zip code Exempt DMM 602
sec 1.3(e)), Phone Number (408) 690-4612,
Ahuraenergysolarcells@msn.com

1

INDEX TO PETITIONER’S TRANSCRIPT
1 NOTICE OF APPEAL RE: DENIAL OF
VERIFIED PETITION FOR WRIT OF
MANDATE OR PROHIBITION TO THE
Supreme Court of the United States;
DECLARATION
2 California 6th DCA Docket (Register of Actions)
3 California 6th Rejection of motion to recall
remittitur
4 Petitioner’s Police Identity Theft Report
5 Petitioner’s Federal Trade Commission
Identity Theft Report-Forged Petitioner's
Signature on one or More Promissory Notes
6 Petitioner's Identity Theft Report to All Three
Credit Reporting Agencies—wrong Social
Security Number, wrong Addresses and Wrong
Names
California
6th DCA Void Order Affirming
7
Recalled Judge's Void Order
8 Void order issued by recalled judge Mr.
Aaron Persky
9 Void judgment issued by recalled judge Mr.
Aaron Persky sustaining demurrer to 2nd
amended complaint without leave to amend
10 VERIFIED PETITION FOR WRIT OF
MANDATE OR PROHIBITION;
MEMORANDUM IN SUPPORT THEREOF;
DECLARATION

FILED
/DATE

PAGE

VOL.

3/11/2020

3

1

1/13/2020
1/10/2020

9
12

1
1

7/20/2017

24

1

27

1

7/21/2017

30

1

2/16/2016

36

1

10/16/2012

49

1

10/16/2012

53

1

1/28/2020

55

1

7/20/2017

2

IN THE SUPREME COURT OF CALIFORNIA
Fa reed :Sepehry-Fard©
Plaintiff, Appellant, Petitioner
v.
COURT OF APPEAL OF THE STATE
OF CALIFORNIA SIXTH
APPELLATE DISTRICT
Respondent
Aurora Bank FSB
GPM Heloc

1

I

Bank of America
U.S. Bank National Association as
trustee for GreenPoint Mortgage
Funding
Frank H. Kim
Severson & Werson
Strangers to me, my home and to the
alleged loan by their own admission,
Defendants

Jurisdiction: Court of Record, under the
rules of Common Law 1
California Article VI Section I —
Court of Records [Common Law Court]
Supreme Court Case No. 260411
Court of Appeal No: H039052
(Sup. Ct. No. 111CV209804)
NOTICE OF APPEAL RE: DENIAL
OF VERIFIED PETITION FOR
WRIT OF MANDATE OR
PROHIBITION TO THE Supreme
Court of the United States;
DECLARATION
Attorney General Barr, file under: Human
Trafficking Department Complaint Number
TRN 1906-0489 DOJ TA 1197671 NCMEC
TA 11749 ST FARM 49 F33 4564 AM FAM
01000914639 POLARIS 59004 NHTH
545121, see https://nationalfile.com/watchattorney-general-barr-takes-on-humantrafficking-in-child-welfare-svstem/
“In
the modern age, the level of evil is
unbelievable,” said President Trump, who
has dramatically increased human
trafficking arrests.

So

U
0>

a<D
Oh
CZ5
<

V
<u
xi
T3
<D
<L>
O
<D

At law venue and jurisdiction

Ut

CS

Fareed-Sepehry-Fard, Sui Juris c/o 12309 Saratoga Creek Dr., City of Saratoga^
Rancho Quito, California Republic (Zip code Exempt DMM 602 sec 1.3(e)), Phoneg
o
Number (408) 690-4612, Ahuraenergysolarcells@msn.com
Q
Notice to Agent is Notice to Principle and Notice to Principle is Notice to Agent

i

"A Court of Record is a judicial tribunal having attributes and exercising functions
independently of the person of the magistrate designated generally to hold it, and
proceeding according to the course of common law, its acts and proceedings being
enrolled for a perpetual memorial". Jones v. Jones, 188 Mo.App. 220, 175 S.W. 227,
229; Ex parte Gladhill, 8 Mete. Mass., 171, per Shaw, C.J. See, also, Ledwith v.
Rosalsky, 244 N.Y. 406, 155 N.E. 688, 689.

3

i
2

Dear Clerk of Court of Records et. al.,
This is a Notice of Appeal of void order date March 11-2020 issued by the court

3 II administrators of this Court of Records at California Article VI Section I, re denial of
4

my Verified Petition for Writ of Mandate or Prohibition to Vacate the void order issued

5

by recalled judge Mr. Aaron Persky, to the Supreme Court of the United States.

6

Respectfully presented,
7

DATED: 11til day of March, 2020

4-i

U) '

8

O

9

V ly.

All Rights Reserve Waive None

m

10

§

:n

By:
li

<

U

F areed-S epehry-F ard(

(U
X

12

X
T3
<U
>
0/

13
14

a;sc1

15

£
O
O

16

• C
17
18
19
20

1

4

•If

*■

\
\

\

\

i'

DECLARATION
i: a man, Fareed-Sepehry-Fard ("Petitioner"), declare:

\

1. i: am a man of Republic of California and an American
National, i: have personal first hand knowledge of the
facts set forth in this declaration. If called upon to testify
as a witness re same, i: a man, Fareed-Sepehry-Fard could
and would competently testify to the facts in this
declaration.
2. Everything that i, a man, Fareed-Sepehry-Fard have stated
in " PETITION FOR WRIT OF CERTIORARI" which is

I

concurrently filed with this Declaration are truth to the
y

best of my (a man's) knowledge and nothing but the truth.
i: a man, Fareed-Sepehry-Fard declare under the penalty of
perjury under the laws of the United States of America, the
State of California and California Republic that the foregoing
\s

is true and correct.
Executed and DATED: 1st day of June, 2020 in Saratoga,
California.
All Rights Reserve Waive None
Respectfully presented,

V-

All rights reserve waive none
By:
Fareed-Sepehry-Fard©

-35-

^3

I

/

V

, p
PROOF OF SERVICE
I, Parvin Heshmati, do hereby solemnly declare that on June 1st,
2020,1 did cause to be delivered by mail a true and correct copy
of the foregoing instruments ("PETITION FOR WRIT OF
CERTIORARI plus exhibits and MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS") including true and correct
copies of all/any documents referenced therein as "attached
hereto", to the parties and locations listed below except the one
indentified by the Appellant, Appellant personally served those:
Parvin Heshmati
12309 Saratoga Creek Dr., Saratoga, CA, 95070
Tel: 408 873 8732
TO:

1. Delivery via U.S.P.S. First Class Mail Certified and
Registered Delivery Article Number
7017 0190 0000 0905 3381
Supreme Court of the United States
Attention: Clerk
1 First Street, NE
Washington, DC 20543
[1 original]
2. Severson & Werson
Joseph W. Guzzetta and or Bernard J. Kornberg and or Jan
T. Chilton
\PzffWooi~
One Embarcadero Center, Suite 2600
A/**
tO firJ
San Francisco, CA 94111
[By Appellant, through true filing, just the petition and the
exhibits]
3. California Supreme Court
t\) jrTHaoT Ff5£
350 McAllister St., Suite 1295
San Francisco, CA 94102
[By Appellant, through true filing, just the petition and the
exhibits]
4. All others through true filing
-36-

/'

}

1

PROOF OF SERVICE
2

3

4

5

6

i:, a man, Fareed-Sepehry-Fard®, do hereby solemnly declare that on January 28th,
2020, i: did cause to be delivered by USPS mail or fax or through electronic filing,
where identified, a true and correct copy of the foregoing instruments ("VERIFIED
PETITION FOR WRIT OF MANDATE OR PROHIBITION;
MEMORANDUM IN SUPPORT THEREOF; DECLARATION [EXHIBITS
FILED UNDER SEPARATE COVER]”) including true and correct copies of
all/any documents referenced therein as "attached hereto", to the parties and locations
listed below except the one indentified by the Secured party Creditor:

7

8

F areed-Spehry-F ard©
C/o 12309 Saratoga Creek Dr.,
Rancho Quito, City of Saratoga,
California Republic
Tel: (408) 6904612

9

10

11

12

TO:

1.

OFFICE OF THE CLERK
CALIFORNIA COURT OF APPEAL
SIXTH APPELLATE DISTRICT
333 West Santa Clara Street, Suite 1060
San Jose, C A 95113
Through true filing + a hard copy by USPS mail or personal delivery on
January 29th, 2020

2.

JOSEPH W. GUZZETTA OR JAN CHILTON OR ANY OTHER
BRITISH OR BAR AGENT
Severson and Werson, APC.
One Embarcadero Center
Suite 2600
San Francisco, CA 94111, USA
Through true filing

3.

All others through true filing

13

14

15

16

17

18

19

20

33

95

i

CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
Pursuant to Rules of Court, rule 8.208, the undersigned certifies that the following

2

entities have a false claim of ownership interest of 10 percent or more in Petitioner's
3

4

land and private property or a financial interest in the outcome of the proceeding that
the justices should consider in determining whether to disqualify themselves, as defined
in rule 8.208(e)(2):

5

6
7

a.

1.

sole owner of property and land: C/o 12309 Saratoga Creek Dr., Rancho Quito, City of
Saratoga, California Republic where he lives with the intention to remain.
2.

8

9

Petitioner Fareed-Sepehiy-Fard , a man of California Republic, is the

All SUPERIOR COURT OF CALIFORNIA, COUNTY OF SANTA

CLARA judges have an interest in the outcome of this case.
3.

The ghost- U.S. BANK NATIONAL ASSOCIATION, AS TRUSTEE

FOR GREENPOINT MORTGAGE TRUST MORTGAGE PASS-THROUGH
10

CERTIFICATES, SERIES 2007-AR2, that does not exist, never had a bank account,
11

never paid for anything since it was never funded, was never properly formed, through

12

their spoke person and attorneys at Severson & Werson such as but not Mr. Guzz
falsely claim that they have an interest in Petitioner's private property when that is not

13

true or even possible since a dead entity that does not exist and never did exist can not
i •

14
15

have any interests in anything yet alone Petitioner’s Private Land and Property and
therefore can not have an alleged debt collector called Severson and Werson APC to
continue to harass intimidate, demonize, even threaten Petitioner and Petitioner's

16

handicapped 82 year mother by sending armed men with military weapons to

17

Petitioner's private land.

18

Respectfully presented,
DATED: 28th day of January, 2020
All Rights Reserve Waive None

19

By:
20

Fareed-Sepehiy-Fard©
32

94

■

'j

L

1

CERTIFICATE OF WORD COUNT

2

Calif. Rules of Court, Rule 8.204 (c) (1)

3

4

The text in this Petition for Review consists of 6,249 words, as counted by the
word 2007 word processing program used to generate the Petition.

5

6

Dated: January 28th 2020

7

All Rights Reserve Waive None
8

9

10

11

12

13

F areed-Sepehry-Fard

14

15

16

17

18

19

20

31

93

1
2

DECLARATION

3

i: a man, Fareed :Sepehry-Fard ("Petitioner"), declare:
4

1. i: am a man of Republic of California and an American National, i: have
5

6

personal first hand knowledge of the facts set forth in this declaration. If called
upon to testify as a witness re same, i: a man, Fareed-Sepehry-Fard® could and
would competently testify to the facts in this declaration.

7

2. Everything that i, a man, Fareed-Sepehry-Fard® have stated in " VERIFIED
8

9

PETITION FOR WRIT OF MANDATE OR PROHIBITION") which is
concurrently filed with this Declaration are truth to the best of my (a man's)
knowledge and nothing but the truth.

10

i: a man, Fareed-Sepehry-Fard declare under the penalty of perjury under the laws
11
12
13

of the United States of America, the State of California and California Republic that
the foregoing is true and correct.
Executed and Dated: 28th day of January, 2020 in Saratoga, California.

14
15

All Rights Reserve Waive None

16
17
18

Fareed-Sepehry-Fard ■

19
20

30

92

1
2
3

Co Parties Agent(s) Prmciple(s), and to enter an order granting the Motion to recall
remittitur.
DATED: 28th day of Januaiy 2020

4

All Rights Reserve Waive None
5

6
7•>»

Fareed-Sep ehry-Fard

8
9
10
11
12
13
14
15
16
17
18
19
20

29

91

1

2

3

4

5

6

Black’s Law Dictionary defines estoppel as: “A bar or impediment raised by the
law, which precludes a man from alleging or from denying a certain fact or state of
facts, in consequence of his previous allegation or denial or conduct or admission, or
in consequence ofa final adjudication of the matter in a court of law. Demarest v.
Hopper, 22 N. J. Law, 019; Martin v. Railroad Co., 83 Me. 100, 21 Atl. 740; Yeeder v.
Mudgett, 95 N. Y. 295.
VII. PRAYER FOR RELIEF

7

8

9

For these reasons, Petitioner respectfully presents that the Court issue a mandate
recalling the remittitur and remand for further proceedings or in the alternative

10

facilitate a grand jury proceedings for Petitioner's presentment of his verified criminal

li

complaint against all Respondents and their Co Parties Agent(s) Principle(s) to the

12

Grand Jury. In the alternative, and in the interest of justice, Petitioner respectfully

13

presents that the Court summarily award any and all remedies due to Petitioner as a

14

disabled American who has been wronged by the Respondents and their Co Parties

15

Agent(s) Principle(s).

16

17

18

19

20

Issue an alternative writ, order to show cause, or other order directing the DCA
and the Respondents to show cause before this Court, at a time and place specified by
this Court, why a writ should not issue directing the DCA to vacate its January 10,
2020 Order rejecting Petitioner's Motion to recall remittitur or in the alternative an
order to facilitate a grand jury proceedings for Petitioner against all Respondents, their
28
90

1

2

3

4

Oath of office of California state judges, including the judges of the Courts of
Appeal, require them to uphold the enacted laws of the STATE OF CALIFORNIA, to
include CCP § 431.20 14, CCP § 431.30 and CCP § 170.3c(5).
Article III standing, like other bases of jurisdiction, must be presented at the

5

inception of and throughout the lawsuit. Lujan v. Defenders of Wildlife, 504 U.S. 555,

6

570 n.5 (1992) (plurality opinion) ("[Standing is to be determined as of the

7

commencement of suit."); see also Arizonans for Official English v. Arizona, 520 U.S.

8

43, 64, 67 (1997) (holding that standing is an aspect of the case or controversy

9

requirement, which must be satisfied "at all stages of review"); Keene Corp. v. United

10

States, 508 U.S. 200, 207 (1993) ("[T]he jurisdiction of the Court depends upon the

li

state of things at the time of the action brought.").

12

Standing is jurisdictional and a lack of standing precludes a ruling on the merits.
13

Media Technologies Licensing, LLC v. Upper Deck Co., 334 F.3d 1366, 1370 (Fed.
14

Cir. 2003) (Cal).
15

16

17

18

14 CCP § 431.20 , "(a) Every material allegation of the complaint or cross-complaint,
not controverted by the answer, shall, for the purposes of the action, be taken as true.

19

(b) The statement of any new matter in the answer, in avoidance or constituting a
defense, shall, on the trial, be deemed controverted by the opposite party."

20

27

89

1

[not Petitioner] in accordance with God's laws. All codes, rules, and regulations are

2

unconstitutional and lacking due process...."10 The phrase "at law" which Petitioner has

3

4

5

6

7

8

repeatedly and consistently been presenting to all courts of records, under duress, is
used to point out that a thing is to be done according to the course of the common law.
It is distinguished from a proceeding in equity n. "All laws, rules and practices which
are repugnant to the Constitution are null and void. ..12
Can a judge be held to his own admissions in court13? There is no absolute
judicial immunity, is there?

9

10

li

10 Rodriques v. Ray Donavan (U.S. Department of Labor) 769 F. 2d 1344, 1348 (1985).

12

11 Blacks 4th At Law.
12 Marbury v. Madison, 5th US (2 Cranch) 137, 180.

13
14
15
16
17
18
19

13 DEFINITION OF COURT " INTERNATIONAL LAW- The person and suite of
the sovereign "Black's Law Dictionary, 4th Ed., 425, 426.
Suite—"Those persons who by his authority follow or attend an ambassador or other
public minister." Black's Law Dictionary, 4th Ed.
Sovereignty means that the decree of the sovereign makes law, and foreign courts
cannot condemn the influences persuading the sovereign to make the decree. Rafael v.
Verelst, 2 Wm.Bl. 983, 1055; American Banana Co. v. United Fruit Co. 213 U.S. 347
(1909), emphasis added. Stated differently, whatever people say goes and is the law.
Servants such as this panel are bound by it or the panel will be in violation of the law at
TITLE 28 > PART I > CHAPTER 21 > § 454 — Practice of law by justices and judges
Any justice or judge appointed under the authority of the United States who engages in
the practice of law is guilty of a high misdemeanor, Emphasis added.

20

26

88

B.

1

2

This Court should recall the remittitur to end confusion in the
lower California courts over the recalled judge's ruling that void
order issued by the recalled judge is void and not voidable and is not
a cause of action but a fact.

3

No Judge, lawyer or borrower can overrule the will of "We the People" to wit:

4

5

the People recalled Mr. Persky, his order is void, as a matter of law, it is as if he were
never a judge, all other derivative actions subsequent to Mr. Persky's void order are

6

also void, there is no argument left to consider, to wit: We the People ordained and
7

established the constitution for the United States of America1. We the People vested
8

Congress to make law via Article I Section 8.8 We the People did not vest Congress to
9

make law to control our behavior. We the People are above the Constitution and all
10

legislated law, whereas government authorities (including all public servants) are
li

under the Constitution. We the People are subject to only to the laws of Nature and
12

Nature's God.9 "All codes, rules, and regulations are for government authorities only,
13

14

15

16

7 PREAMBLE: We the People of the United States, in order to form a more perfect
union, establish justice, insure domestic tranquility, provide for the common defense,
promote the general welfare, and secure the blessings of liberty to ourselves and our
posterity, do ordain and establish this Constitution for the United States of America.
8

17

18

19

20

Article I Section I: All legislative powers herein granted shall be vested in a Congress
of the United States, which shall consist of a Senate and House of Representatives;
Article I Section 8 Clause 18: Congress shall have power to make all laws which shall
be necessary and proper for carrying into execution the foregoing powers; and all other
powers vested by this Constitution in the government of the United States, or in
department or officer thereof.
9 Declaration of Independence.
25

87

1

extrinsic fraud”. [Citations omitted.] (7 Witkin, Cal. Procedure, supra, Judgment, §

2

286, p. 828.), also see Haines v Kerner 404 U.S. 519 (1972), the court said that, all

3

4

5

6

7

litigants defending themselves must be afforded the opportunity to present their
evidence and that the Court should look to the substance of the complaint rather than
the form. In Platsky v CIA, 953 F.2d 26 (2nd Cir. 1991), the Circuit Court of Appeals
allowed that, the District Court should have explained to the litigant proceeding
without a lawyer, the correct form to the plaintiff so that he could have amended his
pleadings accordingly. Petitioner has always respectfully reserved the right to amend

8

his demand for Grand Jury proceedings and or other Petitioner's papers, if needed,
9

Haines v Kerner, Id., Platsky v CIA, Id..
10

li

12

13

14

The void order issued by the inferior court recalled judge must be set aside since
it is and was the lower court judge who was recalled. Petitioner's right to due process
at 5 th amendment has been blatantly violated, since Petitioner did not obtain his due
process in lower court of records (both in DC A and in Trial Court) to have the
opportunity to appear in court, to wit: the sham private hearing among the Defendants

15

and the recalled judge Persky dba RECALLED JUDGE AARON PERSKY was
16

conducted in absence of all jurisdiction by attorneys at Severson & Werson without any
17

power of attorney from a damaged party, party of interest and holder in due course and
18

an imposter further damaging me economically, emotionally and physically, Id.
19

20

22

84

1

to my home and to my alleged loan, when it full well knew that there was

2

never ever any debt owed to it but continued to harass, intimidate, stalk,

3

4

5

6

7

threaten and harm Petitioner]. Petitioner has several claims for economic
damages against the ghost, Nationstar, its charlatan officers and directors
and its culprits such as Joseph W. Guzzetta ("Mr. Guzz" or "Guzz") and
and Guzz's culprits at Severson & Werson, Clear Recon Corp. and others;
• in short, the ghost, Nationstar and their Co Parties Agent(s) Principle(s)

8

are complete strangers to me and to my sovereign land, but they have been

9

using very corrupt judges, while stealing 10s of millions of dollars of my

10

li

monies and my home, etc. etc.
Accordingly, recalling the remittitur is both necessary and mandatory, by law,

12

the error of law can not stand, my inalienable rights are my God given rights,

13

inalienable rights mean they can not be leined on by anyone, to wit: my life, liberty,

14

pursuit of happiness and my inalienable right to my private land can not be leined on by

15

anyone, [1 PCT 46].

16

A void judgment or order may properly be attacked at any time, directly or

17

collaterally. The doctrine of res judicata does not apply to void judgments or orders.

18

“Obviously a judgment, though final and on the merits, has no binding force and is

19

subject to collateral attack if it is wholly void for lack of jurisdiction of the subject

20

matter or person, and perhaps for excess of jurisdiction, or where it is obtained by
ZI

83

1

(MG), Chapter 11, UNITED STATES BANKRUPTCY COURT

2

SOUTHERN DISTRICT OF NEW YORK, Case Number 12-12020-mg,

3

4

5

Doc 3929-4, Filed 06/07/13, also see [1 PCT 380], where it shows that the
so called securitized trust was part of this settlement—"Name of
Securitization Trust GPMF 2007-AR2];

6

• Appellant offered to pay in full the alleged amount of the alleged debt if

7

the ghost could simply, as FDCPA requires it to do, authenticate the

8

alleged debt and the amount of the alleged debt. But the ghost never

9

authenticated the amount of the alleged debt and the alleged debt itself,

10

even when ordered specifically by judge Folan of Santa Clara County

li

Court in Case Number 115cv289500 and in fact dismissed its action after

12

judge Folan issued her order, ordering the counsel for the ghost to

13

14

authenticate the alleged amount of the alleged debt and the alleged
reinstatement amount, if any, see [1 PCT 56-57];

15

• Nationstar continued to send and demand multiple conflicting amounts of

16

alleged amount of debt to Petitioner, see [1 PCT 63, where the amount of

17

the alleged debt is indicated as $1,333,938.74] and compare that with [1

18

PCT 66, where the alleged amount of alleged debt is indicated as

19

$1,806,748.25 and alleged consideration, through a credit bid of

20

$1,445,498.74 in stealing Petitioner's home by complete strangers to me,
20

82

1

• the ghost and its culprits admitted that Appellant's private property and

2

land is not an asset appearing on the books and records of the ghost since

3

there is no damaged party that can be identified anywhere, the ghost is

4

5

6

7

manufactured evidence to create an air of privity between the ghost and
Petitioner, when there were never any, whatsoever, for the benefit of
Nationstar's money laundering for pedophiles and drug cartels;
• based on facts on records, Nationstar (Aurora) and its culprits, using the

8

ghost have been receiving multiple insurance payments from multiple

9

insurance companies, therefore how can there be any default when all

10

payments have been received by the ghost and Nationstar, [1 PCT 380];

li

• Appellant through extensive research, have gathered ample evidence of

12

insurance payments from various insurance companies received by

13

Nationstar (and its culprits) using the ghost as a conduit, including but not

14

limited to a settlement with an insurance company where the ghost's

15

culprits paid back some of the fraudulent insurance payments they had

16

received to an insurance company as part of the settlement, however, this

17

is not the only insurance monies that Nationstar (Aurora Bank) and their

18

culprits received based on facts on records, [ for one of these insurance

19

payments, see 1 PCT 174, as to the settlement agreement filed in court, In

20

re: RESIDENTIAL CAPITAL, LLC, et ah, Debtors, Case No. 12-12020
19

81

1

• the alleged trust was never formed properly, it had no and does not have

2

any bank account, did not pay for anything since it was never funded and

3

was used as a rented name by Nationstar Mortgage LLC (and Aurora

4

5

6

Bank) for laundering monies for pedophiles, drug cartels, sex traffickers
while bribing very corrupt state, federal and appellate court judges;
• the alleged attorneys allegedly representing the trustee for the closed and

7

defunct trust, to wit: U.S. BANK NATIONAL ASSOCIATION, AS

8

TRUSTEE FOR GREENPOINT MORTGAGE TRUST MORTGAGE

9

PASS-THROUGH CERTIFICATES, SERIES 2007-AR2 ("ghost”) or any

10

other alphabet soup made up name do not have any power of attorney to

li

represent any damaged party, party of interest and holder in due course;

12

• the ghost never had any certificate holders, no certificates were ever

13

issued, that Appellant's private home does not appear as an asset, liability

14

or even charge off amount on the ghost's financial statements since the

15

ghost is a holographic image of an empty bag with nothing in it primarily

16

used by Nationstar and its culprits for money laundering and ponzi scheme

17

and to bribe corrupt judges to facilitate Nationstar's (Aurora Bank's)

18

misconduct, Id.;

19

20

18
80

1

well as all other void derivative actions subsequent to Persky's void order and Persky's

2

denial of due process to Petitioner at inter alia 5 amendment.

3

Due process means law of the land, Kansas Pac. Ry. Co. V. Dunmeyer 19 542,

4

"the words, ” by due process of law; are synonyms with "due process of law " or

5

"law of the land"...) which is common law and that is what Petitioner demands and

6

demanded not a Nisi Prius6 private tribunal where the recalled judge Mr. Persky

7

conducted all kinds of unlawful conduct, in collusion with attorneys from Severson &

8

Werson without any power of attorney on records nor anywhere else, ever.

9

10

li

Moreover, Respondents and their co parties repeatedly admitted to the, inter alia,
following facts that:
• no certificates were ever issued;

12

• no payments nor any for value consideration was paid for the false robo
13

signed, robo notarized instruments filed in both county recorder and in the
14

inferior court in violation of, inter alia, Cal. Penal Code 115 (a) and (b);
15

16

17

.

18

19

20

6 NISI PRIUS: is a Latin term (Bouvier's) Where courts bearing this name exist in the
United States, they are instituted by statutory provision.; Black's 5th "Prius" means
"first." "Nisi" means "unless." A "nisi prius" procedure is a procedure to which a party
FIRST agrees UNLESS he objects.; Black's 4th - A rule of procedure in courts is that if
a party fails to object to something, then it means he agrees to it. A nisi procedure is a
procedure to which a person has failed to object. A "nisi prius court" is a court which
will proceed unless a party objects. The agreement to proceed is obtained from the
parties first.
17

79

1

amended his pleadings accordingly. Petitioner has always respectfully reserved the

2

right to amend his demand for Grand Jury proceedings and or other Petitioner's papers,

3

4

if needed, Haines v Kerner, Id., Platsky v CIA, Id..
Moreover, Petitioner also mentioned the same to the Clerk of DC A, DCA's

5

erroneous rationale that DCA does not have any jurisdiction to do anything in this case

6

is trumped by the fact that Petitioner invoked DCA's jurisdiction by his motion to recall

7

remittitur at [1 PCT 39]. Since Petitioner's reason with this court's staff and DCA's

8

staff did not provide any relief to Petitioner, this Petition for writ of mandate, Id•>

9

followed.

10

VL

ARGUMENT

li

A.
12

13

14

15

The void order issued by the recalled judge Mr. Persky must be
reversed because it was based on the predicate ownership of the
alleged debt by an entity that never existed, does not exist, never had
any bank account, never paid for anything since it was never funded,
and was used a rented name by Nationstar Mortgage LLC. (Aurora
Bank) Moreover, attorneys admitted on records that they have no
power of attorney from any damaged party, party of interest and
holder in due course while they colluded with the recalled judge to
utterly deny Petitioner’s due process at every turn

16

17

18

Mr. Persky, a recalled judge, issued a void order when no damaged party, party
of interest and holder in due course ever appeared in the inferior court of records. The
fact that Persky was recalled automatically vacated the void order issued by Persky as

19

20

16
78

i

against all defendants and their co parties agent(s) principle(s), [1 PCT 3] and [1 PCT

2

39, as to motion to recall remittitur].

3

On or about, January 10, 2020, Petitioner received a series of emails from

4

California Sixth District Court of Appeal (" DCA"), that Petitioner's Motion to Recall

5

Remittitur was rejected without any explanation as to findings of facts and conclusion

6

of law when the motion to recall remittitur was on file in DCA, [1 PCT 4-15],

7

On the same date, January 10, 2020, Petitioner called both DCA and this court to

8

inquire about the reason for the rejection to no avail. This court's staff told Petitioner

9

that Petitioner may want to contact DCA as the Remittitur was issued by that court and

10

that the case has been closed since 2016, when Petitioner objected and told this court's

li

staff, this case was never closed for several independent reasons, inter alia, that Mr.

12

Persky was recalled and therefore the order was and is void and of no force and effect,

13

as a matter of law, still Petitioner did not obtain any relief nor any other information

14

even though Petitioner's question are and, were procedural questions, in opposition to

15

the controlling case laws, at inter alia, Haines v Kerner 404 U.S. 519 (1972), where the

16

court said that, all litigants defending themselves must be afforded the opportunity to

17

present their evidence and that the Court should look to the substance of the complaint

18

rather than the form. In Platsky v CIA, 953 F.2d 26 (2nd Cir. 1991), the Circuit Court of

19

Appeals allowed that, the District Court should have explained to the litigant

20

proceeding without a lawyer, the correct form to the plaintiff so that he could have
15

77

1

' 2

3

Accordingly, Petitioner's demands from this court of records to facilitate a
Grand Jury Proceedings against Respondents and their culprits must also be granted as
a matter of law, United States v. John H. Williams, Jr. No. 90-1972, Id.
V.

4

5

6

7

8

STATEMENT OF THE CASE
/«,

Petitioner Fareed-Sepehry-Fard , Sui Juris, (or "Petitioner") appealed an order
by the trial court recalled judge, Mr. Persky who sustained a demurrer to Petitioner's
Verified Complaint without leave to amend signed by the recalled ex judge Mr. Persky,
[1 PCT 552]. The DCA affirmed the void judgment by the recalled judge, [1 PCT 25].

9

Petitioner, on or about December 18, 2019, in Sixth District Court of Appeal,
10

filed his motion to vacate void judgment and remand case for further proceedings
li

which was rejected for want of jurisdiction post-remittitur on or about January 2nd,
12

2020, [1 PCT 3, as to the rejection], [1 PCT 16, as to the motion to vacate void
13

judgment]

14

Subsequently, at the direction of Sixth District Court of Appeal at [1 PCT 3], in
15

that Petitioner's motion to vacate void judgment was rejected for " want of jurisdiction
16

post-remittitur", Court of Appeal No: H039052, on or about January, 7th, 2020,
17

Petitioner filed his Motion to recall remittitur and to remand case for further
18

proceedings or in the alternative for the court to facilitate a grand jury proceedings
19

20

14

76

1

unbridled right to empanel their own grand juries and present "True Bills" of

2

indictment to a court, which is then required to commence a criminal proceeding. Our

3

4

5

6

7

Founding Fathers presciently thereby created a "buffer" the people may rely upon for
justice, when public officials, including judges, criminally violate the law. 112 S.Ct.
1735 504 U.S. 36 118 L.Ed.2d 352 UNITED STATES, Petitioner v. JohnH.
WILLIAMS, Jr. No. 90-1972. Argued Jan. 22, 1992. Decided May 4, 1992.

It

Unlike

[a] [cjourt, whose jurisdiction is predicated upon a specific case or controversy, the
grand jury ’can investigate merely on suspicion that the law is being violated, or

8

even because it wants assurance that it is not.'" United States v. R. Enterprises, 498
9

U.S. —, — ,111 S.Ct. 722, 726, 112 L.Ed.2d 795 (1991) (quoting United States v.
10

Morton Salt Co., 338 U.S. 632, 642-643, 70 S.Ct. 357, 364, 94 L.Ed. 401 (1950)). It
li

need not identify the offender it suspects, or even ’’the precise nature of the
12

offense” it is investigating. Blair v. United States, 250 U.S. 273, 282, 39 S.Ct. 468,
13

471, 63 L.Ed. 979 (1919). The grand jury requires no authorization from its
14

constituting court to initiate an investigation, see Hale, supra, 201 U.S., at 59-60, 65, 26
15

S.Ct., at 373, 375, nor does the prosecutor require leave of court to seek a grand jury
16

indictment." Emph. added, UNITED STATES, Petitioner v. JohnH. WILLIAMS, Jr. No.
17

90-1972, Id.
18

19

20

in country recorders and in courts, in only 5 years, stealing people's homes. Petitioner
has been fighting these thieves—Respondents, for more than 8 1/2 years.
13

75

1

Petitioner's FOIA request from FBI/DOJ]; [1 PCT 339, as to Petitioner's identity theft

2

report to Federal Trade Commissioner, where Respondents and their Co Parties

3

4

5

6

7

Agent(s) Principle(s) have used an incorrect Social Security Number that does not
belong to Petitioner at [1 PCT 543], that Respondents have used 16 different variation
of names that does not belong to Petitioner at [1 PCT 542], that Respondents have used
incorrect addresses for Petitioner where Petitioner never lived at [1 PCT 542], etc. etc.].
Additionally, if anyone wishes to challenge these facts on records, Id., they can

8

do so in an evidentiary hearing or, alternatively in a grand jury proceedings pursuant to

9

Petitioner's demand for a grand jury proceedings at, inter alia, Petitioner's Bill of

10

Rights, to wit: "We the People" have been providentially provided legal recourse to

li

address the criminal conduct of persons themselves entrusted to dispense justice. In the

12

Supreme Court case of United States v. Williams, 112 S.Ct. 1735, 504 U.S. 36, 118

13

14

15

16

L.Ed.2d 352 (1992), Justice Antonin Scalia, writing for the majority, confirmed that the
American grand jury is neither part of the judicial, executive nor legislative branches of
government, but instead belongs to the people. It is in effect a fourth branch of
government "governed" and administered to directly by and on behalf of the American
people, and its authority emanates from the Bill of Rights. Thus, citizens have the

17

18

19

year x 4 people per household x 5 years= 12,000,000 ruined lives of people who have
been directly impacted by Nationstar's fabricating instruments/notes (securities fraud18 US Code Section 471, 472, 473 which has up to 20 years in prison) and filing those

20

12

74

Without writ review, Petitioner will not have due process at 5 th amendment, Id.

1

2

3

4

5

6

7

8

9

based on an entity that does not exist, based on facts on records, the irreparable injury
to Petitioner and his family justifies writ relief here.
IV.

WHY, IN THE ALTERNATIVE, THIS COURT OF RECORDS MUST
GRANT FACILITATION OF PETITIONER’S DEMAND FOR A GRAND
JURY PROCEEDINGS AGAINST ALL DEFENDANTS AND THEIR CO
PARTIES AGENT(S) PRINCIPLE(S)
Without any doubt and based on facts on records, Respondents' repeated

misconduct is criminal in nature, at inter alia, 18 US Code Sections 471, 472 & 473—
Securities Fraud and Cal. Penal Code 115 (a) and (b), among others since, inter alia,
Respondents have fabricated official looking instruments in several courts pretending

10

that there were offer, acceptance of that offer by Petitioner and for value consideration,

li

see California Commercial Code or UCC, to wit: for any contract to be valid, there

12

must have been an offer [where there were none and there is none, in that Respondents

13

and their culprits have forged Petitioner's signature on one or more promissory notes

14

and monetized those further damaging Petitioner economically, physically and

15

emotionally, see [1 PCT 536, as to police report regarding Petitioner's identity theft

16

report]; [1 PCT 537 as to close to 18,000 similar complaints against Respondent

17

Nationstar, returned to Petitioner by FBI/DOJ in only one year5. subsequent to

18

19

20

5 And those are People who have complained to the government, very few people
complain to the government, typically less than 3 percent of people complain to the
government which makes the real number to be approximately 600,000 people in one
11
73

1

claimant in foreclosure actually has ownership of the alleged debt and therefore would

2

be injured financially if the encumbrance were not enforced.

3

The eviction in civil cases in equivalent to a capital punishment in criminal cases,

4

because nonjudicial foreclosure is a “drastic sanction” and a “draconian remedy”

5

{Baypoint Mortgage Corp. v. Crest Premium Real Estate etc. Trust (1985) 168

6

Cal.App.3d 818, 827, 830, 214 Cal.Rptr. 531), “[t]he statutory requirements must be

7

strictly complied with.” {Miller, atp. 894, 179 Cal.Rptr. 753.)

8

9

10

n

To be valid, a notice of default must contain at least one correct statement of a
breach of an obligation the alleged deed of trust secures. Moreover, the breach
described in the notice of default must be substantial enough to authorize use of the
drastic remedy of nonjudicial foreclosure. If a notice of default does not satisfy these

12

requirements, then the notice is invalid and the alleged lender cannot exercise the

13

power of sale based on that notice.

14

default, when he was never in default, based on facts on the records, but whether

15

Petitioner was in default as specified in the Notice of Default and whether the Notice of

16

Default met the mandatory requirements of the Deed of Trust, which it did not And the

17

inferior court recalled judge's blocking the discovery violated Petitioner's due process

18

rights at inter alia, 5 th amendment while colluding with the alleged attorneys for the

19

alleged Plaintiff based on several ex parte communications, in violation of the law, Id.

The issue here is not whether Petitioner was in

20

10

72

1

2

3

4

Here, Petitioner assert that the Superior Court of California, County of Santa
Clara recalled judge, Mr. Persky, has done just that by legislating from bench, Id. and
DCA, by refusing to grant relief to undersigned in recalling the void remittitur.
The scope of a recalled judge of a superior court's authority and DC A's refusal to

5

recall the void remittitur, to unilaterally and in violation of separation of powers deny

6

Petitioner's Motion to recall remittitur, Id, is also an issue of significant importance that

7

has evaded review, despite inconsistent rulings in the Superior Courts of Santa Clara

8

and DCA.

9

This inconsistent ruling by the inferior court judges and justices in violation of

10

enacted law, Id., varies from court to court, and even from department to department.

li

This lack of uniformity in the law could be resolved by this Court's determination of

12

this Petition on the merits.

13

Finally, writ relief is necessary to avoid irreparable injury to Petitioner.
14

Petitioner's home where petitioner lives with his handicapped almost 82 year old
15

mother, is his only home. A litigation that exceeds the authority of the inferior court
16

17

18

19

judge could subject Petitioner to (likely unrecoverable) additional litigation costs and
Petitioner's being evicted. It's one thing to get a money judgment against someone. But
the legislature of every state has already decided that is quite another thing to take the
homestead away from a homeowner. The big safeguard is the requirement that the

20

9
71

1

since all derivative actions were acted upon on a void order issued by a recalled judge—

2

Mr. Persky, who was recalled in 2018, Id., [I PCT 25].

3

Petitioner as a disabled Muslim American bom in Iran, and as a direct and

4

proximate result of the void order, Id., has been severely economically, emotionally

5

and physically damaged, [1 PCT 41]. Therefore, inter alia, the Writ of Mandate

6

directing the DCA to recall remittitur and remand for further proceedings must be

7

granted.

8

9

Preferably, in the alternative and in the interest of justice, this court summarily
should provide remedy to Petitioner who has been wronged as a direct and proximate

10

result of the trial court void order issued by the recalled judge, Mr. Persky, and all other

li

derivative actions subsequent to the void trial court order, Id.

12

Moreover, Writ of Mandate is necessary and proper here for several other
13

independent reasons. First, writ relief is appropriate when a trial court judge exceeds
14

his or her jurisdiction and acts in excess of his statutory authority, because when the
15

judge of a court grants that sort of permission, it "exceed[s] its jurisdiction." (Safer v.
16

17

18

Superior Court (1975) 15 Cal.3d 230, 242), "Where there is no jurisdiction over the
subject matter, there is, as well, no discretion to ignore that lack ofjurisdiction. "Joyce
v. U.S., 474 F 2d 215.

19

20

8

70

(
1

monies and assets, that Petitioner's home does not appear as an asset, liability or even

2

charge off on the financial statements of the claimant (whichever it may be, as there is

3

4

5

6

7

no and there was none which can be identified), no alleged creditor can be identified
anywhere who allegedly loaned monies to Petitioner, no certificates were ever issued,
there are no certificate holders that can be identified who paid value for the alleged
debt, the trust was never properly formed and it does not and never existed, it had no
bank account and does not have any bank account, never paid for anything since it had
no monies to pay for anything and was never funded, was never properly formed, is

8

and was a rented name by Nationstar (and Aurora Bank) for the sole purpose of
9

laundering monies for drug cartels and pedophiles while using Petitioner's home as a
10

conduit to perfect and commit these heinous crimes, using or abusing very corrupt
li

judges, one of those corrupt judges was recalled by "We the People". This court must
12

not allow courts to be used for endangering our national security, Id, the remittitur is
13

void as a matter of law and must be recalled, as a matter of law.
14

15

III.

WHY WRIT OF MANDATE SHOULD BE GRANTED

16

17

18

19

DCA without any lawful reason, rejected Petitioner's Motion to Recall
Remittitur. The fact is Mr. Persky was recalled, Id., accordingly Mr. Persky's order in
Trial court was and is void, all other derivative actions are also void, as a matter of law

20

7

69

1

due to his being recalled—as if he were never a judge? The answer is that DCA erred in

2

rejecting Petitioner's motion to recall void remmittitur affirming an order issued by a

3

recalled judge, Mr. Persky.
A.

4

5

JURISDICTION OF THE COURT OVER THE
PARTIES AND SUBJECT ONCE CHALLENGED CAN
NOT BE ASSUMED AND MUST BE PROVEN ON
RECORDS

6

Pursuant to Basso v. Utah Power and & Light Co. 495 F 2d 906, 910:
7

“ Jurisdiction can be challenged at any time” and “ Jurisdiction,
once challen2ed, can not be assumed and must be decided. ”, Emph.
added, Basso v. Utah Power and & Light Co., Id.

8

9

DCA seems to have legislated from bench in rejecting Petitioner's motion to
10

recall remittitur based on Mr. Persky's void order who was recalled by "We the
li

People".
12

Additionally, Respondents have repeatedly admitted that the proceeds of the
13

foreclosure is an income for the strangers to Petitioner and is not used to pay down any
14

alleged debt nor anyone knows how much the alleged debt is, if any [1 PCT 56-57, as
15

to judge Folan's order for the alleged attorneys to authenticate the amount of the alleged
16

debt, if any, and the amount of the alleged debt, if any—see [1 PCT 63 and 1 PCT 66, as
17

18

19

to the inconsistent and unverified amount of the alleged debt furnished to Petitioner and
in court records], [1 PCT 58-59, as to dismissal of the Respondents' complaint when
judge Folan in inferior court issued her order], to wit: those are theft of Petitioner's

20

6

68

1

GREENPOINT MORTGAGE TRUST MORTGAGE PASS-THROUGH

2

CERTIFICATES, SERIES 2007-AR2 or any other alphabet soup made up name and

3

4

5

6

Nationstar Mortgage LLC ("Nationstar" and or "Aurora Bank"), primarily used for
money laundering and ponzi scheme, purporting to act on behalf of the non existing
ghost - U.S. BANK NATIONAL ASSOCIATION, AS TRUSTEE FOR
GREENPOINT MORTGAGE TRUST MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2007-AR2.

7

II.

THE PETITION IS TIMELY

8

9

The DCA entered the order that is the subject of this Petition on January 10,

10

2020, [1 PCT 4-15]. Petitioner is filing this Petition within 60 days of that Order.

li

Therefore, the Petition is timely. (Cal. W. Nurseries, Inc. v. Superior Court (2005) 129

12

Cal.App.4th 1170, 1173 ["As a general rule, a writ petition should be filed within the

13

60-day period that applies to appeals."].)

14

15

MEMORANDUM OF POINTS AND AUTHORITIES

16

This Petition addresses a clear and ripe question of statewide importance: Does
17

Petitioner's motion to recall remittitur which was issued by DCA based on a void
18

19

judgment by a recalled judge was and is within DCA's jurisdiction in opposition to both
the letter of the law and the spirit of the law when the trial judge's order became void

20

5

67

ISSUE PRESENTED

1

2

The issue presented is directing DCA to recall the void remittitur and either

3

preferably and directly provide relief to Petitioner who has been wronged by the void

4

order issued by the recalled judge or, as a second alternative, avail remedies to

5

Petitioner as a disabled Muslim American bom in Iran, so that he can amend his

6

complaint to seek relief in the Trial court or in DCA.

7

I.

THE PARTIES

8

Petitioner, Heir Apparent Fareed-Sepehry-Fard®, a man of California Republic,
9

is the sole owner of property and land: C/o 12309 Saratoga Creek Dr., Rancho Quito,
10

City of Saratoga, California Republic where he lives with the intention to remain.
li

Respondent is the Six District Court of Appeal in the State of California, County
12

of Santa Clara.
13

Alleged Real Party in Interest that does not exist and never existed, did not and
14

does not have a bank account, did not pay for anything since it was never funded and
15

was never properly formed, is the U.S. BANK NATIONAL ASSOCIATION, AS
16

TRUSTEE FOR GREENPOINT MORTGAGE TRUST MORTGAGE PASS17

18

19

THROUGH CERTIFICATES, SERIES 2007-AR2 ("ghost") et. al, a rented name by
the attorneys at Severson & Werson without any power of attorney on records from
the ghost or U.S. BANK NATIONAL ASSOCIATION, AS TRUSTEE FOR

20

4

66

1

Persky was recalled and therefore the order was and is void and of no force and effect,

2

as a matter of law, still Petitioner did not obtain any relief nor any other information

3

4

5

6

even though Petitioner's question are and, were procedural questions, in opposition to
the controlling case laws, at inter alia, Haines vKerner 404 U.S. 519 (1972), where the
court said that, all litigants defending themselves must be afforded the opportunity to
present their evidence and that the Court should look to the substance of the complaint
rather than the form. In Platsky v CIA, 953 F.2d 26 (2nd Cir. 1991), the Circuit Court of

7

Appeals allowed that, the District Court should have explained to the litigant
8

proceeding without a lawyer, the correct form to the plaintiff so that he could have
9

amended his pleadings accordingly. Petitioner has always respectfully reserved the
10

right to amend his demand for Grand Jury proceedings and or other Petitioner's papers,
li

if needed, Haines v Kerner, Id., Platsky v CIA, Id..
12

13

14

15

16

17

Moreover, Petitioner also mentioned the same to the Clerk of DCA, DCA
rationale that the court does not have any jurisdiction to do anything in this case is
trumped by the fact that Petitioner invoked DCA's jurisdiction by his motion to recall
remittitur at [1 PCT 39]. Since Petitioner's reason with this court's staff and DCA's
staff did not provide any relief to Petitioner, this Petition for writ of mandate, Id.,
followed.

18

19

20

1 of Petitioner's Court Transcripts pages 7 to 9, inclusive, etc. etc.
3

65

i'

2020, [1 PCT 3, as to the rejection]4, [1 PCT 16, as to the motion to vacate void

2

judgment].

3

Subsequently, at the direction of Sixth District Court of Appeal at [1 PCT 3], in

4

that Petitioner's motion to vacate void judgment was rejected for " want of jurisdiction

5

post-remittitur", Court of Appeal No: H039052, on or about January, 7th, 2020,

6

Petitioner filed his Motion to recall remittitur and to remand case for further

7

proceedings or in the alternative for the court to facilitate a grand jury proceedings

8

against all defendants and their co parties agent(s) principle(s), [1 PCT 3] and [1 PCT

9

39, as to motion to recall remittitur].

10

On or about, January 10, 2020, Petitioner received a series of emails from

li

California Sixth District Court of Appeal (" DCA"), that Petitioner's Motion to Recall

12

Remittitur was rejected without any explanation as to findings of facts and conclusion

13

of law when the motion to recall remittitur was on file in DCA, [1 PCT 4-15].

14

15

16

17

18

On the same date, January 10, 2020, Petitioner called both DCA and this court to
inquire about the reason for the rejection to no avail. This court's staff told Petitioner
that Petitioner may want to contact DCA as the Remittitur was issued by that court and
that the case has been closed since 2016, when Petitioner objected and told this court's
staff, this case was never closed for several independent reasons, inter alia, that Mr.

19

20

4

PCT stands for Petitioner's Court Transcript, for example, [1 PCT 7-9], means volume
2

64

Notice to Agent is Notice to Principle and Notice to Principle is Notice to Agent

1

2

3

INTRODUCTION

4

As this court of records, at California Article VI Section I of the Constitution2,

5

seems to be aware, Mr. Aaron Persky previously doing business as JUDGE AARON

6

PERSKY ("Mr. Persky") was recalled , accordingly, the order issued by Mr. Persky,

7

Sup. Ct. No. 111CV209804 is void, and all other derivative actions, at inter alia, 6th

8

District Court of Appeal Case Number H039052 remittitur, are also void and of no

9

force and effect.

10

Petitioner, on or about December 18, 2019, in Sixth District Court of Appeal,

li

filed his motion to vacate void judgment and remand case for further proceedings

12

which was rejected for want of jurisdiction post-remittitur on or about January 2nd,

13

14

15

16

17

18

19

20

2

See California Constitution Article 6 Section 1, where it states that State Courts are
court of records which are common law courts.

https://www.nytimes.eom/2018/06/06/us/politics/judge-persky-brock-turnerrecall.html
1

63

18 US Code Sections 471,472 & 473--Securities Fraud,

10,11

Cal. Penal Code 115 (a) and (b)

10,17

Jones v. Jones, 188 Mo.App. 220, 175 S.W. 227, 229

Passim

Ex parte Gladhill, 8 Mete. Mass., 171, per Shaw, C.J,

Passim

Ledwith v. Rosalsky, 244 N.Y. 406, 155 N.E. 688, 689

Passim

vii

62

ORDERS. STATUES. RULES, LAW ON TREATIES. ETC.
Judiciary Act of 1789

Passim

Sections 81-131 of Title 28 U.S.C Chapter 5

Passim

Kansas Pac. Ry. Co. V. Dunmeyer 19 542

16

Demarest v. Hopper, 22 N. J. Law, 019

.27

Martin v. Railroad Co., 83 Me. 100, 21 Atl. 740

27

Yeeder v. Mudgett, 95 N. Y. 295

,27

Nisi Prius

16

Black's Law Dictionary.

26,27

7 Witkin, Cal. Procedure, supra, Judgment, § 286, p. 828

.21

28 United States Code §1653

Passim

FRAP 46

Passim

Rule 11

Passim

C.C.P 128.7

Passim

CCP § 431.20, CCP § 431.30 and CCP § 170.3c(5)

26

TITLE 28 > PART I > CHAPTER 21 > § 454

26

vi

61

FEDERAL CASES

Basso v. Utah Power and & Light Co. 495 F 2d 906, 910
Joyce v. US., 474 F 2d 215

Platsky v CIA, 953 F.2d 26 (2nd Cir. 1991)

5,6
8

3,15,21

Rodriques v. Ray Donavan (U.S. Department of Labor) 769
F. 2d 1344, 1348(1985)......................................................

25

Media Technologies Licensing, LLC v. Upper Deck Co., 334
F.3d 1366, 1370 (Fed. Cir. 2003) (Cal)................................

,27

CALIFORNIA CASES

Cal. W. Nurseries, Inc. v. Superior Court (2005) 129 Cal.
App.4th 1170, 1173.........................................................

5

Safer v. Superior Court (1975) 15 Cal.3d 230, 242

8

Baypoint Mortgage Corp. v. Crest Premium Real Estate etc. Trust (1985)
168 Cal.App.3d 818, 827, 830, 214 Cal.Rptr. 531
9
Miller, atp. 894, 179 Cal.Rptr. 753

9

60

United States v. R. Enterprises, 498 U.S. -—, —
111 S.Ct. 722, 726, 112 L.Ed.2d 795 (1991)......

12

United States v. Morton Salt Co., 338 U.S. 632, 642-643,
70 S.Ct. 357, 364, 94 L.Ed. 401 (1950).............................

12

Blair v. United States, 250 U.S. 273, 282, 39 S.Ct. 468, 471,
63 L.Ed. 979 (1919)..................................................................

13

Hale, supra, 201 U.S., at 59-60, 65, 26 S.Ct., at 373, 375

13

Haines v Kerner 404 U.S. 519 (1972)

2,13,15,21

Compton v. State ofAlabama, 214 U.S. 175 (1909)

Passim

Lujan v. Defenders of Wildlife, 504 U.S. 555, 570 n.5 (1992)

26

Rafael v. Verelst, 2 Wm.Bl. 983, 1055

26

American Banana Co. v. United Fruit Co. 213 U.S. 347 (1909)

26

Arizonans for Official English v. Arizona, 520 U.S. 43, 64, 67 (1997)

27

Keene Corp. v. United States, 508 U.S. 200, 207 (1993)

,27

Balzac v. Porto Rico, 258 U.S. 298, 312 (1922)

Passim

Davis v. Passman, 442 U.S. 228 (1979)

Passim

Mookini v. United States, 303 U.S. 201 (1938)

Passim

iv

59

TABLE OF AUTHORITIES

PAGE NO.

U.S. AND CALIFORNIA CONSTITUTION
Article III

26

Maxims of Law.

Passim

5th Amendment Right to Due Process

10,16,21

Declaration of Independence

25

Article VI Section I of California Constitution

1

Article I Section 8

,25

Article I Section I

25

Article I Section 8 Clause 18

,25

SUPREME LAW CASES

United States v. Williams, 112 S.Ct. 1735, 504 U.S. 36,
118 L.Ed.2d 352 (1992)...............................................

Marbury v. Madison, 5 th US (2 Cranch) 137, 180

12,13

,25

iii

58

B.

party of interest and holder in due course while they
colluded with the recalled judge to utterly deny
Petitioner's due process at every turn.......................

15

This Court should recall the remittitur to end
confusion in the lower California courts over the
recalled judge's ruling that void order issued by the
recalled judge is void and not voidable and is not
a cause of action but a fact......................................

,24

VII. PRAYER FOR RELIEF

,27

DECLARATION

,29

CERTIFICATE OF WORD COUNT

30

CERTIFICATE OF INTERESTED ENTITIES OR PERSONS.......31
PROOF OF SERVICE

32

ii

57

TABLE OF CONTENTS
INTRODUCTION

1

ISSUE PRESENTED

3

I.

THE PARTIES

4

II.

THE PETITION IS TIMELY

5

MEMORANDUM OF POINTS AND AUTHORITIES
A.

JURISDICTION OF THE COURT OVER THE
PARTIES AND SUBJECT ONCE CHALLENGED
CAN NOT BE ASSUMED AND MUST BE
PROVEN ON RECORDS........................................

5

5

III.

WHY WRIT OF MANDATE SHOULD BE GRANTED.......7

IV.

WHY, IN THE ALTERNATIVE, THIS COURT OF
RECORDS MUST GRANT FACILITATION OF
PETITIONER'S DEMAND FOR A GRAND JURY
PROCEEDINGS AGAINST ALL DEFENDANTS AND
THEIR CO PARTIES AGENT(S) PRINCIPLE(S).............. 10

V.

STATEMENT OF THE CASE

13

VI.

ARGUMENT

15

A.

The void order issued by the recalled judge
Mr. Persky must be reversed because it was
based on the predicate ownership of the alleged
debt by an entity that never existed, does not exist,
never had any bank account, never paid for anything
since it was never funded, and was used a rented name
by Nationstar Mortgage LLC. (Aurora Bank)
Moreover, attorneys admitted on records that they
have no power of attorney from any damaged party,

i

56

Supreme Court of California
Jorge E. Navarrete. Clerk and Executive Officer of the Court
Electronically RECEIVED on 1/28/2020 on 7,46,05 PM

Supreme Court of California
Jorge E. Navarrete, Clerk and Executive Officer of the Court
Electronically FILED on 1/28/2020 by Margarita Arroyo, Deputy Clerk

S260411
IN THE SUPREME COURT OF CALIFORNIA
Fareed :Sepehry-Fard ©

Jurisdiction: Court of Record, under the
rules of Common Law i

Plaintiff, Appellant, Petitioner
v.
COURT OF APPEAL OF THE
STATE OF CALIFORNIA
SIXTH APPELLATE DISTRICT
Respondent
Aurora Bank FSB
GPM Heloc
Bank of America
U.S. Bank National Association as
trustee for GreenPoint Mortgage
Funding
Frank H. Kim
Severson & Werson

Supreme Court Case No.
Court of Appeal No: H039052
(Sup. Ct. No. 111CV209804)
VERIFIED PETITION FOR WRIT
OF MANDATE OR PROHIBITION;
MEMORANDUM IN SUPPORT
THEREOF; DECLARATION
[EXHIBITS FILED UNDER
SEPARATE COVER]
At law venue and jurisdiction
[Oral Argument Requested,
Fed Rule. 201 (e)J

Strangers to me, my home and to the
alleged loan by their own admission,
Defendants
Fareed-Sepehry-Fard, Sui Juris c/o 12309 Saratoga Creek Dr., City of Saratoga, Rancho
Quito, California Republic (Zip code Exempt DMM 602 sec 1.3(e)), Phone Number
(408) 690-4612, Ahuraenergysolarcells@msn.com

i

"A Court of Record is a judicial tribunal having attributes and exercising functions
independently of the person of the magistrate designated generally to hold it, and
proceeding according to the course of common law, its acts and proceedings being
enrolled for a perpetual memorial". Jones v. Jones, 188 Mo.App. 220, 175 S.W. 227,
229; Ex parte Gladhill, 8 Mete. Mass., 171, per Shaw, C.J. See, also, Ledwith v.
Rosalsky, 244 N.Y. 406, 155 N.E. 688, 689.
55

&

IT IS ORDERED, ADJUDGED, AND DECREED that Defendants Aurora Bank, F.S.B.,
2

Greenpomt Mortgage Funding f erroneously sued as GPM HELOC), U.S. Bank National

3

Association, and Bank of America Corporation (^erroneously sued: as “Bank of America”) shall

4

have a judgmen t of dismissal entered in their favor ana against Plaintiff Sepehry-Fard; Plaintiff

5 Sepehry-Fard’s entire action shall be dismissed with prejudice, Plaintiff Sepehry-Fard shall take
6 nothing from his action against Defendants: and Defendants shall recover their costs.
7 DATED: October lU. 2012
8
Aaron Persky

9

/W*.

HON. PA
JUDGE OF THE SUPERIOR COURT

10

11
12
13
14
15
16
17
18
19
20

21
22
23
24
25

26
27
28
I I'M] O!0gpjfU62 I

2

IPipjwscdj Judgment Following Sustaining of Demurrer and Granting of Motion to Strike Second Amended Complaint

54

1

FILED

2

0C7 16 2012

3

th-Ml-'. » .*:!«!s?aCafl
Co'..;;;. .oiCutea
b.

4

t} >/
%

o

ft

5
6
7
8

SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

COUNTY OF SANTA CLARA — SAN JOSE COURTHOUSE

iO

KAREED SEPEHRY-FARD,

11

Plaintiff,

12
vs.

13

Aurora Bank FSB
GPM Heloc
15 Bank of America
U.S. Bank National Association as trustee for
16 GreenPoint Mortgage Funding,

34

Defendants.

17

Dept. 2

IPROPOSECTJUDGMENT FOLLOWING
SUSTAINING OF DEMURRER
WITHOUT LEAVE TO AMEND AND
GRANTING MOTION TO STRIKE
SECOND AMENDED COMPLAINT
[Filed concurrently with [Proposed] Order On
Defendants’ Demurrer and Motion to Strike
Second Amended Complaint]
Action Filed:
Trial Date:

18

o ^

September 23,2011
Not Set

19
20

IT APPEARING FROM the files and records in the above-entitled action, that

21

concurrently with the entry of this judgment, the Court entered an Order Sustaining Defendants

22 Aurora Bank, F.S.B., Greenpoint Mortgage Funding (erroneously sued as “GPM Heloc”), U.S.
23

Bank, National Association, and Bank of Amenca Corporation’s (erroneously sued as “Bank of

24

America’) (“collectively “Defendants,” or “moving parties”) demurrer to Plaintiff Farced

25 Sepehry-Fard’s (“Sepehry-Fard”) Second Amended Complaint in its entirety without leave to
26 amend, and granting the moving parties’ motion to strike the Complaint against Frank H. Kim and
27 Severson & Werson, and

28

GOOD CAUSE .APPEARING THEREFOR,
tW>! 0108/231!*62 I
i

[PKOjirnifToj JUDGMENT FOLLOWING SUSTAINING OF DEMURRER AND GRANTING MOTION TO
STRIKE SECOND AMENDED COMPLAINT

53

1

(See Buena Vista Mines, Inc. v. Industrial Indemnity Co. (2001) 87 Cal.App.4th 482,487 [the

2

burden is on the plaintiff to demonstrate the manner in which the complaint might be amended]; see

3

also Davies v. Sallie Mae, Inc. (2008) 168 Cal.App.4th 1086,1097 [appellate court determined that

4 trial court did not abuse its discretion in sustaining demurrer without leave to amend after plaintiff

5 had two previous opportunities to amend the complaint].)
6

Defendants have also filed an opposition to “Plaintiff’s motion to reconsider.” However,

7 there is no such motion currently pending before the Court. Accordingly, the Court declines to
8

9
10

address the merits of this opposition.
GOOD CAUSE APPEARING THEREFOR,
IT IS ORDERED that Defendants’ Demurrer to the Second Amended Complaint, in its

11 entirety, is SUSTAINED WITHOUT LEAVE TO AMEND.
12

IT IS FURTHER ORDERED that Defendants’ Motion to Strike portions of the Second

13 Amended Complaint is GRANTED.
14
15 DATED;
16
17

18

Aaron Persky
HONORABLE
fa™
JUDGE OF TOE^WERIOR COURT P&^i \

19
20
21
22
23
24
25
26
27
28
II99i 0108.7311832 I
-4JPRpJ'nSEl)} OR DPR ON DEFENDANTS' DEMURRER AND MOTION TO STRIKE THE SECOND AMENDED COMPLAIN!
f

i

r

52

1
2
3

Defendants in the SAC without leave of Court.
Defendants’ demurrer to the SAC is SUSTAINED WITHOUT LEAVE TO AMEND on the
ground of failure, to allege sufficient facts to state a claim. To the extent that the SAC can be

4 understood to be challenging Defendants’ right to foreclose on his property, there is no authority

5 providing that a homeowner may seek a determination as to whether the party initiating foreclosure
6 has the authority to do so. fSee Gomes v. Countrywide Home Loans, Inc. (2011) 192 Cal.App.4th
7

1149, 1154-1155; see also Robinsonv. Countrywide Home Loans, Inc. (2011) 199 Cal.App.4th 42,

8 46 [“the statutory scheme (§§ 2924-2924k) does not provide for a preemptive suit challenging

9 standing. Consequently, Plaintiffs’ claims for damages for wrongful initiation of foreclosure and
10 for declaratory relief based on Plaintiffs’ interpretation of section 2924, subdivision (a), do not state
11

a cause of action as a matter of law.”).) Although Plaintiff contends that Defendants are required to

12 provide “proof of claim,” “nothing in the applicable statutes . ..precludes foreclosure when the

13 foreclosing party does not possess the original promissory note.” (Debrunner v. Deutsche Bank
14 Nat. Trust Co. (2012)204 Cal.App.4th 433,436 [also stating that “...we are not convinced that the
15 cited sections of the Commercial Code (particularly § 3301) displace the detailed, specific, and
16 comprehensive set of legislative procedures the Legislature has established for nonjudicial
37 foreclosures.”].) Additionally, Plaintiff’s contention that his signature was forged on the Deed of
18 Trust is explicitly contradicted by Plaintiff’s signed and notarized “Affidavit of Revocation of

19 Signature for Good Cause,” wherein Plaintiff acknowledges that he signed the Deed of Trust on
20 January 11,2007. (See Defendants’ RJN, Exh. G, f 1.) To the extent that the SAC is based on the

21 purported breach of the Pooling and Servicing Agreement, Plaintiff lacks standing to assert such a
22

breach. (Set Armeni v. America’s Wholesale Lender (C.D.Cal, 2012) 2012 U.S. Dist. LEXIS

23

24004 at *1-* 8 [“plaintiff lacks standing to challenge the process by which his mortgage was (or

24

was not) securitized because he is not a paity to the PSA”), see also Deerinck v. Heritage Plaza

25 Mortgage. Inc. (E.D.CaL 2012) 2012 U.S. Dist. LEXIS 45728 at * 15-*l6; see also Junger v. Bank
26 ofAmerica, NA. (C.D.Cal. 2012) 2012 U.S. Dist. LEXIS 23917 at *7-*9.)
27

No leave to amend is granted as the Court is unable to discern how the defects in the SAC

28 could be cured by amendment and it therefore appears that granting leave to amend would be futile.
-3fPiiwfoh;D] Order on defendants’ Demurrer and motion to strike the Second amended complaint

H99i OIOS/23UK32 !

\

51

\V

1
2

The Motion to Strike and Demurrer to Plaintiff Fareed Sepehry-Fard’s Second Amended
Complaint, by Defendants Aurora Bank, F.S.B., Greenpoint Mortgage Funding {erroneously sued
as GPM Heloc), and U.S. Bank National Association (collectively, “Defendants”), came on

4

regularly for hearing on Tuesday, October 16, 2012, at 9:00 a.m. in Department 2 of the above-

5

captioned Court, the Honorable Fteft4m-fcticas?Judge presiding. Severson & Werson, APC, by

6 ; Andrew W. Noble, appeared on behalf of Defendants. Plaintiff Fareed Sepehry-Fard appeared in
7 , propria persona.
8

After considering the moving papers, the opposition, and reply papers, additional

9 ! submissions by Plaintiff and the oral argument of the parties,
10

The court finds as follows:

11

Defendants Aurora Bank F.S.B., Greenpoint Mortgage Funding (erroneously sued as GPM

12

Heloc), Bank of America Corporation (erroneously sued as Bank of America); and U.S. Bank

13

National Association (collectively, “Defendants”) bring a demurrer and motion to strike the Second

14

Amended Complaint (“SAC”) filed by Plaintiff Fareed Sepehry-Fard (“Plaintiff’).

15

Defendants’ request for judicial notice is GRANTED.

16

Plaintiffs first request for judicial notice is DENIED as Exhibit A is not a proper subject for

17 judicial notice. Plaintiffs second and third requests for judicial notice are GRANTED.
18

As a preliminary matter, the Court notes that Plaintiffs opposing memorandum is 44 pages

19

long and therefore exceeds the 15-page limit set forth in California Rules of Court, rule 3.1113(d).

20

Plaintiff is admonished to comply with applicable format requirements in the future.

21

Defendants’ motion to strike all references to “Frank H. Kim” and “Severson & Werson,

22

APC” as Defendants in the SAC is GRANTED WITHOUT LEAVE TO AMEND. A party may

23

move to strike “any part of any pleading not drawn or filed in conformity with the laws of this state,

24

a court rule, or an order of the court.” (Code Civ. Proc., § 436.) The law is settled that “[ijeave of

25

court is required under section 473 of the Code of Civil Procedure to add new parties defendant.”

26

(Schaefer v Berinstein (1956) 140 Cal.App.2d 278, 299.) The failure to obtain such leave is a

27 proper ground for striking the new defendant from the pleading. (Id.) Here, Defendants are correct
28

that Plaintiff improperly attempts to name Frank H. Kim and Severson & Werson, APC as
I TOI 0103/23

-2-

JPijSroSEO] Order on Dependants’ Demurrer and motion to Strike the Second amended Complaint

50

i

ANDREW A. WOOD (Stale Bar No. 279403)
aaw@sevcrson.com
2 SEVERSON & WERSON, A Professional Corporation
The Atrium
3 19100 Von Kanrnan Avenue, Suite 700
Irvine, California 92612-6578
4 Telephone: (949) 442-7110
Facsimile: (949) 442-7118
5
MARK JOSEPH KENNEY (State Bar No. 87345)
6 SUNNY S. HUO (State Bar No. 181071)
ANDREW W. NOBLE (State Bar No. 245993)
7 SEVERSON & WERSON, A Professional Corporation
One Embarcadero Center, Suite 2600
8 San Francisco, California 94111-3715
Telephone: (4IS) 398-3344
9 Facsimile: (415)956-0439

%

FILED
!

OCT 16 ZfllZ

pSS.viS*-

10 Attorneys for Defendants

AURORA BANK F.S.B.; GREENPOINT
MORTGAGE FUNDING (erroneously sued as GPM
HELOC); U.S. BANK NATIONAL
12 ASSOCIATION; and BANK OF AMERICA
CORPORATION (erroneously sued as Bank of
13 America)
11

14
SUPERIOR COURT OF THE STATE OF CALIFORNIA

15

COUNTY OF SANTA CLARA — SAN JOSE COURTHOUSE

16
17

FAREED SEPEHRY-FARD,
Plaintiff,

18

Case No.1 1 1CV2098CM
rZi/\
Hon, Patricia Laeas
Dept. 2
fSIiOmSEB^ORDER ON

vs.

19
Aurora Bank FSB
20 GPM Heloc
Bank of America
21 U.S. Bank National Association as trustee for
GreenPoint Mortgage Funding,
22

Defendants.

23

DEFENDANTS’ DEMURRER AND
MOTION TO STRIKE THE SECOND
AMENDED COMPLAINT
[Filed concurrently with [Proposed] Judgment
Sustaining Defendants' Demurrer To The
Second Amended Complaint Without Leave To
Amend]
Date:
Time:
Dept.:

24
25

October 16,2012
9:00 a.m.
2

Action Filed:

26

Trial Date:

September 23,2031

Not Set

27

28
nysi oiosojiisj’
Order on Defendants' demurrer and motion ro'strikethe Second Amended Complaint

49

ffl IS

sg l$

ccn

S'
Q

!=r

h

(A ?"
>3

C2
ft>
N

£3
09

•5<*

3
H
n
o
n
d

a«
I

s>
S5.
ri

S
55
-s

&
be
&
s

*r*

o

p5
&5
P5

l-t

o
<!
a>

J-i

S5

r-

*
00

Document received by the CA 6th District Court of Appeal.
9

us, no notice of default had been recorded against either of plaintiffs deeds of trust for
the Saratoga property.
D.

Denial of Leave to Amend
We review a trial court’s decision denying a plaintiff leave to amend a complaint

for abuse of discretion. (Debrunner, supra, 204 Cal.App.4th at p. 439.) We will reverse
the decision if there is a reasonable possibility plaintiff could cure the defects in the
complaint through amendment. {Ibid.) “The plaintiff has the burden of proving that
an amendment would cure the defect.” {Schifando v. City ofLos Angeles (2003)
31 Cal.4th 1074, 1081.)
Plaintiffs fraud by forgery cause of action is fatally defective because of his
repeated admission that he signed the original promissory notes and deeds of trust.
Because of that admission, there is no reasonable possibility plaintiff could amend his
complaint to state a cause of action for forgery, let alone fraud more generally. Plaintiff

O.
Oh
<
tH-l

cannot overcome the deficiency simply by removing the admission that he signed these
documents. {Reichert v. General Ins. Co. (1968) 68 Cal.2d 822, 836 [“ ‘Where a verified
complaint contains allegations destructive of a cause of action, the defect cannot be cured

O

So

U
o

£
CA

in subsequently filed pleadings by simply omitting such allegations without
explanation.’ ”].) Plaintiff s pooling and servicing agreement cause of action is similarly

Q
43

insusceptible to amendment because plaintiff has no standing to enforce that agreement.
<

As for plaintiffs attempt to preemptively attack defendants’ authority to foreclose, it

V

is settled that California courts will not allow preemptive attacks on nonjudicial

43

foreclosures based solely on generalized allegations. (See Debrunner, supra,

43
T3
<D
•>
<D
O
<L>

o>

204 Cal.App.4th at pp. 440-442.) Plaintiff has failed to set forth a specific factual
basis for his claim despite multiple opportunities to do so. We find no reasonable
possibility plaintiff could cure the defects, and therefore no abuse of discretion in

53
(D

denying him further leave to amend.
III.

s3
o

DISPOSITION

o
Q

The judgment is affirmed.

12
47

negotiable instrument, could not be assigned without a valid endorsement and physical
delivery because of the requirements of the California Uniform Commercial Code. {Id. at
p. 440.) We rejected that argument, concluding that the “detailed, specific, and
comprehensive set of legislative procedures the Legislature has established for
nonjudicial foreclosures” should not be displaced by general provisions of the California
Uniform Commercial Code. {Id. at p. 441.)
Debrunner quoted the federal district court which noted in Lane v. Vitek Real
Estate Industries Group (E.D.Cal. 2010) 713 F.Supp.2d 1092 {Lane), that since
foreclosure proceedings can be initiated by “ ‘a trustee, mortgagee, beneficiary, or any of
their agents[,] ... the statute does not require a beneficial interest in both the Note and the
Deed of Trust to commence a non-judicial foreclosure sale.’ ” {Debrunner, supra,

15

<L)

204 Cal.App.4th at p. 441, quoting Lane, at p. 1099.)

Oh
Oh

<

Jenkins, supra, 216 Cal.App.4th 497, reached the same result. There, the court

4-h

O

affirmed dismissal of a cause of action which asserted “a right to bring a preemptive

t:
o
o

judicial action to determine whether [the defendants] have the authority to initiate
nonjudicial foreclosure on [the plaintiffs] home ....” {Id. at pp. 512-513.) As in Gomes
and Debrunner, the Jenkins court noted the lack of an explicit cause of action in the Civil

u
o
S-H

C/3
• 1-*

Code and reasoned that implying a cause of action would be contrary to the intent of the
nonjudicial foreclosure statute because it would involve “the impermissible interjection
of the courts into a nonjudicial scheme enacted by the California Legislature.” {Jenkins,
atp. 513.)

Q
43
'O
<

U
a>
43

Like the complaints in the foregoing authorities, plaintiffs second amended
complaint provides no specific factual basis to call into question the ability of defendants
to initiate a nonjudicial foreclosure. Instead, plaintiff makes only generalized arguments,
unsupported by any relevant legal authority, that defendants must produce original copies
of the promissory notes, deeds of trust, and all assignments thereof before initiating a
nonjudicial foreclosure. Because we find no law requiring defendants to do so, plaintiffs
second amended complaint fails to state a cause of action. We also note that plaintiffs
allegations of misconduct by defendants are unripe because, based on the record before
11
46

42
T3
<D
>
<D
O
<D
J-H

G

a3

o
o

Q

b.

Analysis

Judicial actions challenging nonjudicial foreclosures are limited. Because of the
a '.

exhaustive nature of this scheme, California appellate courts have refused to read any

additional requirements into the non-judicial foreclosure statute.’ [Citations.]” (Gomes v.
Countrywide Home Loans, Inc. (2011) 192 Cal.App.4th 1149, 1154 (Gomes).) Thus,
trustor-debtors may only bring judicial actions alleging “misconduct arising out of a
nonjudicial foreclosure sale when [such a claim is] not inconsistent with the policies
behind the statutes.” (California Golf, L.L.C. v. Cooper (2008) 163 Cal.App.4th 1053,
1070.) Recognizing this limitation, “California courts have refused to delay the
nonjudicial foreclosure process by allowing trustor-debtors to pursue preemptive
judicial actions to challenge the right, power, and authority of a foreclosing ‘beneficiary’
or beneficiary’s ‘agent’ to initiate and pursue foreclosure.” (Jenkins, supra,

c3
<U

ft
ft
<
ft
O

216 Cal.App.4th at p. 511, citing Debrunner v. Deutsche Bank National Trust Co.
(2012) 204 Cal.App.4th 433, 440-442 (Debrunner)-, Gomes, at pp. 1154-1157.)
The court in Gomes affirmed dismissal of a preemptive judicial action challenging
the right to undertake a nonjudicial foreclosure. (Gomes, supra, 192 Cal.App.4th at

3
o
O
o
*-<

p. 1155.) There, the plaintiff brought a declaratory relief action claiming Civil Code

5

section 2924 allowed for a preemptive action “to test whether the person initiating the

si

foreclosure has the authority to do so.” (Gomes, at p. 1155.) The Gomes court first noted
that “nowhere does the statute provide for a judicial action to determine whether the

VO
<

V
CD

person initiating the foreclosure process is indeed authorized, and we see no ground for

si

implying such an action.” (Ibid.) The court also refused to imply such a cause of action,

x>

reasoning that to do so “would fundamentally undermine the nonjudicial nature of the

<D

•>

process and introduce the possibility of lawsuits filed solely for the purpose of delaying
valid foreclosures.” (Ibid.) Distinguishing federal foreclosure cases relied on by the

<D
O

<u

s
a>

plaintiff, the court noted that the plaintiffs in those cases had alleged “specific factual

£

p
o

bas[es]” supporting their preemptive challenges. (Id. at p. 1156, italics omitted.)
A different panel of this court reached a similar conclusion in Debrunner, supra,
204 Cal.App.4th 433. In that case, the plaintiff argued that the promissory note, as a
10
45

o
Q

also serving as a beneficiary to the agreement. {Jenkins, supra, 216 Cal.App.4th at
p. 508.)
Unlike a traditional trustee, who has numerous duties, the trustee for a deed of
trust has two mutually exclusive duties. If the trustor-debtor repays the entire amount of
the loan, the trustee transfers legal title to the trustor-debtor. If the trustor-debtor
defaults, the trustee must initiate a foreclosure for the benefit of the beneficiary-creditor.
Because of these characteristics, deeds of trust have been described as the “functional
equivalent of ‘a lien on the property.’ [Citation.]” {Jenkins, supra, 216 Cal.App.4th at
p. 508.)
u i

Sections 2924 through 2924k [of the Civil Code] set forth a ‘comprehensive

framework for the regulation of a nonjudicial foreclosure sale pursuant to a power of sale
contained in a deed of trust.

5

59

a

<D
Q<

{Jenkins, supra, 216 Cal.App.4th atp. 508, quoting

a.

<

Moeller v. Lien (1994) 25 Cal.App.4th 822, 830, italics omitted.) If the trustor-debtor

iw

fails to make all required payments, the trustee, beneficiary, “or any of their authorized

O

ti
3

agents” must first record a notice of default and election to sell with the office of the

O

recorder in the county where the property is located. (Civ. Code, § 2924, subd. (a)(1).)

U
o

• i-H

After allowing the statutorily mandated three months to elapse, “a notice of sale must be

£

C/5

Q

published, posted, recorded and mailed 20 days before the foreclosure sale.” {Jenkins,

43

supra, at p. 509, citing Civ. Code, §§ 2924, subd. (a)(3), 2924f.) Finally, if all notice
<

requirements are met, the foreclosed property must be sold to the highest bidder at a

o

public auction in the county where the property is located. (Civ. Code, § 2924g,

xi

subd. (a).)

x>

<D

T3

a>

The trustor-debtor can prevent a foreclosure sale by exercising the rights of

>
o>
o

reinstatement or redemption. To exercise the right to reinstatement, the trustor-debtor

iD

must pay all past due amounts on the promissory note at any time until five business days
before the foreclosure sale. (Civ. Code, § 2924c, subd. (e).) Alternatively, the trustor-

S-H

$3

D

B3

o

debtor can cure the default and exercise the right of redemption by paying the total

o
Q

outstanding debt at any time before the sale. (Civ. Code, §§ 2903, 2905.)

9
44

agreement, she would have no cause of action because “her obligations under the note
remained unchanged.” {Ibid.)
Like the homeowner in Jenkins, plaintiff lacks standing to challenge compliance
with the pooling and servicing agreement because he is not a party to that agreement and
his obligations remain the same regardless of the holder of the note. Plaintiff can show
no injury based on the transfer of his promissory notes to other creditors. “ ‘Because a
promissory note is a negotiable instrument, a borrower must anticipate it can and might
be transferred to another creditor. As to plaintiff, an assignment merely substituted one
creditor for another, without changing [plaintiffs] obligations under the note.

? ??

{Jenkins, supra, 216 Cal.App.4th at p. 515, quoting Herrera v. Federal National
Mortgage Assn. (2012) 205 Cal.App.4th 1495, 1507.) In addition to imputed knowledge
<D

that a transfer might occur, here plaintiff had actual notice of the possibility that his
creditor might change because both deeds of trust explicitly state the notes “can be sold

Cl
<
O

one or more times without prior notice to [plaintiff].” Plaintiff cannot state a cause of

o
V

action related to the pooling and servicing agreement.
4. Preemptive Attack on Authority to Foreclose

o

The final legal theory arguably raised in plaintiffs second amended complaint is

S-,
(Z1

Q

that defendants do not have authority to foreclose on plaintiffs Saratoga property.

43

Plaintiffs legal theory essentially boils down to the argument that defendants cannot

LO

carry out a nonjudicial foreclosure without providing plaintiff: (1) proof that the chain of

U
<u

title to the property has not been broken; and (2) evidence of every transfer of any interest

<

in the deeds of trust and promissory notes. Before reaching plaintiffs contentions, we
T3
<D

briefly discuss the nonjudicial foreclosure statutory scheme,

.>
<D
O

a. Nonjudicial foreclosure
A deed of trust securing a home loan promissory note establishes a three party

c

agreement. The trustor-debtor is the homeowner who has possession of the property and
makes periodic payments to the lending institution. The lending institution is referred to
as the beneficiary-creditor and provides the loan that is secured by the deed of trust. The
third party is referred to as the trustee and acts as agent for the beneficiary-creditor while
8
43

<D

a3
o

o
Q

corporation, to whom they spoke, what they said or wrote, and when the representation
was made.” (Id. at p. 793.)
An example of a complaint alleging sufficient facts to support a fraud cause of
action in the foreclosure context comes from West, supra, 214 Cal.App.4th 780. There,
the plaintiff pointed to specific misrepresentations in agreements and letters between her
and the defendant, and attached copies of those documents to her complaint. (West, at p.
793.) She also described misrepresentations made by representatives of the defendant
during phone calls on specific dates. (Id. at pp. 793-794.) From those facts, the
reviewing court concluded the plaintiff sufficiently stated a claim for fraud. (Ibid.)
Unlike in West, plaintiff provides no specific facts supporting a cause of action for
fraud. Instead, the second amended complaint contains only conclusory allegations that
his signatures on the deeds were forged and characterizations of various actions taken by

CX
CX

c

defendants as fraudulent. These conclusory allegations, without more, do not provide

O

facts sufficient to constitute a fraud cause of action, particularly given the heightened

t;
p
o
U

pleading requirements applicable to such claims. (B & P Development, supra,
185 Cal.App.3d at p. 953.)

o

3. Pooling and Servicing Agreement
The second amended complaint alleges defendants pooled plaintiffs promissory

Q

notes with those of other homeowners without adhering to the requirements of
<

defendants’ pooling and servicing agreement. An identical argument was rejected for
lack of standing in Jenkins v. JP Morgan Chase Bank, N.A. (2013) 216 Cal.App.4th 497

V
a>
G3

(Jenkins).
T3

a>

In Jenkins, the court first noted that any violations of the pooling and servicing

>

agreement would affect only the holders of the promissory note on the one hand and the
third-party acquirers of the note on the other. (Jenkins, supra, 216 Cal.App.4th at

o

a>
u*
G

p. 515.) Because the plaintiff-homeowner was not a party to the pooling agreements or
any promissory note transfers, the court found she lacked standing to challenge

<D

s
p
O

o
Q

compliance with the agreements. (Ibid.) The court also explained that even if the
plaintiff-homeowner had standing and could show violations of the pooling and servicing
7

42

■

plaintiffs signature on the deeds of trust. Plaintiffs argument fails as a matter of law
because he has admitted multiple times that he signed the deeds in question.
To prove forgery, plaintiff must provide evidence of a “ ‘ “writing which falsely
purports to be the writing of another,” ’... executed with the intent to defraud.”
(Schiavon v. Arnaudo Brothers (2000) 84 Cal.App.4th 374, 382.) The second amended
complaint states: “Plaintiff Asserts And Confirms That... [TO Plaintiff created the
security instrument by signing on the ‘questionable copy of the security’ that Plaintiff
rebuts is his signature based on the copy of the note that has been included as evidence
into this case by the alleged attorneys.” This specific allegation that he signed the
security instrument controls over the more general forgery claims in his complaint.
(B & P Development, supra, 185 Cal.App.3d at p. 953.) Additionally, in plaintiff s

03

Affidavit of Revocation (filed below in support of his opposition to the demurrer to his
first amended complaint), he specifically admits signing documents including a deed of

<u

a,
a.

<

<4-4

o
t2
3
o
U

trust in January 2007. The signing date for both promissory notes and deeds of trust
relevant to this appeal is listed as January 10, 2007 on the recorded deeds. Based on
these admissions, as well as plaintiffs failure to provide facts supporting any allegation

o
i-4

of an intent to defraud, the second amended complaint fails to state facts sufficient to

• <z>

Q

constitute a cause of action for forgery.

x

To the extent plaintiff makes a more general fraud argument, the second amended

vo

<

O

complaint still fails to state a cause of action. To prove fraud, plaintiff must show:
(1) the defendant made a false representation as to a past or existing material fact; (2) the

a>
X

defendant knew the representation was false at the time it was made; (3) in making the

X
T3

representation, the defendant intended to deceive the plaintiff; (4) the plaintiff justifiably

CD

relied on the representation; and (5) the plaintiff suffered resulting damages. (West v.

<D
O
CD

JPMorgan Chase Bank, N.A. (2013) 214 Cal.App.4th 780, 792 (West).) Fraud causes of
action are also held to a higher pleading standard. “[Pjlaintiff must allege facts showing

>
5-4

c
CD

s3

O

how, when, where, to whom, and by what means the [fraudulent] representations were
made, and, in the case of a corporate defendant, the plaintiff must allege the names of the
persons who made the representations, their authority to speak on behalf of the
6

41

o
Q

determination by resort to county recorder records, we find no error in granting judicial
notice regarding the existence and recordation of the deeds of trust. (Evid. Code, § 452,
subds. (c), (h).) We also find the deed provisions that specify parties to the agreement are
a proper subject of judicial notice. (Fontenot, supra, 198 Cal.App.4th at pp. 266-267.)
To the extent plaintiff argues the deeds were not judicially noticeable for these purposes,
we reject that contention.
C.

Demurrer
1. Standard of Review
Defendants demurred to the second amended complaint on the ground that “[t]he

pleading does not state facts sufficient to constitute a cause of action.” (Code Civ. Proc.,
§ 430.10, subd. (e).) We review de novo a judgment of dismissal based on a sustained
demurrer. (Doanv. State Farm General Ins. Co. (2011) 195 Cal.App.4th 1082, 1091.)
We will reverse the judgment of dismissal if the allegations of the complaint state a cause
of action “under any legal theory.” (Ibid.) We assume the truth of all facts alleged in the
complaint unless those facts are contradicted by judicially noticeable materials. (Stoney
Creek Orchards v. State of California (1970) 12 Cal.App.3d 903, 906; SC Manufactured

a
<o
<
O

t:
g
o
O
o
S-l

Homes, Inc. v. Liebert (2008) 162 Cal.App.4th 68, 82.) Facts not alleged in the

• CO
^

Q
x

complaint are presumed not to exist. (Melikian, supra, 133 Cal.App.2d at p. 115.)
Moreover, we cannot consider conclusory factual or legal allegations contained in the

<

complaint. (B & P Development Corp. v. City ofSaratoga (1986) 185 Cal.App.3d 949,

V

953 (B & P Development).) Finally, litigants may allege inconsistent theories but not

X

inconsistent facts (Gentry v. eBay, Inc. (2002) 99 Cal.App.4th 816, 827-828) and

X

<D

“[sjpecific factual allegations modify and limit inconsistent general statements.” (B & P
Development, atp. 953.)

T3
<L>
>
<U

o
u
(-<
G

2. Fraud by Forgery
The second amended complaint questions “the authenticity of the signatures on the
forged copy” of one or both deed of trust. Because plaintiffs signature is the only

<D

aG

o
o

Q

signature on the deeds of trust, we interpret this as a claim that defendants forged

5

40

“must follow correct rules of procedure”]; First American Title Co. v. Mirzaian (2003)
108 Cal.App.4th 956, 958, fii. 1 [“A party proceeding in propria persona ‘is to be treated
like any other party and is entitled to the same, but no greater consideration than other
litigants and attorneys.’ ”].)
B.

Judicial Notice of Deeds of Trust
Plaintiff argues the trial court erred in taking judicial notice of the two deeds of

trust for plaintiffs Saratoga property. We review the trial court’s ruling on the request
for judicial notice for abuse of discretion. {Fontenot v. Wells Fargo Bank, N. A. (2011)
198 Cal.App.4th 256, 264 {Fontenot).)
Among other things, courts may take judicial notice of “ ‘[ojfficial acts ... of any
state of the United States’ ” and “ ‘[f]acts and propositions that are not reasonably subject
to dispute and are capable of immediate and accurate determination by resort to sources

a
<u
Oh
Oh

<

of reasonably indisputable accuracy.’ ” {Fontenot, supra, 198 Cal.App.4th atp. 264,
quoting Evid. Code, § 452, subds. (c), (h).) A court may take judicial notice of recorded
real property records, “including deeds of trust, when the authenticity of the documents is
not challenged.” {Fontenot, at p. 264.) “The official act of recordation and the common
use of a notary public in the execution of such documents assure their reliability, and the

o
t:
o o
U
o
cn

maintenance of the documents in the recorder’s office makes their existence and text

Q
xi

capable of ready confirmation, thereby placing such documents beyond reasonable

o

dispute.” {Id. at pp. 264-265.)

O

<

In addition to taking judicial notice of the existence of these records, courts may ,

<D
4=1

take judicial notice of “a variety of matters that can be deduced from the documents.”

hO

{Fontenot, supra, 198 Cal.App.4th at p. 265.) In Fontenot, that court concluded terms of

T3
<L>
>

a recorded deed of trust specifying beneficiaries were judicially noticeable because the
identities of the parties to the deed were facts arising from the legal effect of the recorded

a>
o

<D
s-

O

d>

documents “rather than any statements of fact within them.” {Id. at p. 266-267.)

So
o

Both the trial court’s order granting judicial notice of the deeds of trust and
plaintiffs attacks on that order are vague regarding the purpose for which judicial notice
was granted. As official acts not reasonably subject to dispute and capable of accurate
4

39

o
Q

subject matter jurisdiction, “[t]he California Constitution confers broad subject matter
jurisdiction on the superior court. (Cal. Const., art. VI, § 10.)” (Serrano v. Stefan Merli
Plastering Co., Inc. (2008) 162 Cal.App.4th 1014, 1029.) While there are some
limitations on the subject matter jurisdiction of the superior court (e.g., matters of
exclusive federal jurisdiction), those limitations do not apply to any causes of action in
the second amended complaint.
A.

Waiver
Defendants contend plaintiff waived all arguments on appeal because his briefing

provides citations and quotations from legal authorities without explaining their relevance
or applying them to the allegations contained in the second amended complaint. While
plaintiffs pleadings and briefing are hard to understand, we will address the legal
<D
CU

theories touched upon by the second amended complaint because a demurrer must be

<

overruled if “the pleaded facts state a cause of action on any available legal theory.”

4-i

(Saunders v. Cariss (1990) 224 Cal.App.3d 905, 908.) Reviewing the second amended
complaint, we find the following legal theories raised: (1) fraud arising out of an alleged
forgery of plaintiff s signature; (2) violations of defendants’ pooling and servicing

O

t:
p
o
U
o
H

agreement; and (3) a preemptive attack on defendants’ authority to foreclose.
Because they were neither raised by the second amended complaint nor supported

Q

by reasoned argument and citation to relevant legal authorities in plaintiffs appeal, we

VO
<

deem waived and will not address plaintiffs arguments regarding declaratory relief,

O

action for accounting, unfair business practices, quiet title, Penal Code violations,

rP

a>

challenges to the order granting defendants’ motion to strike improperly-joined
T3
<D
>

defendants, and rescission based on 15 U.S.C. § 1635 and Jesinoski v. Countrywide

a>

Home Loans, Inc. (January 13, 2015) 574 U.S._, 135 S.Ct. 790. (Tichinin v. City of

o

D

Morgan Hill (2009) 111 Cal.App.4th 1049, 1084, fn. 16 [waiving argument for failure to
provide reasoned argument and citation to relevant legal authority]; Melikian v. Truck

a
<L>

Bp

o

Ins. Exchange (1955) 133 Cal.App.2d 113, 115 (.Melikian) [allegations not included in

o

complaint presumed not to exist]; see also Nwosu v. Uba (2004) 122 Cal.App.4th 1229,

Q

1247 [litigants appearing in propria persona treated the same as all litigants and
3

38

plaintiffs name above plaintiffs name in typeface. Both deeds were recorded by the
Santa Clara County Recorder in January 2007.
In 2009, plaintiff entered into an interest rate loan modification with GMAC
Mortgage, LLC, for the $1.3 million promissory note. Again, there is a signature in
plaintiff s name above plaintiff s name in typeface. This modification was recorded in
May 2011.
Plaintiff filed his first complaint in September 2011. Defendants demurred,
arguing the complaint did not contain sufficient facts to state a claim for relief. The trial
court sustained the demurrer with leave to amend. Defendants demurred to plaintiffs
first amended complaint on the same ground. As an exhibit to his opposition to the
demurrer to his first amended complaint, plaintiff filed an “Affidavit of Revocation of

03
<D

Signature for Good Cause” (Affidavit of Revocation) that was signed by plaintiff and

(X

notarized. In it plaintiff states he “affixed His signature to documents, specifically a

C

mortgage / deed of trust, on or about January 11, 2007 ....” (Underscoring omitted.) The

ts

Affidavit of Revocation also attempts to “revokef] all signatures for good cause, and

o
U

O
3

‘Without Recourse to Me’ ....” The trial court sustained the demurrer to the first

•H

£
KM

amended complaint with leave to amend.
Plaintiff filed his second amended complaint in July 2012. Defendants demurred

s

43

vo

for a third time and also moved to strike references to Frank H. Kim and Severson &

<

Werson, APC as defendants, arguing they were not properly joined. The trial court

o

sustained defendants’ demurrer to plaintiffs second amended complaint without leave to

<D
43

amend and granted defendants’ motion to strike. After unsuccessfully moving to vacate
the judgment, plaintiff appealed to this court.
ii.

DISCUSSION

43
T3
<D
>
• w-(
<L>

o

<D
Sh

We begin by addressing plaintiffs argument that the trial court lacked personal

53
(D

and subject matter jurisdiction. By voluntarily filing a complaint and appearing at

S3

o

hearings in the trial court, plaintiff consented to the trial court’s personal jurisdiction.

o

Q

(See Rest.2d Conf. of Laws, § 32 [“A state has power to exercise judicial jurisdiction
over an individual who has consented to the exercise of such jurisdiction.”].) As for
2

37

Filed 2/16/16 Sepehry-Fard v. Aurora Bank CA6

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
or ordered published for purposes of rule 8.1115._____________________________________________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SIXTH APPELLATE DISTRICT
FAREED SEPEHRY-FARD,

H039052
(Santa Clara County
Super. Ct. No. 11 l-CV-209804)

Plaintiff and Appellant,
v.

AURORA BANK, FSB et al,

od

<u

Cu
CL,

Defendants and Respondents.

<

The trial court sustained the demurrer of defendants Aurora Bank, FSB, et al.

o
t:
3
o

(collectively, defendants) to plaintiff Fareed Sepehry-Fard’s second amended complaint
without leave to amend. On appeal, plaintiff argues: (1) the trial court erred by granting
defendants’ request for judicial notice of certain deeds of trust; (2) defendants’ demurrer
was sustained in error; and (3) plaintiff should have been given the opportunity to further

•o

£

Q
X

vo
<

amend his complaint. For the reasons stated here, we will affirm the judgment.
I.

O

U
<D

TRIAL COURT PROCEEDINGS

X

Though plaintiffs second amended complaint is difficult to understand, we have

X

discerned the following facts. Plaintiff refinanced his Saratoga home in 2007 with two

<D

adjustable interest rate promissory notes, one for $1.3 million and a second for $300,000.

<D
O

Each note was secured by a separate deed of trust. On both deeds, the lender is listed as
GreenPoint Mortgage Funding, Inc., the trustee is listed as Marin Conveyancing Corp.,

>

a>
5h
C5

<u

S3
o

and the beneficiary is listed as Mortgage Electronic Registration Systems, Inc. Both

o

deeds state that the notes they secure “can be sold one or more times without prior notice
to [plaintiff].” On the signature line for each deed of trust, there is a signature in

36

Q

Experian - Access your credit report

Page 6 of 6

fruitless:
P^^felSns'^feHRY-FARteotitBaport number 2/Z2-S72B~-M' | JuIy 21, 2oi7 I t^rint report I Lojiot t
t.s. Banks. savings associations, andcrtcrt untops wifb total assets of over a. Bureau of Consumer Financial Protection
HO billion and their affiliates.
I
700 G Street NW
>. Scch affiliates lhat arenot banks, pavings ^&.xtetionsJof cred'/.ni <ops
Wtehbtfu... 00 :20$ 2
ttsr, »ji<)uld ffsl n addititn to the Bureau:
i. Pedei si Trjde Co? imisslor; Co tsumer Respond

-*0

denier * FCftA Washfriglsm DC 20580 {Bt7j 382-4357

r'riftKB'fextent not inaattea'tH item I abotelillllall>
PfiWftS! bands, fe3&!Stl5£fit%s

MUCUUIIli |[\

UiSUmif^JUIfelj

1' uiipuie Can

messages
i. Office of the Comp roller of the Currenc r
Customer Assistance Group
1301 McKinney Street, Suite 3450
3. State member banks, branches and agencies of foreign banks (other than Houston, TX 77010-9050
'ederal branches, federal agencies, and insured state branches of foreign
janks), commercial
3. Federal Reserve Consumer Help Center
ending companies owned or controlled by foreign banks, and organizations 30 Box 1200
operating under section 25 or 25A of the Federal Reserve Act
Minneapolis, MN 55480
ederal agencies of foreign banks

tfgA&tMas

(0)

T^CTITSf^TT
Free Accoi nt

I

Nonmember Insured banks, Insured State Branches of Foreign Banks, and,
nsured state savings associations
1 Federal Credit Unions
c. FDIC Consumer Response Center
1100 Walnut Street. Box #11
Kansas City, MO 64106

3. Air Carriers

i. Creditors Subject to Surface Transportation Board

5. Creditors Subject to Packers and Stockyards Act
>. Small Business investment Companies

7. Brokers and Dealers
3. Federal Land Banks, Federal Land Bank Associations,
rederal Intermediate Credit Banks, and Production Credit
Associations
). Retailers, Finance Companies, and All Other Creditors
Hot Listed Above

d. National Credit Union Administration
Office of Consumer Protection (OCP)
Division of Consumer Compliance and Outreach (DCCO)
1775 Duke Street
Alexandria, VA 22314
Asst. General Counsel for Aviation Enforcement & Proceedings
Aviation Consumer Protection Division
Department of Transportation
1200 New Jersey Avenue SE
Washington, DC 20590
Dffice of Proceedings, Surface Transportation Board
Department of Transportation
395 E Street, SW
Washington, DC 20423
nearest Packers and Stockyards Administration area
supervisor
Associate Deputy Administrator for Capital Access
Jnited States Small Business Administration
109 Third Street, SW, 8th Floor
Washington, DC 20416
Securities and Exchange Commission
lOOFStNE
Washington, DC 20549
rarm Credit Administration
1501 Farm Credit Drive
McLean. VA 22102-5090
H'C Regional Office for region in which the creditor operates or Federal
Trade Commission: Consumer Response C enter-. FCRA

Notification of Rights
Notification of Rights for Alabama Consumers
Notification of Rights for Alaska Consumers
Notification of Rights for Arkansas Consumers
Notification of Rights for California Consumers
California Notice of Your Rights to Reouest and Obtain Your Credit Score
Notification of Rights for Colorado Consumers
Notification of Rights for Connecticut Consumers
Notification of Rights for Delaware Consumers
Notification of Rights for District of Columbia Consumers
Notification of Rights for Florida Consumers
Notification of Riohts for Georgia Consumers
Notification of Riohts for Indiana Consumers
Notification of Rights for Maryland Consumers
Notification of Rights for Massachusetts Consumers
Notification of Rights for Missouri Consumers
Notification of Rights for Montana Consumers
Notification of Rights for Nevada Consumers
Notification of Rights for New Hampshire Consumers
Notification of Rights for New Jersey Consumers
Notification of Rights for New Mexico Consumers
Notification of Rights for New York Consumers
Notification of Rights for North Carolina Consumers
Notification of Riohts for North Dakota Consumers
Notification of Rights for Ohio Consumers
Notification of Riohts for Oklahoma Consumers
Notification of Rights for Puerto Rico Consumers
Notification of Riohts for Rhode Island Consumers
Notification of Riohts for Tennessee Consumers
Notification of Riohts for Texas Consumers
Notification of Rights for Vermont Consumers
Notification of Riohts for Virginia Consumers
Notification of Riohts for Washington Consumers
Notification of Rights for West Virginia Consumers
Notification of Riohts for Wisconsin Consumers

Q Experian 2017. All rights reserved.
Experian and the marks used herein are service marks or registered trademarks of Experian.
Other product and company names mentioned herein may be the trademarks of their respective owners.
View ExParian's Privacy Policy

(

35
https ://www.experian.com/ncaconline/dispute?intcmp=ncac_shortcut_viewreport

7/21/2017

Experian - Access your credit report

Q

Page 5 of 6

RISE
FAREED SEPEHRY-FAR^^^^rt number 2722-6720-78 | July 21,2017 | Print report | Logott
Aciountname

DID NOT
© Ri:
Personal
Potentially
Personal
AUTHORIZE
information Ac|ounf®Haents
negative items
THESE WITH
©
CREDCO/CAPITAL ONi NA
CREDCO/CAPIITAL ONE NA
Account name
DID NOT
O CREDCO/CAPITAL ONE NA
AUTHORIZE
THESE WITH
^ Account name
CREDCO/CAPI I'A^Oftl'M

t •ate of remiestts}
0/30/20'5
Accounts in
good standing

Credit inquiries
[ ate of request(6)

Important
messages

Dispute Cart
(0)

Activate Your

09/29/2015
07/07/2015
Date of requests)

| ♦ Options |

07/07/2015
Date of requests)

| + Options |

11/10/2014
back to top
Important messages

Experian collects and organizes information about you and your credit history from public records, your creditors and other reliable sources. By law, we
cannot disclose certain medical information (relating to physical, mental, or behavioral health or condition). Although we do not generally collect such
information, it could appear in the name of a data furnisher (i.e., "Cancer Center") that reports your payment history to us. If so, those names display on
your report, but on reports to others they display only as "MEDICAL PAYMENT DATA." Consumer statements included on your report at your request that
contain medical information are disclosed to others.

back to top
Know your rights
Para informacion en espanol, visite www.consumerfinance.gov/leammore o escribe a la Consumer Financial Protection Bureau, 1700 G Street
N.W., Washington, D.C. 20552.
A Summary of Your Rights under the Fair Credit Reporting Act
The federal Fair Credit Reporting Act (FCRA) promotes the accuracy, fairness, and privacy of information in the files of consumer reporting agencies. There
are many types of consumer reporting agencies, including credit bureaus and specialty agencies (such as agencies that sell information about check writing
histories, medical records, and rental history records). Here is a summary of your major rights under the FCRA. For more information, including
information about additional rights, go to www.consumerfinance.gov/leammore or write to: Consumer Financial Protection Bureau, 1700 G Street
N.W., Washington, D.C. 20552.
You must be tofd if information in your file has been used against you. Anyone who uses a credit report or another type of consumer report to deny
your application for credit, insurance, or employment or to take another adverse action against you must tell you, and must give you the name, address, and
phone number of the agency that provided the information.
You have the right to know what is in your file. You may request and obtain all the information about you in the files of a consumer reporting agency
(your Tile disclosure"). You will be required to provide proper identification, which may include your Social Security number. In many cases, the disclosure
will be free. You are entitled to a free file disclosure if:
a person has taken adverse action against you because of information in your credit report;
you are the victim of identify theft and place a fraud alert in your file;
your file contains inaccurate information as a result of fraud;
you are on public assistance;
you are unemployed but expect to apply for employment within 60 days.
All consumers are entitled to one free disclosure every 12 months upon request from each nationwide credit bureau and from nationwide specialty consumer
reporting agencies. See www.c6nsumerfinance.gov/leammore for additional information.
You have the right to ask for a credit score. Credit scores are numerical summaries of your credit-worthiness based on information from credit bureaus.
You may request a credit score from consumer reporting agencies that create scores or distribute scores used in residential real property loans, but you will
have to pay for it. In some mortgage transactions, you will receive credit score information for free from the mortgage lender.
You have the right to dispute incomplete or inaccurate information. If you identify information in your file that is incomplete or inaccurate, and report it
to the consumer reporting agency, the agency must investigate unless your dispute is frivolous. See www.consumerfinance.gov/Ieammore for an
explanation of dispute procedures.
Consumer reporting agencies must correct or delete inaccurate, incomplete, or unverifiable information. Inaccurate, incomplete or unverifiabie
information must be removed or corrected, usually within 30 days. However, a consumer reporting agency may continue to report information it has verified
as accurate.
Consumer reporting agencies may not report outdated negative information. In most cases, a consumer reporting agency may not report negative
information that is more than seven years old, or bankruptcies that are more than 10 years old.
Access to your file is limited. A consumer reporting agency may provide information about you only to people with a valid need - usually to consider an
application with a creditor, insurer, employer, landlord, or other business.
The FCRA specifies those with a valid need for access.
You must give your consent for reports to be provided to employers. A consumer reporting agency may not give out information about you to your
employer, or a potential employer, without your written consent given to the employer. Written consent generally is not required in the trucking industry. For
more information, go to www.consumerfinance.Qov/leammore.
You may limit "prescreened" offers of credit and insurance you get based on information in your credit report. Unsolicited "prescreened" offers for
credit and insurance must include a toll-free phone number you can call if you choose to remove your name and address from the lists these offers are
based on. You may opt-out with the nationwide credit bureaus at 1 888 50PTOUT (1 888 567 8688).
You may seek damages from violators. If a consumer reporting agency, or, in some cases, a user of consumer reports or a furnisher of information to a
consumer reporting agency violates the FCRA, you may be able to sue in state or federal court.
Identity theft victims and active duty military personnel have additional rights. For more information, visit www.consumerfinance.Qov/leammore.
States may enforce the FCRA, and many states have their own consumer reporting laws. In some cases, you may have more rights under state
law. For more information, contact your state or local consumer protection agency or your state Attorney General. For more information about
your federal rights, contact:

34
https://www.experian.com/ncaconline/dispute?intcmp=ncac_shortcut_viewreport

7/21/2017

Experian - Access your credit report

Page 4 of 6

CONSUMERINFO.COM INC
FAREED SEPEHRY-FAR§^§^j^rt number2722-6720-78 | July 21, 2017 | Printreport | Logoi t
12/21/2016

a
Personal
information
O

O
DID NOT
AUTHORIZE
®
THESE WITH ECS,
NATIONSTAR
O
IDENTITY THEET
O

Ac iduni narm.'

Date of r.«.cgsl(G)

JP.M CHASE
Personal
statements
Account name
JPM CHASE

Potentially
negative items

Accounts in
good standing

(S/07/201;
Credit inquiries

Date of requests)

Account name
CREDCO/NATIONSTAR MORTGA

Date of requests)

Account name
EXPERIAN

Dispute Cart
(0)

Activate Your
int
+ Options

06/07/2017

Account name
STAR ONE CREDIT UNION

Account name
S F POLICE CREDIT UNION

Important
messages

I iate of requests)

+ Options

05/20/2017
+ Options

04/20/2017

Date of requests)

+ Options

04/19/2017

Date of requests)

+ Options

04/06/2017
03/31/2017
04/29/2013

O
DID NOT
AUTHORIZE
THESE WITE

O

O
O

Account name
AUTONATION INC

Account name
ECS/CREDIT BASICS

Account name
STAR ONE CREDIT UNION

Date of requests)

Account name
CONSUMERINFO.COM INC

DID NOT
Account name
AUTHORIZE
O CREDIT ONE BANK
THESE WITH
CREDIT ONE BA|nK
Account name
DID NOT
O CONSUMER PORTFOLIO SVCS
AUTHORIZE
name
THESE WITH
Q Account
CHASE CARD
CONSUMER POI :TFO LIO SVCS
Account name
DID NOT
AUTHORIZE
® SERVICE & PROF
THESE WITH
Account name
SERVICE AND P loP CONSUMER CREDIT COUNSELI
O

Date of requests)

4 Options

03/26/2017
Date of requests)

Account name
CREDCO/CHEVY CHASE BANK,

+ Options

03/30/2017

Account name
AMERICAN EXPRESS 2

DID NOT
Account name
O MIDWEST EQUITY MORTGAGE
AUTHORIZE
THESE WITH MIDWEST
Account name
O CIC/EXPERIAN IDENTITY CK
O

Date of requests)

+ Options

11/18/2016
+ Options

10/31/2016
Date of requests)

+ Options

09/02/2016
Date of requests)

+ Options

06/16/2016
Date of requests)

+ Options

06/11/2016
Date of requests)

+ Options

06/11/2016
Date of requests)

03/30/2016
02/01/2016
09/23/2015
08/13/2015

+ Options

07/06/2015

Date of requests)

+ Options

03/25/2016
Date of requests)

4 Options

03/01/2016
Date of requests)

+ Options

03/01/2016
Date of requests)

* Options

02/29/2016

Account name
CAPITAL ONE

Date of requests)

Account name

Date of requests)

+ Options

01/17/2016
4 Options

33
https ://www.experian.com/ncaconline/dispute?intcrnp=ncac_shortcut_viewreport

7/21/2017

Experian - Access your credit report

Page 3 of 6

$0 /paid as of
FAREED SEPEHRY-F03RB/2pQ9eport number 2722-6720-78 1 July 21,2017 | Print report } Logoit
------------ A-c-count-name-------

P

Personal
info
Won Ac< oun^
BAIJKO!

0

!foA
frsonal

Potentia
negative i

es
i /p rid as of
02/2f/2009

s °p$i

Da
05, 1999

■StSxilS----- ;------------

;iosed/Never late.
riant
ages

Jo
lur
mt

: ;tatussp^ Cart
(Josed/Never late.

Account name
BKOFAMER

Account number
11426....

Recent balance
Not reported

Date opened
09/2005

Status
Paid, Closed/Never
late.

I ♦ Dispute |

Account name
THD/CBNA

Account number
603532016133....

Recent balance
Not reported

Date opened
06/2004

Status
Paid, Closed/Never
late.

|♦ Dispute]

Account name
CHASE CARD

Account number
412138310282....

Recent balance
$1,363 as of
04/07/2017

Date opened
02/1998

Status
Closed/Never late.

| ♦ Dispute]

Account name
CHASE CARD

Account number
414720226379....

Recent balance
$460 as of
06/26/2017

Date opened
08/2014

Status
Open/Never late.

| ♦ Dispute [

Account name
CHASE CARD

Account number
426684136361....

Recent balance
$0 /paid as of
07/09/2017

Date opened
06/1999

Status
Open/Never late.

\♦ Dispute)

Account name
CHASE CARD

Account number
426688008622....

Recent balance
Not reported

Date opened
01/2001

Status
Paid, Closed/Never
late.

| ♦ Dispute |

Account name
CITI CARDS/CITIBANK

Account number
546616023471...

Recent balance
Date opened
$92 as of 07/06/2017 10/2010

Status
Open/Never late.

I + Dispute |

Account name
GMAC MORTGAGE

Account number
35948....

Recent balance
Not reported

Date opened
01/2007

Status
Transferred,closed/N
ever late.

| ♦ Dispute |

©

Account name
GREENPOINT
MORTGAGE/CAPITAL ONE

Account number
480009132....

Recent balance
Not reported

Date opened
01/2007

Status
Transferred,closed/N
ever late.

|♦ Dispute |

O

Account name
MERCEDES-BENZ FINANCIAL
SERVICES

Account number
700218....

Recent balance
Not reported

Date opened
03/2007

Status
Paid, Closed/Never
late.

| ♦ Dispute |

O
O
O
O
O
©
©
IDENITY THEF'
NO ACCOUNT
WITH GMAC,
GREEPOINT

■^A-ecoufst-number------ Recent-fcatsrics------- Dapa-c period488893(329693. .
SO fckid as of
07, 2000
02/21/2009

BA! JK'OF A»'FRfCA

©

back to top

Credit inquiries
We make your credit history available to your current and prospective creditors and employers as allowed by law. Personal data about you may be made
available to companies whose products and services may interest you. As required by the Fair Credit Reporting Act, we display these requests for your
credit history as a record of fact.
Inquiries shared with others 0

O

Account name
AUTOBAHN INC

Date of request
09/23/2015

[♦Options]

inquiries shared only with you @

O
©
©
DID NOT
©
AUTHORIZE
THESE WITH ElCS©

Account name
CIC EXPERIAN CONSUMER SE

Account name
CIC EXPERIAN CREDITWORKS

Account name
CIC/EXPERIAN CONSUMER SE

Date of requests)

| ♦Options)

07/21/2017
03/26/2017
Date of requests)

[♦Options]

07/21/2017
Date of requests)

| ♦ Options]

07/21/2017

Account name
ECS

Date of requests)

Account name
ECS/RIGHT OFFER MARKETPL

Date of request(s)

Account name

Date of requests)

[♦ Options]

07/21/2017
| ♦ Options |

07/21/2017
03/26/2017
| ♦ Options j

32
https ://www.experian.com/ncaconline/dispute?intcmp=ncac_shortcut_viewreport

7/21/2017

Experian - Access your credit report

Page 2 of 6

mw SARA SARATOGA CA 95070^^

(

TZv OSTSARAT OGA'AVt SARATOGA CA »o 170" u2&4i)»47i>o
Otherp arsenal
Personal

S >cial Sscurityinumt er vafialSon&ty
i
statements
negative items
y XX (-XX-5296

INCORREC1 SSN:

201? , Prin, rJ^R^n, ,
Slhgle family

0-00-0- ~40tT

|+ Di^utej

fnation associated Mth yo ir credit

Accounts in
good standing

Credit inquiries

important
messages

Dispute Cart
(0)

Activate Your
Frpft Account

I + Dispute

Year of birth

CORRECT SSN IS
543-94-5297

1960

| ♦ Dispute"]

Spouse or co-applicant
FIROZEH

| ♦ Dispute [

Telephone numbers)
408 690 4612
408 873 8734
Current or former employees)

Cellular

I + Dispute]

Residential

I ♦Dispute]

Address

AHURAENERGY

I NEVER
WORKED
)R BANK OF
AMERICA,
THIS IS
INCORRECT—

\ ♦ Dispute |

GITiCOM

12309 SARATOGA CREEK SARATOGA CA 95070

| ♦ Dispute}

GALLEON

MILPITAS CA

J ♦Dispute]

BANK OF AMERICA

| ♦ Dispute |

Notices
This address has pertained to a business: 12309 SARATOGA CREEK DR SARATOGA CA 95070.
TRADE CONTRACTOR-SPECIAL TRADE: 12309 SARATOGA CREEK DR, SARATOGA, CA, 95070 .
back to too
Your personal statements
General personal statements currently displaying on your personal credit report at your request appear below.
ID SECURITY ALERT: FRAUDULENT APPLICATIONS MAY BE SUBMITTED IN MY NAME OR MY IDENTITY MAY HAVE
BEEN USED WITHOUT MY CONSENT TO FRAUDULENTLY OBTAIN GOODS OR SERVICES. DO NOT EXTEND CREDIT
WITHOUT FIRST VERIFYING THE IDENTITY OF THE APPLICANT. I CAN BE REACHED AT 408-690-4612. THIS SECURITY
ALERT WILL BE MAINTAINED FOR 90 DAYS BEGINNING 07-21-17.

| ♦ Options J

Add personal statement

back to top
Potentially negative items

O
O
INCORRECT,
O
IDENTITY
THEFT WITH I K Q
OF AMER AND
SELECT
O
PORTFOLIO
SERVICING,

item name
US BKPT CT CA SAN JOSE

Identification
number
1550791ASW

Claim amount
SO

Date filed
03/2015

Status
Chapter 13
bankruptcy
dismissed.

| ♦ Dispute j

item name
US BKPT CT CA SAN JOSE

Identification
number
1650582MEH

Claim amount
$0

Date filed
02/2016

Status
Chapter 13
bankruptcy
dismissed.

| ♦ Dispute^

item name
US BKPT CT CA SAN JOSE

Identification
number
1750499SU

Claim amount
$0

Date filed
03/2017

Status
Chapter 13
bankruptcy petition.

| ♦ Dispute |

Account name
BK OF AMER

Account number
11426....

Recent balance
Not reported

Date opened
09/2005

Status
Transferred,closed.

| ♦ Dispute {

Account name
Account number
SELECT PORTFOLIO SERVICING 277001298....

Recent balance
Not reported

Date opened
09/2005

Status
Paid, Closed.

| ♦ Dispute |

back to too
Accounts in good standing

O
O

Account name
AMERICAN EXPRESS

Account number
3499923984578693

Account name
BANK OF AMERICA

Account number
480011316644....

Recent balance
$2,036 as Of
07/19/2017

Date opened
10/2016

Status
Open/Never late.

| ♦ Dispute |

' Recent balance

Date opened
03/2002

Status
Closed/Never late.

j ♦ Dispute |

31
https://www.experian.com/ncaconline/dispute?intcmp==ncac_shortcut_viewreport

7/21/2017

Experian - Access your credit report

Page 1 of 6
r
FAREED SEPEHRY-FARD | Report number 2722-6720-78 | July 21,2017 | Print report | Logout

Personal
information

Personal
statements

Potentially
negative items

Accounts in
good standing

Credit inquiries

important
messages

Dispute Cart
(0)

Your credit report

4>

Activate Your
Free Account

Helpful Toolkit

Below is all the information currently in your credit report. The payment history guide and common questions will help
explain your credit information. Print this page or write down your report number for future access. To return to your
report in the future, log on to exDerian.com/helo and select "Credit Access" or "Disputes" and then follow the steps.
To dispute information, first select the item from the list below, click the Dispute button and then the dispute reason that
most closely explains the reason you feel the item is inaccurate, or select "Other" and type in your own explanation. You
can also enter any additional information to further explain your dispute by using the free form text box and/or send us
any documents you may have that support your claim at experian.com/upload. Your requests, including both disputes
and any statements you may elect to add to your credit report to explain information, will be stored in a virtual cart as
you continue your session. When finished selecting your disputes or other requests, you will need to access the dispute
cart, where you will be given a chance to review all of your requests before they are submitted. Depending on the
nature of your requests, you may be prompted for alternative actions, such as selecting a different dispute reason for a
particular dispute. You may cancel or edit your requests at any time up until the time they are submitted. Once your
requests are successfully submitted, you will receive a green confirmation message for each item.

Get your FICO® Score
Activate your free account
Fraud center
Freeze center
Know your rights
Common questions

1 855 246 9409

Address

Document upload

Contact us by phone - Monday through
Friday, 8 a.m. to 10 p.m. Central Time
and Saturday and Sunday, 10 a.m. to 7
p.m. Central Time.

Experian
P.O. Box 9701 Allen, TX 75013

Submit documents supporting your claim
electronically at exDerian.com/uoload.

Any pending disputes will be highlighted below.

f+ Expand all jf - Collapse allj
Personal information
Name(s) associated with your credit

Name

Name identification number

FAREED SEPEHRY

28745

FAREED S FARD

18999

FAREED SEPEHRY FARD

11661

FSEPEHRY

2042

FAREED SEPEHRYFARD

17935

FAREED SEPEHRY

20370

+ Dispute

FAREEDSSEPEHRY

16268

♦ Dispute

FARD FAREED SEPEHRY

5381

* Dispute

FAREED SEPEHRIFARD

715

* Dispute

F SEPEHRYFARO

25845

♦ Olepute

SAREED SEPEHRY

4128

+ Dispute

FARO F SEPEHRY

31063

+ Dispute

FAREED SEPEHRYFARO

10588

+ Dispute

FAREED FARD

28310

+ Dispute

13231

* Dispute

20454

+ Dispute

2616 SOMERSET
CAUSED SEPHERY FARD
DR BELMO
94002-2967
IS INCORRtCT
AND SO IS
12309
SARATOGA
CREEK DR APT
SARATOGA CA
95070-3532
FAREED SEP

♦ Dispute

ALL NAMES ARE
INCORRECT. MY
CORRECT NAME IS:
Fareed Sepehry-Fard

+ Dispute
♦ Dispute
+ Dispute
♦ Dispute

Address(es) associated with your credit

Address

Address
identification
number

Residence type

Geographical code

12309 SARATOGA CREEK DR SARATOGA CA 0192699955
95070-3532

Single family

0-50740220-85-7400

j ♦ Dispute |

2616 SOMERSET DR BELMONT CA 940022967

0189008110

Single family

0-60890010-81 -7360

| + Dispute I

18314 BAYLOR AVE SARATOGA CA 950704704

0192703697

Single family

0-50740210-85-7400

I + Dispute I

0403684571

Single family

0-50740220-85-7360

14- Dispute I

https://www.experian.com/ncaconline/dispute?intcmp=ncac_shortcut_viewreport

30
7/21/2017

Credt Inquiries

Nationstar Mortgage LLC, American Express, Chase Banl^
Consu

Suspect Information
Name

StEvenW. Pite

Contact Information

Address: 4375 JUTLAND DRIV^SUTTE 200, SAN DIB30,
CA 92177-0935 USA
Phone Nutter: 858-750-7600
Errail Address: spite@aldidgepite.Qom

Relationship

Other

Addtional Details

Qim'nal racket Nationstar Mortgage LLC president Jay Bray,
attorneys Bernard J. Kcmbergand Joseph WGUzzettawho
lamder dig cartel monies, their own auctioneer,XGME INC
conducts identity theft to ocrver up laundering monies for
cartel.

Under penalty of peijiry, I swear to the best of vn/ knowledge this information is true and correct
I understand that knciwincjy making any false statements to the government may violate federal, state, or local criminal
statutes, and may result in a fine, inprisonment, or both.

Faneed Sepehry-Fand

Date

Use this form to prove to businesses arri credt bureaus that you have submitted an identity theft report to law
enforcement Some businesses mic^Tt request that you also file a report with your local police.

Ps§?3of3

£PZg§fd

eDuaui\/jo>|ueg aonaujopi juaufoicttig
idV

aJOS|ezoOt^\Oim^0ayai3S^JOS9T9Z :s0ssaf3pv
auBU jo uoqeu^ 9i p ssbcdo u| bjsm 3J3LUL saueN
jaciunu A)ut39S |epos

uoRaiuafui ^uosjsd

}jodai

4P&D Ajj uo JE0dde sa&jeip jo spume pappnay 'ssa

sa&iap jo SMXxrv
SMOcteu jgiao uo uorouiojui ju3)npnej=|

0000081$

ZT02/T

qunouie juappnejj lejoj.

m paia/rasp i v&r am

>ffliD\mLvavs6(m

:jaqirfyj jifiaoov

•DNIHaDX

MOREzueftojo/uatuco
ubctj a^sg

|eay juappn&y

0000081$

ZIOZ/T

quxuie|ua|npne^|epi

R! pao/rasp i jor ajBQ
V>6SZ800Si

:jaqxrN *nooav

ddCDNOOBd^D

worezu^o jo /ubcIucq

uecn phEgg |esu quanneig

00000b $

ZIOZ/l

qMiauejudnmejj lepj.

mpao^oospnapaiEa

S9Z9668090
VN 'auo RidBD

:jaqjrN ynoaav
mrezuEExq jo AuedUKQ

uBoi aiEisg |eay quappnEij

FEDERAL TRADE COMMISSION
fkt ‘ 6 M .

Identity Theft Report

&

FTC Report Nurber:
83286584

I am a victim cf Identity th^t "This is myoffidal statement about the aims.
Gortact Information
Fareed Sepehry-Rard
c/o 12309 Saratoga CTeek Dr.
Saratoga, 95070

408-690-4612
ahiraenergysolarcellstgOmcDm

Dormnal
■^Cl dURIdl GHAomanl1
3Im«m1 I El 9L

Case affects millions,CLEAR REOGN QORP,NATICNSrAR MORTGAGE LLC and XCFE INC aided and abetted by
attorneys at Severson and \Aferson [Bernard! Komberg and Joseph W. Guzzetta] forged my signature on a
promissory note and daim falsely that i: haws borrowed $1.6M from Greenpoint Mortgage LLC using my SSN.i:
spent thousands of dollars and hired a private detective and expert witness who prepared an affidavit that
Greenpoint Mortgage Firdng, Inc. dd not exist in California in 2007 when it daimed to have loaned me monies
since it surrendered to California Secretary of state in 2004. All payments on a non existing loan has been received
and there is no defaiit CLEAR REOON GORP changed the date of auctioning my home of 20 years+and sdd my
home to the so called benefiaary[us bank as trustee, dosed in 2007] in a private sale when no one was present,i:
have proof that i: never borrowed any monies from these peopleJhey have stolen my identity by forcing my
sigratLre and using my SSN.

Aooounts Affected by the Crime
Fraudulent Real Estate Loan
Company or Organization:

Nationstar Mortgage LLC

Aoocnrt Nurber:

0598597508

Date that I cfscovered it

Total fraudulent amomt

1/2017

$1800000

Ps§?1 of 3

/

f

i

FEDERAL TRADEXOMMISSION

Mail
Drop

• / ,r~ C i
'i \ 0_______

$0,460

■«oao7
SEP %y

US POSTAGE
FIRST-CLASS
■* 062S-863678810
20580
‘■*1

mat

WASHINGTON, D,C. 20580

8

OFFICIAL BUSINESS

I

l

i

95D70-3B3203

26

UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 205S0

Fareed Fard
12309 Saratoga Creek Dr.,
Saratoga, CA 95070

SEP -i 1 2017
Re-

F01A-2017-01307
Nationstar Mortgage; Greenpoint
Mortgage Funding; Capital One;
U.S. Bank National Ass’s; Clear
Recon; XOME consumer-complaints------

Dear Mr. Fard:
This letter confirms your September 7, 2017. telephone conversation with Chip Taylor
concerning your Freedom of Information Act (FOIA) request for records pertaining to consumer
complaints from tire past five years concerning the following companies:
1.
2.
3.
4.
5.
6.

Nationstar Mortgage, LLC:
Greenpoint Mortgage Funding, Inc.;
Capital One, N.A.:
U.S. Bank National Association, as Trustee for Greenpoint Mortgage Trust Mortgage;
Clear Recon Corp.; and
XOME, Inc.

In that conversation, concerning item 1 of your request you amended your request to seek the
complaints filed in 2017. This is due to the Nationstar Mortgage having an overly burdensome
17,998 complaints.
If you should have any questions regarding your request, please contact Chip Taylor at
__ 202^.326-3258.

Dione J. Steams
Assistant General Counsel

25

Office of the Sheriff

County of Santa Clara

ED3EIME®!I©V E)0A(L ©U U
I
t

■II

J

7KS?=i" *s=rMnfl. ___ cenn

■1

I

J

Records/Reports (408) 808-4700
Investigations

(408) 808-4500 fiSST1 SB £2^ isSS

EVENT NUMBER lr~A.0t-o228£

/

SOUTH COUNTY SUBSTATION
80 Highland Avenue
San Martin, California 95046

DATE

(

?

*7“

TYPE OF INCIDENT SuSfilCi £30 £>

V

/
/

WAS A REPORT TAKEN?

YES

NO

DEPUTY

Off.ce of the Sheriff regarding this incident. If youor K2^numbw Whenever you contact «•
associated with this incident you will generally be rennirprt tr,
traffic reports require additional time9^^^
■?
J

*

a****™ ptofJ

,

pany require a C°PY of the report
0< ten worW"0 days- Some

med^coP,aa.of reports.

-aan

745.31
24

I
i
-

CONFIDENTIALITY NOTICE: This message and any attached documents may
contain confidential information. The information is intended only for the use of
the individual or entity named above. If the reader of this message is not the
intended recipient, or an employee or agent responsible for the delivery of this
message to the intended recipient, the reader is hereby notified that any
dissemination, distribution or copying of this message or of any attached
documents, or the taking of any action or omission to take any action in reliance
on the contents of this message or of any attached documents, is strictly
prohibited. If you have received this communication in error, please delete the
message immediately.

23

From: info@truefiling.com <info@truefiiing.com>
Sent: Tuesday, January 7, 2020 11:07 AM
To: ahuraenergysolarcells@msn.com <ahuraenergysolarcells@msn.com>
Subject: TrueFiling: Service Notification - CA 6th District Court of Appeal - Case No. H039052

The following document(s) listed below are being electronically served to you for
case H039052 by Fareed :Sepehry-Fard from the CA 6th District Court of
Appeal.
•

Document Title: errata re motion to recall remittur
Link: Click to download document
Or Copy and Paste: https://tf3.truefiling.com/openfiling/8327b8d6-289947c8-f9ae-08d79364a470/recipient/30f407f7-4199-41d0-ce0608d79364a504/download

The following people were served the above document(s):
•
•
•

Adam Barasch - e-Serve anb@severson.com
Fareed :Sepehry-Fard - e-Serve ahuraenergysolarcells@msn.com
Mark Kenney - e-Serve mjk@severson.com

***** This email was sent from an unattended email mailbox -replies to this email
will be rejected *****

About TrueFiling

TrueFiling is a 24x7 Web-based e - file and e-service solution for courts, law firms
and self - represented filers.lt expedites justice by reducing paper handling and
travel time and improves the court's internal processes through electronic
workflow.
Home page: https://tf3.truefiling.com
Copyright 2019, ImageSoft, Inc.
Home page: http://www.imagesoftinc.com

22

From: info@truefiling.com <info@truefiling.com>
Sent: Friday, January 10, 2020 10:08 AM
To: ahuraenergysolarcells@msn.com <ahuraenergysolarcells@msn.com>
Subject: CA 6th District Court of Appeal - Filing Rejected - Case No. FI039052

The filing filed into Case No. H039052, Sepehry-Fard v. Aurora Bank, FSB, et al. in the
CA 6th District Court of Appeal has been REJECTED by LBROOKS: This court has
lost jurisdiction and unable to rule on your motion.
•
•
.
•

Filing Rejected: 1/7/2020 11:06 AM
Filing Name: errata re motion to recall remittur
Filing Type: MISCELLANEOUS - ADDITIONAL DOCUMENTS
Filed By: Fareed :Sepehry-Fard (Pro Per)

*****This email was sent from an unattended email mailbox -replies to this email will be
rejected *****
About TrueFiling
TrueFiling is a 24x7 Web-based e - file and e-service solution for courts, law firms and
self - represented filers.lt expedites justice by reducing paper handling and travel time
and improves the court's internal processes through electronic workflow.
Home page: https://tf3.truefiling.com
Copyright 2019, ImageSoft, Inc.
Home page: http://www.imagesoftinc.com
CONFIDENTIALITY NOTICE: This message and any attached documents may contain
confidential information. The information is intended only for the use of the individual or
entity named above. If the reader of this message is not the intended recipient, or an
employee or agent responsible for the delivery of this message to the intended recipient,
the reader is hereby notified that any dissemination, distribution or copying of this
message or of any attached documents, or the taking of any action or omission to take
any action in reliance on the contents of this message or of any attached documents, is
strictly prohibited. If you have received this communication in error, please delete the
message immediately.

21

Home page: http://www.imagesoftinc.com

CONFIDENTIALITY NOTICE: This message and any attached documents may
contain confidential information. The information is intended only for the use of
the individual or entity named above. If the reader of this message is not the
intended recipient, or an employee or agent responsible for the delivery of this
message to the intended recipient, the reader is hereby notified that any
dissemination, distribution or copying of this message or of any attached
documents, or the taking of any action or omission to take any action in reliance
on the contents of this message or of any attached documents, is strictly
prohibited. If you have received this communication in error, please delete the
message immediately.

20

From: info@truefiling.com <info@truefiling.com>
Sent: Friday, January 10, 2020 10:09 AM
To: ahuraenergysolarcells@msn.com <ahuraenergysolarcells@msn.com>
Subject: CA 6th District Court of Appeal - Filing Rejected - Case No. H039052

The filing filed into Case No. H039052, Sepehry-Fard v. Aurora Bank, FSB, et al. in the
CA 6th District Court of Appeal has been REJECTED by LBROOKS: This court has
lost jurisdiction and unable to rule on motion.
•
•
•
•

Filing Rejected: 1/7/2020 9:54 AM
Filing Name: MAIN - motion to recall remittur
Filing Type: MOTION - MOTION TO REINSTATE
Filed By: Fareed :Sepehry-Fard (Pro Per)

*****This email was sent from an unattended email mailbox -replies to this email will be
rejected *****
About TrueFiling
TrueFiling is a 24x7 Web-based e - file and e-service solution for courts, law firms and
self - represented filers.lt expedites justice by reducing paper handling and travel time
and improves the court's internal processes through electronic workflow.
Home page: https://tf3.truefiling.com
Copyright 2019, ImageSoft, Inc.
Home page: http://www.imagesoftinc.com
CONFIDENTIALITY NOTICE: This message and any attached documents may contain
confidential information. The information is intended only for the use of the individual or
entity named above. If the reader of this message is not the intended recipient, or an
employee or agent responsible for the delivery of this message to the intended recipient,
the reader is hereby notified that any dissemination, distribution or copying of this
message or of any attached documents, or the taking of any action or omission to take
any action in reliance on the contents of this message or of any attached documents, is
strictly prohibited. If you have received this communication in error, please delete the
message immediately.

19

From: info@truefiling.com <info@truefiling.com>
Sent: Friday, January 10, 2020 10:09 AM
To: ahuraenergysolarcells@msn.com <ahuraenergysolarcells@msn.com>
Subject: TrueFiling: Rejected Service Notification r- CA 6th District Court of Appeal - Case No.
H039052

The following document(s) that were electronically served to you for case
H039052 by Fareed :Sepehry-Fard from the CA 6th District Court of Appeal
have been REJECTED as noted below.
•

\t

Document Title: MAIN - motion to recall remittur
Status: REJECTED
Link: Click to download document
Or Copy and Paste: https://tf3.truefiling.com/openfiling/ec769080-f8c8
46ff-f941-08d79364a470/court/998bc60b-8890-4ebf-6a4d08d653dcdb23/recipient/994debdc-231f-4371-cda808d79364a504/downloadrejected

The following people were electronically served the above rejected document(s):
•
•
•

Adam N Barasch (anb@severson.com)
Fareed :Sepehry-Fard (ahuraenergysolarcells@msn.com)
Mark J Kenney (mjk@severson.com)

***** This email was sent from an unattended email mailbox -replies to this email
will be rejected *****

About TrueFiling

TrueFiling is a 24x7 Web-based e - file and e-service solution for courts, law firms
and self - represented filers.lt expedites justice by reducing paper handling and
travel time and improves the court's internal processes through electronic
workflow.
Home page: https://tf3.truefiling.com
Copyright 2019, ImageSoft, Inc.

18

From: info@truefiling.com <info@truefiling.com>
Sent: Friday, January 10, 2020 10:11 AM
To: ahuraenergysolarcells@msn.com <ahuraenergysolarcells@msn.com>
Subject: CA 6th District Court of Appeal - Filing Rejected - Case No. H039052

The filing filed into Case No. H039052, Sepehry-Fard v. Aurora Bank, FSB, et al. in the
CA 6th District Court of Appeal has been REJECTED by LBROOKS: This court has
lost jurisdiction and unable to rule on your motion.
•
•
.
•

Filing Rejected: 1/7/2020 9:54 AM
Filing Name: EXHIBIT 2 - motion to recall remittur-2
Filing Type: EXHIBIT - EXHIBITS
Filed By: Fareed :Sepehry-Fard (Pro Per)

*****This email was sent from an unattended email mailbox -replies to this email will be
rejected *****
About TrueFiling
TrueFiling is a 24x7 Web-based e - file and e-service solution for courts, law firms and
self - represented filers.lt expedites justice by reducing paper handling and travel time
and improves the court's internal processes through electronic workflow.
Home page: https://tf3.truefiling.com
Copyright 2019, ImageSoft, Inc.
Home page: http://www.imagesoftinc.com
CONFIDENTIALITY NOTICE: This message and any attached documents may contain
confidential information. The information is intended only for the use of the individual or
entity named above. If the reader of this message is not the intended recipient, or an
employee or agent responsible for the delivery of this message to the intended recipient,
the reader is hereby notified that any dissemination, distribution or copying of this
message or of any attached documents, or the taking of any action or omission to take
any action in reliance on the contents of this message or of any attached documents, is
strictly prohibited. If you have received this communication in error, please delete the
message immediately.

17

Home page: http://www.imagesoftinc.com

CONFIDENTIALITY NOTICE: This message and any attached documents may
contain confidential information. The information is intended only for the use of
the individual or entity named above. If the reader of this message is not the
intended recipient, or an employee or agent responsible for the delivery of this
message to the intended recipient, the reader is hereby notified that any
dissemination, distribution or copying of this message or of any attached
documents, or the taking of any action or omission to take any action in reliance
on the contents of this message or of any attached documents, is strictly
prohibited. If you have received this communication in error, please delete the
message immediately.

0

16

From: info@truefiling.com <info@truefiling.com>
Sent: Friday, January 10, 2020 10:11 AM
To: ahuraenergysolarcells@msn.com <ahuraenergysolarcells@msn.com>
Subject: TrueFiling: Rejected Service Notification - CA 6th District Court of Appeal - Case No.
H039052

The following document(s) that were electronically served to you for case
H039052 by Fareed :Sepehry-Fard from the CA 6th District Court of Appeal
have been REJECTED as noted below.
•

Document Title: EXHIBIT 2 - motion to recall remittur-2
Status: REJECTED
Link: Click to download document
Or Copy and Paste: https://tf3.truefiling.com/openfiling/4b953cb5-82e5463e-f943-08d79364a470/court/998bc60b-8890-4ebf-6a4d08d653dcdb23/recipient/994debdc-231f-4371-cda808d79364a504/downloadrejected

The following people were electronically served the above rejected document(s):
•
•
•

Adam N Barasch (anb@severson.com)
Fareed :Sepehry-Fard (ahuraenergysolarcells@msn.com)
Mark J Kenney (mjk@severson.com)

***** This email was sent from an unattended email mailbox -replies to this email
will be rejected *****

About TrueFiling

TrueFiling is a 24x7 Web-based e - file and e-service solution for courts, law firms
and self - represented filers.lt expedites justice by reducing paper handling and
travel time and improves the court’s internal processes through electronic
workflow.
Home page: https://tf3.truefiling.com
Copyright 2019, ImageSoft, Inc.

15

From: info@truefiling.com <info@truefiling.com>
Sent: Friday, January 10, 2020 10:12 AM
To: ahuraenergysolarcells@msn.com <ahuraenergysolarcells@msn.com>
Subject: CA 6th District Court of Appeal - Filing Rejected - Case No. H039052

The filing filed into Case No. H039052, Sepehry-Fard v. Aurora Bank, FSB, et al. in the
CA 6th District Court of Appeal has been REJECTED by LBROOKS: this court has
lost jurisdiction and unable to rule on your motion.
.
•
•
•

Filing Rejected: 1/7/2020 9:54 AM
Filing Name: EXHIBIT-1 - motion to recall remittur
Filing Type: EXHIBIT - EXHIBITS
Filed By: Fareed :Sepehry-Fard (Pro Per)

*****This email was sent from an unattended email mailbox -replies to this email will be
rejected *****
About TrueFiling
TrueFiling is a 24x7 Web-based e - file and e-service solution for courts, law firms and
self - represented filers.lt expedites justice by reducing paper handling and travel time
and improves the court's internal processes through electronic workflow.
Home page: https://tf3.truefiling.com
Copyright 2019, ImageSoft, Inc.
>

Home page: http://www.imagesoftinc.com
CONFIDENTIALITY NOTICE: This message and any attached documents may contain
confidential information. The information is intended only for the use of the individual or
entity named above. If the reader of this message is not the intended recipient, or an
employee or agent responsible for the delivery of this message to the intended recipient,
the reader is hereby notified that any dissemination, distribution or copying of this
message or of any attached documents, or the taking of any action or omission to take
any action in reliance on the contents of this message or of any attached documents, is
strictly prohibited. If you have received this communication in error, please delete the
message immediately.

14

Home page: http://www.imagesoftinc.com

CONFIDENTIALITY NOTICE: This message and any attached documents may
contain confidential information. The information is intended only for the use of
the individual or entity named above. If the reader of this message is not the
intended recipient, or an employee or agent responsible for the delivery of this
message to the intended recipient, the reader is hereby notified that any
dissemination, distribution or copying of this message or of any attached
documents, or the taking of any action or omission to take any action in reliance
on the contents of this message or of any attached documents, is strictly
prohibited. If you have received this communication in error, please delete the
message immediately.

13

1

3. Delivery via U.S.P.S. First Class Mail Certified and Registered Delivery
Article Number 7019 1640 0000 4046 3601 to:
President Trump
The White House
1600 Pennsylvania Avenue NW
Washington, DC 20500

2

3

4

5

4. Delivery via U.S.P.S. First Class Mail Certified and Registered Delivery
Article Number 7019 1640 0000 4046 3595 to:
Office of the Chairman of the Joint Chiefs of Staff
General Mark Milley
9999 Joint Staff Pentagon
Washington, D.C. 20318-9999
ti
s*
O
V
5. JOSEPH W. GUZZETTA OR JAN CHILTON OR ANY OTHER
a)
BRITISH OR BAR AGENT
Severson and Werson, APC.
f^
One Embarcadero Center
si
Suite 2600
<
San Francisco, CA 94111, USA
U
Through true filing
a>

6

7

8

n

9

10

ii

&

12

3.

K ^

All others through true filing

13

0)
ti?

cu

ti

14

(1>

tj
fl)

15

CJ

C)

16

O

17

18

19

20

5

8

J

PROOF OF SERVICE

1

2

3

4

5

6

i;, a man, Fareed-Sepehry-Fard®, do hereby solemnly declare that on March 11th,
2020, i : did cause to be delivered by USPS mail or fax or through electronic filing,
where identified, a true and correct copy of the foregoing instruments ("NOTICE OF
APPEAL RE: DENIAL OF VERIFIED PETITION FOR WRIT OF
MANDATE OR PROHIBITION TO THE Supreme Court of the United States;
DECLARATION") including true and correct copies of all/any documents
referenced therein as "attached hereto", to the parties and locations listed below
except the one indentified by the Secured party Creditor:

7

t:

8

9

10

li

12

1

13

14

TO:

3
O

F areed-Spehry-Fard©
C/o 12309 Saratoga Creek Dr.,
Rancho Quito, City of Saratoga,
California Republic
Tel: (408) 6904612

CJ
<L>

6CD
S-i

Q.

3

C/0
<

U

1. OFFICE OF THE CLERK
Supreme Court of California
350 McAllister Street
Room 1295
San Francisco, CA 94102-4797
Through true filing
and a hard copy by mail

CD
-C
^*
”C

<U

>

CL

G
<L

C
0.

15

16

17

18

19

20

E

2. Deliveiy via U.S.P.S. First Class Mail Certified and Registered
Delivery Article Number 7019 1640 0000 4046 3618 to:
To: Attorney General BanHuman Trafficking Department
Complaint Number TRN 1906-0489 DOJ TA
1197671 NCMEC TA 11749 ST FARM 49 F33 4564
AM FAM 01000914639 POLARIS 59004 NHTH
545121
U.S. Department of Justice ("DOJ")
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

O
C>

C

4

7

